<html>
<title> - OVERSIGHT HEARING ON CLIMATE CHANGE AND PUBLIC LANDS: EXAMINING IMPACTS AND CONSIDERING ADAPTATION OPPORTUNITIES</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


  CLIMATE CHANGE AND PUBLIC LANDS: EXAMINING IMPACTS AND CONSIDERING 
                       ADAPTATION OPPORTUNITIES

=======================================================================

                           OVERSIGHT HEARING

                               Before the

       SUBCOMMITTEE ON NATIONAL PARKS, FORESTS, AND PUBLIC LANDS

                                 OF THE

                     COMMITTEE ON NATURAL RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                      Wednesday, February 13, 2019

                               __________

                            Serial No. 116-5

                               __________

       Printed for the use of the Committee on Natural Resources
       
       
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]      


        Available via the World Wide Web: http://www.govinfo.gov
                                   or
          Committee address: http://naturalresources.house.gov
          
          
                              __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
35-200 PDF                  WASHINGTON : 2019                     
          
-----------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).E-mail, 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="6d0a1d022d0e181e190508011d430e020043">[email&#160;protected]</a>                          
      

                     COMMITTEE ON NATURAL RESOURCES

                      RAUL M. GRIJALVA, AZ, Chair
                    DEBRA A. HAALAND, NM, Vice Chair
   GREGORIO KILILI CAMACHO SABLAN, CNMI, Vice Chair, Insular Affairs
               ROB BISHOP, UT, Ranking Republican Member

Grace F. Napolitano, CA              Don Young, AK
Jim Costa, CA                        Louie Gohmert, TX
Gregorio Kilili Camacho Sablan,      Doug Lamborn, CO
    CNMI                             Robert J. Wittman, VA
Jared Huffman, CA                    Tom McClintock, CA
Alan S. Lowenthal, CA                Paul A. Gosar, AZ
Ruben Gallego, AZ                    Paul Cook, CA
TJ Cox, CA                           Bruce Westerman, AR
Joe Neguse, CO                       Garret Graves, LA
Mike Levin, CA                       Jody B. Hice, GA
Debra A. Haaland, NM                 Aumua Amata Coleman Radewagen, AS
Jefferson Van Drew, NJ               Daniel Webster, FL
Joe Cunningham, SC                   Liz Cheney, WY
Nydia M. Velazquez, NY               Mike Johnson, LA
Diana DeGette, CO                    Jenniffer Gonzalez-Colon, PR
Wm. Lacy Clay, MO                    John R. Curtis, UT
Debbie Dingell, MI                   Kevin Hern, OK
Anthony G. Brown, MD                 Russ Fulcher, ID
A. Donald McEachin, VA
Darren Soto, FL
Ed Case, HI
Steven Horsford, NV
Michael F. Q. San Nicolas, GU
Matt Cartwright, PA
Vacancy
Vacancy

                     David Watkins, Chief of Staff
                        Sarah Lim, Chief Counsel
                Parish Braden, Republican Staff Director
                   http://naturalresources.house.gov
                                 
                                 
                                 
                                 ------                                

       SUBCOMMITTEE ON NATIONAL PARKS, FORESTS, AND PUBLIC LANDS

                      DEBRA A. HAALAND, NM, Chair
                DON YOUNG, AK, Ranking Republican Member

Joe Neguse, CO                       Louie Gohmert, TX
Diana DeGette, CO                    Tom McClintock, CA
Debbie Dingell, MI                   Paul Cook, CA
Steven Horsford, NV                  Bruce Westerman, AR
Jared Huffman, CA                    Jody B. Hice, GA
Ruben Gallego, AZ                    Daniel Webster, FL
Alan S. Lowenthal, CA                John R. Curtis, UT
Ed Case, HI                          Russ Fulcher, ID
Vacancy                              Rob Bishop, UT, ex officio
Vacancy
Raul M. Grijalva, AZ, ex officio

                                
                                
                             ----------                                                             
                                                         
                              CONTENTS

                              ----------                              
                                                                   Page

Hearing held on Wednesday, February 13, 2019.....................     1

Statement of Members:
    Dingell, Hon. Debbie, a Representative in Congress from the 
      State of Michigan, prepared statement of...................    66
    Haaland, Hon. Debra A., a Representative in Congress from the 
      State of New Mexico........................................     1
        Prepared statement of....................................     2
    Young, Hon. Don, a Representative in Congress from the State 
      of Alaska..................................................     3
        Prepared statement of....................................     5

Statement of Witnesses:
    Cole, Hans, Director of Environmental Campaigns and Advocacy, 
      Patagonia, Inc., Ventura, California.......................    31
        Prepared statement of....................................    32
        Questions submitted for the record.......................    34
    Gonzalez, Patrick, Associate Adjunct Professor, University of 
      California-Berkeley, Berkeley, California..................     6
        Prepared statement of....................................     7
    Hansen, Lara J., Executive Director and Chief Scientist, 
      EcoAdapt, Bainbridge Island, Washington....................    16
        Prepared statement of....................................    18
        Questions submitted for the record.......................    26
    Oneil, Elaine, Oneil Forest Research and Management, Tenino, 
      Washington.................................................    36
        Prepared statement of....................................    37

Additional Materials Submitted for the Record:
    Harmon, Dr. Mark E., Professor Emeritus, Oregon State 
      University, statement for the record.......................    67
    List of documents submitted for the record retained in the 
      Committee's official files.................................    73
                                     


 
OVERSIGHT HEARING ON CLIMATE CHANGE AND PUBLIC LANDS: EXAMINING IMPACTS 
                AND CONSIDERING ADAPTATION OPPORTUNITIES

                              ----------                              


                      Wednesday, February 13, 2019

                     U.S. House of Representatives

       Subcommittee on National Parks, Forests, and Public Lands

                     Committee on Natural Resources

                             Washington, DC

                              ----------                              

    The Subcommittee met, pursuant to notice, at 10:04 a.m., in 
room 1324, Longworth House Office Building, Hon. Deb Haaland 
[Chairwoman of the Subcommittee] presiding.
    Present: Representatives Haaland, Neguse, DeGette, 
Horsford, Huffman, Lowenthal, Case, Grijalva; Young, Westerman, 
Hice, Curtis, Fulcher, and Bishop.

    Ms. Haaland. The Subcommittee on National Parks, Forests, 
and Public Lands will now come to order. The Subcommittee is 
meeting today to hear testimony on the impacts of climate 
change on public lands, and to consider adaptation 
opportunities.
    Under Committee Rule 4(f), any oral opening statements at 
hearings are limited to the Chairman and Ranking Minority 
Member. Therefore, I ask unanimous consent that all other 
Members' opening statements be made part of the hearing record, 
if they are submitted to the Clerk by 5 p.m. today.
    Hearing no objection, so ordered.

  STATEMENT OF THE HON. DEBRA A. HAALAND, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF NEW MEXICO

    Ms. Haaland. Today is an exciting day. It will be the first 
of a new era for this Committee and for this Congress, an era 
of inclusion, where the diverse voices of the American people 
are clearly heard in these halls. We will uphold our public 
lands as a point of pride that all Americans can share and co-
own. These special places will serve as refuge for our highest 
values, and as places of growth toward our Nation's future.
    I want to start this hearing, the first of the 116th 
Congress for this Subcommittee, by thanking my fellow Members 
for joining me in this important work. I am grateful for the 
confidence you have expressed in selecting me to chair this 
Subcommittee. It is my sincere hope that we will find common 
ground on important issues, and I promise you that we will lead 
this Congress, the most diverse in history, toward bold policy 
solutions that benefit our Federal lands and our communities.
    We begin that leadership today as we confront the most 
pressing issue facing our Nation, which is climate change. We 
will hear testimony from leading scientists about the 
disproportionate impact climate change is already having on our 
public lands.
    Our national parks are warming twice as fast as the rest of 
the country. Parks in the Southwest, my home, and the home of 
many of my fellow Members here on this dais, are experiencing 
unprecedented aridity. That means less water for ecosystems, 
which, in turn, means less water for our homes and our farmers, 
because we live in a deeply inter-connected world, where 
changes to one system impact all others.
    We rely on the natural world to provide us with many of the 
things we depend on each day, from clean water and clean air to 
flood control and coastal protection. At a time when these 
natural services are under threat from global climate change, 
Americans will require strong leadership to ensure that we are 
ready to adapt to these changes and to meet these challenges.
    Unfortunately, the Trump administration has failed to 
provide this leadership. They see fit to pursue energy 
dominance at all costs, to push an extractive and destructive 
agenda that has left our public lands responsible for nearly 
one-quarter of all CO<INF>2</INF> emissions. At the same time, 
the Administration has suppressed science and prevented 
adaptation. They canceled executive orders outlining adaptation 
strategies on public lands, and even pulled back guidance on 
climate change and national security. They ignored the science 
of climate change, relying on outdated and inadequate mandates, 
and put Americans in harm's way.
    If this Administration will not take the lead, this 
Committee will. Dr. Gonzalez will help us to understand the 
threat we face by explaining the impact climate change will 
have on our public lands. We will then hear from a top climate 
change adaptation scientist, Dr. Lara Hansen, because we can no 
longer afford to stand on the sidelines and do nothing.
    It is time for America to act on climate change, and our 
public lands are one of the best resources for us to do so. 
Public lands protect biodiversity and the ecosystems on which 
our daily lives depend. They provide space for the natural 
world to adapt to the new climate we have created. And they 
form the backbone of nearly a $1 trillion outdoor recreation 
economy that can help us create good, clean jobs.
    Climate change is an unprecedented challenge that will 
require big and bold solutions. Today, we take the first step 
toward meaningful action by hearing the risks we face, and by 
considering how we can prepare our communities, our country, 
and our public lands for the challenges climate change 
presents.
    Thank you all for joining me here today. I look forward to 
our leadership on these issues.
    Thank you again to the witnesses. I look forward to your 
testimony.

    [The prepared statement of Ms. Haaland follows:]
Prepared Statement of the Hon. Debra A. Haaland, Chair, Subcommittee on 
               National Parks, Forests, and Public Lands
    Today is an exciting day. It will be the first of a new era for 
this Committee and for this Congress. An era of inclusion, where the 
diverse voices of the American people are clearly heard in these halls. 
We will hold up our public lands as a point of pride that all Americans 
share in and co-own. These special places will serve as refuge for our 
highest values and as places of growth toward our Nation's future.
    I want to start this hearing, the first of the 116th Congress for 
the Subcommittee on National Parks, Forests, and Public Lands, by 
thanking my fellow Members for joining me in this important work. I am 
grateful for the confidence you have expressed in selecting me to chair 
this Subcommittee. It is my sincere hope that we will find common 
ground on important issues, and I promise you that we will lead this 
Congress, the most diverse in history, toward bold policy solutions 
that benefit our Federal public lands and our communities.
    We begin that leadership today as we confront the most pressing 
issue facing our Nation--climate change. We will hear testimony from 
leading scientists about the disproportionate impact climate change is 
already having on our public lands.
    Our national parks are warming twice as fast as the rest of the 
country. Parks in the Southwest, my home, and the home of many of my 
fellow Members here on the dais, are experiencing unprecedented 
aridity. That means less water for our ecosystems--which in turn means 
less water for our homes and our farmers, because we live in a deeply 
interconnected world where changes to one system impact all others.
    We rely on the natural world to provide us with many of the things 
we depend on each day, from clean water and clean air to flood control 
and coastal protection. At a time when these natural services are under 
threat from global climate change, Americans will require strong 
leadership to ensure that we are ready to adapt to these changes and to 
meet these challenges.
    Unfortunately, the Trump administration has failed to provide this 
leadership. They see fit to pursue energy dominance at all costs; to 
push an extractive and destructive agenda that has left our public 
lands responsible for nearly one-quarter of all U.S. CO<INF>2</INF> 
emissions. At the same time, the Administration has suppressed science 
and prevented adaptation. They canceled Executive Orders outlining 
adaptation strategies on public lands and even pulled back guidance on 
climate change and national security. They ignore the science of 
climate change, relying on outdated and inadequate mandates, and put 
Americans in harm's way.
    If this Administration will not take the lead, this Committee will. 
Dr. Gonzalez will help us understand the threat we face by explaining 
the impact climate change will have on our public lands. We will then 
hear from a top climate change adaptation scientist, Dr. Lara Hansen, 
because we can no longer afford to stand on the sidelines and do 
nothing.
    It is time for America to act on climate change, and our public 
lands are one of the best resources for us to do so. Public lands 
protect biodiversity and the ecosystems on which our daily lives 
depend. They provide space for the natural world to adapt to the new 
climate we have created. And they form the backbone of a nearly 
trillion-dollar outdoor recreation economy that can help us create 
good, clean jobs.
    Climate change is an unprecedented challenge that will require big 
and bold solutions. Today, we take the first step toward meaningful 
action by hearing the risks we face and by considering how we can 
prepare our communities, our country, and our public lands for the 
challenges climate change presents.
    Thank you all for joining me here today. I look forward to our 
leadership on these issues.
    Thank you again to the witnesses. I look forward to your testimony.

                                 ______
                                 

    Ms. Haaland. I now recognize the Ranking Member, Mr. 
Curtis, for his opening statement.
    Mr. Curtis. Thank you very much. It is a pleasure to sit in 
for our Ranking Member, Don Young. And on his behalf and all of 
our behalf, I would like to congratulate Representative Haaland 
on her election to the House of Representatives, and for being 
selected as the new Chair of the National Parks, Forests, and 
Public Lands Subcommittee.
    I will now read Mr. Young's statement.

 STATEMENT OF THE HON. DON YOUNG, A REPRESENTATIVE IN CONGRESS 
                    FROM THE STATE OF ALASKA

    Mr. Curtis. I look forward to working with her and this 
Congress on the many important land issues facing our country.
    Today, we meet to discuss the impacts of climate change on 
our Federal lands and to examine adaptation opportunities. It 
is certainly my hope that we will use this time to discuss 
innovative land management solutions that fall under this 
Subcommittee's jurisdiction.
    All too often this issue has been used as a vehicle to push 
a radically progressive agenda that would prove to be 
devastating for American families, and would offer minimal, at 
best, climate results. Among the policy goals that have been 
expressed includes calls for complete elimination of air 
travel, cows, and nuclear energy.
    Fearmongering and unrealistic rhetoric should have no place 
in this debate. Instead, we should focus on pragmatic solutions 
that offer realistic environmental solutions.
    And on that note, I would like to turn the microphone over 
to Ranking Member Don Young to finish his statement.
    [Laughter.]
    Mr. Young. Madam Chair, I apologize.
    Ms. Haaland. No need to apologize.
    Mr. Young. I will say that those that live on the Hill have 
it made. Those that live 25 miles out, it is not good. I hate 
the traffic.
    Ms. Haaland. We are happy to see you.
    Mr. Young. I am here to--first, let me congratulate you for 
being Chairman, and I do apologize. This is a very important 
Committee.
    I would say, seriously, we ought to start thinking about 
reducing carbon emissions, but we also ought to be talking 
about how do we address that in some of the areas which we have 
been working on.
    I think we have to look at the forests, something I am very 
interested in, because we have the largest national forest in 
America in Alaska. And we have lost use of that: 16.8 million 
acres of the forest, only 4 percent has been managed for timber 
production. And consequently, we have very large forests that 
have dead trees. We have had that in other areas.
    I can tell you that, in Alaska, because we did not manage, 
did not harvest some trees--I am not saying all--we have lost 
two pulp mills, five large sawmills, and a lot of small mills. 
But we also lost 6,000 good, high-paying, middle-class jobs. 
For what cause, I don't know. They say, we have to protect it. 
But what we don't manage, we lose the forest. This has happened 
in the Lower 48. People will talk to that, as we know. 
Tremendous forest fires. It is a loss. And it also contributes 
to the carbon, the gases in the air, and the particulate amount 
in the air.
    So, I suggest, respectfully, one of our jobs is to see 
whether we can manage better, instead of saying no, ask what we 
can do. Other countries have done beautifully. If you go to 
Sweden, they have managed their forests for centuries, and they 
produce a lot of timber and they employ a lot of people. And it 
looks like a brand-new forest.
    So, that is what we have to consider. And I do think this 
is a great hearing. We have good witnesses today. There are 
differences of opinion, but I just want us to adapt as part of 
this hearing, and I am happy with what we are proceeding here. 
I would submit the rest of my statement for the record and 
yield back the balance of my time.

    [The prepared statement of Mr. Young follows:]
Prepared Statement of the Hon. Don Young, Ranking Member, Subcommittee 
              on National Parks, Forests, and Public Lands
    I would first like to congratulate Representative Haaland on her 
election to the House of Representatives and for being selected as the 
new Chair of the National Parks, Forests, and Public Lands 
Subcommittee. I look forward to working with her this Congress on many 
of the important land management issues facing our country.
    Today we meet to discuss the impacts of climate change on our 
Federal lands and to examine adaptation opportunities. It is certainly 
my hope that we use this time to discuss innovative land management 
solutions that fall under this Subcommittee's jurisdiction.
    All too often, this issue has been used as a vehicle to push a 
radically progressive agenda that would prove to be devastating for 
American families and would offer minimal at best climate results. 
Among the ludicrous policy goals that have been expressed includes 
calls for the complete elimination of air travel, cows, and nuclear 
energy.
    Fearmongering and unrealistic rhetoric should have no place in this 
debate. Instead we should focus on pragmatic solutions that offer 
realistic environmental benefits.
    One area of policy actually under this Committee's jurisdiction is 
forestry. It's common knowledge that the poor health of our Nation's 
forests is has reached crisis levels.
    If the Democrat Majority is truly serious about reducing vast 
amounts of Carbon Emissions into the atmosphere, they should be working 
more closely alongside Republicans in supporting common-sense forest 
management reforms which include the responsible cutting and replanting 
of trees, as well as grazing on public lands.
    Before our own eyes, we've seen the Nation's once flourishing 
Federal forests transform into dead and burned out waste lands.
    The sorry state of our Federal forests has become a national 
disgrace and national emergency. While climate change has certainly 
exacerbated the challenges facing our Federal forests, there is much 
that we can be doing to help our forests adapt and become more 
resilient in a time of changing climate.
    With 16.8 million acres, the Tongass National Forest is the largest 
national forest in the United States. In the last 90 years, only 4 
percent has been managed for timber production. To make matters worse, 
the Forest Service has been unwilling and unable to provide a reliable 
and sufficient supply of timber sales.
    In my home state of Alaska, over the past 35 years we have seen the 
closure of two pulp mills, five large saw mills, and countless small 
mills due to misguided forest policy. This has cost Alaskans over 5,000 
good paying-family wage jobs.
    For decades we have failed to proactively manage our forests in 
order to reduce hazardous fuels buildup. As a result, the excessive 
fuel loads that have piled up are increasing the likelihood of 
explosive, unmanageable and costly megafires that wreak havoc on our 
rural communities and emit millions of metric tons of carbon dioxide 
into the air.
    We cannot continue to ignore the forest health crisis. The Federal 
Government's current rate, treating a paltry 2 percent of the nearly 60 
million acres identified as high risk to wildfire, is not acceptable.
    To solve our Nation's forest health crisis, we must enact measures 
to increase the pace and scale of active management across our 
forestlands.
    The American people want our forests returned to health. They want 
the growing scourge of wildfire brought back under control. They want 
the destruction of mountain habitats by fire, disease and pestilence 
arrested and reversed. They want the prosperity of their forest 
communities restored.
    Our witness, Dr. Elaine Oneil, has spent her career specializing in 
forest health, climate change, and forest carbon accounting. Dr. 
Oneil's written testimony offers reasonable solutions that would be 
beneficial for our forests, for our climate, and for the American 
people.
    I look forward to a robust discussion on the state of our Federal 
lands.

                                 ______
                                 

    Ms. Haaland. Thank you very much, Mr. Curtis and Mr. Young.
    I would like to introduce our witnesses. Under our 
Committee Rules, oral statements are limited to 5 minutes, but 
your entire statement will appear in the hearing record.
    The lights in front of you will turn yellow when there is 1 
minute left, and then red when time has expired. After the 
witnesses have testified, Members will be given the opportunity 
to ask questions.
    The Chair now recognizes Dr. Patrick Gonzalez for 5 
minutes.

  STATEMENT OF PATRICK GONZALEZ, ASSOCIATE ADJUNCT PROFESSOR, 
    UNIVERSITY OF CALIFORNIA-BERKELEY, BERKELEY, CALIFORNIA

    Dr. Gonzalez. Chairwoman, Ranking Member, and members of 
the Committee, thank you for the invitation to speak on the 
science of human-caused climate change in the U.S. national 
parks.
    I am Patrick Gonzalez, a forest ecologist and associate 
adjunct professor at the University of California, Berkeley. I 
am also the principal climate change scientist of the U.S. 
National Park Service. But today I speak under my Berkeley 
affiliation, not for the Park Service.
    I have conducted and published field research on climate 
change for over 25 years. I have also served as a lead author 
on four reports of the Intergovernmental Panel on Climate 
Change, the science organization awarded a share of the 2007 
Nobel Peace Prize.
    Wildfires burning in Yosemite National Park in California, 
glaciers melting in Glacier Bay National Park in Alaska: 
published scientific research has detected these changes and 
others in U.S. national parks, and attributed them to human-
caused climate change.
    The human cause of climate change is an important 
scientific fact because it points us to the solutions to the 
problem. Measurements show that cars, power plants, 
deforestation, and other human sources have increased carbon 
dioxide to its highest levels in 800,000 years. This increase 
has intensified the greenhouse effect, and increased 
temperatures to their highest levels in over 800 years. Human 
activities have caused 97 percent of historical heating.
    Colleagues and I published last year the first analysis of 
climate change trends across all 417 national parks. Our 
results revealed that climate change since 1895 has exposed the 
national parks to conditions hotter and dryer than the country, 
as a whole. Temperatures in the national parks increased at 
double the national rate. The temperature increase was 1 degree 
Celsius, or 2 degrees Fahrenheit per century.
    That might not sound like a lot, but 1 degree is the 
equivalent of pushing a mountain down 170 meters, or 550 feet--
that is the height of the Washington Monument--from cooler 
areas at higher elevations to warmer areas below.
    Also, rain and snow decreased more in the national parks 
than in the country as a whole. Hotter and drier conditions 
occurred because many parks are located in the extreme 
environments: in the Arctic, in high mountains, and the arid 
Southwest.
    As a result, in Glacier Bay National Park in Alaska, 
climate change has melted 640 meters of ice from Muir Glacier. 
That's 2,100 feet more than the height of One World Trade 
Center.
    In Yosemite National Park and across the West, climate 
change has doubled wildfire, compared to the area of natural 
burning.
    In Rocky Mountain National Park and across the West, 
climate change has doubled tree death, particularly from bark 
beetles.
    In Noatak National Preserve in Alaska, climate change has 
shifted forests northward onto formerly treeless tundra.
    Climate change has raised sea level halfway to your knee in 
Golden Gate National Recreation Area in San Francisco, and all 
the way to your knee in New York City, not far from the Statue 
of Liberty.
    Climate change has killed coral reefs in Biscayne National 
Park, Florida.
    Continued climate change under the worst scenario could 
substantially heat the parks and the future up to 9 degrees 
Celsius or 16 degrees Fahrenheit in Alaska.
    Our research shows that cutting carbon pollution could 
reduce projected heating in national parks by up to two-thirds. 
The lowered heating would lower future risks.
    The United States has demonstrated its ability to cut 
emissions. The United States cut emissions 8 percent from 2007 
to 2015. The U.S. Climate Alliance of 19 states and 1 territory 
has cut its emissions 14 percent, on track to meet the Paris 
Agreement goals. We achieved this progress with energy 
conservation, energy efficiency, solar, public transit, and 
other sustainable actions.
    In conclusion, the U.S. national parks protect some of the 
most irreplaceable natural areas and cultural sites in the 
world. Cutting carbon pollution would reduce human-caused 
climate change and help save our national parks for future 
generations. Thank you.

    [The prepared statement of Dr. Gonzalez follows:]
     Prepared Statement of Patrick Gonzalez, Ph.D., University of 
                          California, Berkeley
                           executive summary
    From wildfires burning in Yosemite National Park, California, to 
glaciers melting in Glacier Bay National Park, Alaska, published 
scientific research has detected changes globally and in United States 
(U.S.) national parks and attributed them to human-caused climate 
change. These impacts are occurring because climate change since 1895 
has exposed the national parks to twice the heating of the country as a 
whole and to more severe aridity. Without cuts to pollution from cars, 
power plants, deforestation, and other human sources, continued climate 
change could increase future temperatures up to six times faster than 
historical rates, threatening the unique landscapes, plants, and 
animals in parks. Adaptation of resource management could decrease some 
projected damage. Yet, cutting carbon pollution from human sources is 
the solution that targets the cause of climate change. Emissions 
reductions could lower projected heating in national parks by one-half 
to two-thirds. The lowered heating would reduce risks of severe 
wildfire, disappearances of plant and animal species, and other threats 
to our national parks.
                              introduction
    Chairwoman, Ranking Member, and members of the Committee, thank you 
for the invitation to speak on the science of human-caused climate 
change in the U.S. national parks. I am Patrick Gonzalez, a forest 
ecologist and Associate Adjunct Professor at the University of 
California, Berkeley, in the Department of Environmental Science, 
Policy, and Management. I am also the Principal Climate Change 
Scientist of the U.S. National Park Service, but today I am speaking 
under my Berkeley affiliation, not for the Park Service. I earned my 
Ph.D. at the University of California, Berkeley, and have conducted and 
published field research on climate change for 25 years. I have also 
served for over 8 years as the lead for climate change science in the 
U.S. National Park Service. I am a lead author on four reports of the 
Intergovernmental Panel on Climate Change (IPCC), the organization that 
produces the authoritative scientific assessments of climate change, 
for which it was awarded a share of the 2007 Nobel Peace Prize.
                     human cause of climate change
    The human cause of climate change (1) is an important scientific 
fact because it points us to solutions to the problem. Atmospheric 
measurements show that carbon dioxide has increased to its highest 
level in 800,000 years (Figure 1) (2-5). Measurements show that the 
increased carbon dioxide and other greenhouse gases in the atmosphere 
come from cars, power plants, deforestation, and other human sources 
(6). Chemical analyses show that the additional carbon dioxide bears 
the unique chemical signature of fossil fuels--coal, oil, and gas--not 
of natural emissions from volcanoes (7). Human sources now emit twice 
the amount of carbon dioxide that vegetation, soils, and the oceans can 
naturally absorb (6). This is the fundamental imbalance that causes 
climate change.

    The increase in carbon dioxide has intensified the greenhouse 
effect, the trapping of heat close to the surface of the Earth. 
Consequently, the world has heated to its highest temperature in 800 
years (8). Measurements of the potential causal factors--human and 
natural--show that carbon dioxide and other greenhouse gases from human 
activities caused 97 percent of historical heating (9). Solar cycles 
and other natural factors caused just the remaining 3 percent. 
Therefore, scientific evidence shows that human activities are causing 
climate change.

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

 Figure 1. Atmospheric carbon dioxide 800,000 years ago to 2018 AD.

               historical impacts in u.s. national parks
    The magnitude of climate change across all the U.S. national parks 
was not known until recent research by colleagues and me. In 2018, we 
published the first spatial analyses of temperature and precipitation 
trends across all 417 U.S. national parks (10). Our analyses of 
historical data revealed that climate change has exposed the national 
parks to conditions hotter and drier than the country as a whole. This 
occurs because extensive parts of the parks are in extreme 
environments--the Arctic, high mountains, and the arid Southwest.

    Our findings show that temperatures in the national park area 
increased at a rate of 1+C (approximately 2+F.) per century from 1895 
to 2010, double the national rate. At the same time, precipitation 
decreased across a greater fraction of the national park area (12 
percent) than the country as a whole (3 percent). Out of all 417 
national parks, temperatures increased most in Denali National 
Preserve, Alaska (4.3+C [approximately 8+F.] per century) (Figure 2), 
and rainfall declined most in Honouliuli National Monument, Hawaii (85 
percent decrease per century).
    The implications of this increased heat and aridity in the national 
parks were not comprehensively known until recently. In 2017, I 
published the first comprehensive assessment of published research on 
climate change impacts and vulnerabilities in U.S. national parks (11). 
This section on historical impacts provides cases from that 
publication, only including research that has employed the research 
procedures of detection and attribution (1).

    Detection is the finding of statistically significant changes over 
time that are different than natural variation. Attribution is the 
analysis of different potential causes, natural and human, to determine 
their relative importance. In many national parks, it is easier to tell 
if human-caused climate change is the main cause of changes in the 
field because many parks have been protected from urbanization, timber 
harvesting, grazing, and other non-climate disturbances.

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

Figure 2. Temperature change from 1895 to 2010 due to human-caused 
climate change. Map: Trend in annual temperature in degrees Celsius per 
     century, with park boundaries in green. Graph: Statistically 
     significant trend for the area of the 417 U.S. national parks.

    Historical impacts detected and attributed to human-caused climate 
change include:

    <bullet> Glaciers melting In Glacier Bay National Park (NP), 
            Alaska, climate change melted 640 meters (2100 ft.) of ice 
            (depth) from Muir Glacier from 1948 to 2000 (Figure 3) 
            (12,13). In Glacier NP, Montana, climate change melted 1.5 
            km (1 mi.) of ice (length) from Agassiz Glacier from 1926 
            to 1979 (13,14). In the North Cascades NP complex, 
            Washington, climate change melted four glaciers away 
            completely from 1984 to 2004 (13,15).

            [GRAPHIC] [TIFF OMITTED] T5200.003
            
   .epsFigure 3. Melting of Muir Glacier, Glacier Bay National Park, 
     Alaska. Top: August 13, 1941 (photo by William O. Field, U.S. 
Geological Survey). Bottom: August 31, 2004 (photo by Bruce F. Molnia, 
                        U.S. Geological Survey).

    <bullet> Snowpack decline Across the western U.S., including North 
            Cascades NP, Washington, and 10 other national parks, 
            climate change has melted snowpack to its lowest level in 
            eight centuries (16).

    <bullet> Wildfire increase Across the western U.S., including 
            Yellowstone NP, Wyoming, and Yosemite NP, California, 
            climate change doubled the area burned by wildfire from 
            1984 to 2015, compared to the area of natural burning (17). 
            Wildfire is a natural part of many ecosystems but excessive 
            wildfire can damage ecosystem integrity and hurt people. 
            Across the western U.S., climate was the dominant factor 
            controlling burning from 1916 to 2003, even during periods 
            of active fire suppression (18).

    <bullet> Tree death Across the western U.S., including Kings Canyon 
            NP, Lassen Volcanic NP, Sequoia NP, and Yosemite NP, 
            California, Mount Rainier NP, Washington, and Rocky 
            Mountain NP, Colorado, climate change doubled tree 
            mortality from 1955 to 2007 (19), due to increased aridity 
            (19,20), the most extensive bark beetle infestations in a 
            century (19-22), and increased wildfire (20).

    <bullet> Vegetation shifts In Yosemite NP, California, climate 
            change shifted subalpine forest upslope into subalpine 
            meadows between 1880 and 2002 (23). In Noatak National 
            Preserve, Alaska, climate change shifted boreal conifer 
            forest northward onto formerly treeless tundra between 1800 
            and 1990 (24). Climate change, by shifting warmer 
            conditions upslope and farther north, has shifted major 
            vegetation types (biomes) at sites around the world (25).

    <bullet> Wildlife shifts In Yosemite NP, California, field research 
            showed that climate change shifted the ranges of the 
            American pika, a small alpine mammal, and other species 500 
            meters upslope (approximately 1600 ft.) from 1920 to 2006, 
            when temperature increased 3+C (approximately 5+F) (26). 
            Because the national park had protected the survey area, 
            timber harvesting, grazing, and hunting were not major 
            factors.

      Analyses of Audubon Christmas Bird Count data across the U.S., 
            including sites in numerous national parks, found that 
            climate change shifted the average winter range of 254 bird 
            species northward 15 km (9 mi.) from 1975 to 2004 (27). 
            Because of this, the evening grosbeak disappeared from 
            counts in Sleeping Bear Dunes National Lakeshore, Michigan, 
            and Shenandoah NP, Virginia.

    <bullet> Sea level rise Climate change has raised sea level 22 cm 
            (9 in.) since 1854 at Golden Gate National Recreation Area, 
            San Francisco, California (28-30), 42 cm (17 in.) since 
            1856 at New York City (29-31), not far from the Statue of 
            Liberty National Monument, and 30 cm (12 in.) since 1924 at 
            Washington, DC (29,30,32), not far from the Jefferson 
            Memorial and the White House, which is a national park.

    <bullet> Coral bleaching Climate change bleached and killed up to 
            80 percent of coral reef area in 2005 at sites in Biscayne 
            NP, Florida, and Buck Island Reef National Monument, Salt 
            River Bay National Historical Park and Ecological Preserve, 
            Virgin Islands National Park, and Virgin Islands Coral Reef 
            National Monument (33,34). That year, climate change had 
            caused the hottest sea surface temperatures recorded in the 
            Caribbean Sea since 1855.

                         future vulnerabilities
    To quantify potential future changes in national parks, colleagues 
and I analyzed all available climate projections from the 
Intergovernmental Panel on Climate Change, as part of the first spatial 
analysis of climate trends across all 417 U.S. national parks (10). Our 
results indicate that continued carbon emissions under the worst 
scenario could increase temperatures in the 21st century six times 
faster than occurred in the 20th century. Temperatures in national 
parks could increase up to 9+C (16+F.) by 2100, in the national parks 
of Alaska, and rainfall could decline by as much as 28 percent, in the 
national parks of the U.S. Virgin Islands. Aridity could also increase 
in Big Bend NP, Texas, Everglades NP, Florida, and other national parks 
at southern latitudes.

    Published research on U.S. national park resources indicates that 
continued climate change could damage many of the globally unique 
ecosystems and resources that the parks protect. These vulnerabilities 
include:

    <bullet> Loss of glaciers Climate change could cause, under the 
            worst scenario, complete melting of glaciers from Glacier 
            National Park, Montana, by the 2030s (35) and the 
            disappearance of Sperry Glacier from Rocky Mountain NP by 
            the 2040s (36).

    <bullet> Wildfire increase The hotter temperatures of climate 
            change could, under a high emissions scenario, increase 
            wildfire frequencies in Yellowstone NP and Grand Teton NP, 
            Wyoming, 300 percent to 1000 percent (37) and up to 300 
            percent in Yosemite NP, California, by 2100 (38).

    <bullet> Tree death The more severe aridity of climate change 
            could, under a high emissions scenario, reduce suitable 
            habitat of the Joshua tree in the southwestern U.S. 90 
            percent by 2100, leading to extensive death of Joshua trees 
            in Joshua Tree NP, California (39,40). The more severe 
            aridity of climate change also increases the risk of higher 
            mortality of foothills palo verde and ocotillo in Saguaro 
            NP, Arizona (41), pinon pine in Bandelier National 
            Monument, New Mexico (42), and coast redwoods, the tallest 
            living things on Earth, in Muir Woods National Monument, 
            California (43,44). Loss of snow under projected climate 
            change increases the vulnerability of Alaska yellow cedar 
            to increased mortality in Sitka National Historical Park, 
            Alaska (45). Under projected climate change, 16 percent to 
            41 percent of total national park area is highly 
            vulnerability to northward and upslope vegetation shifts 
            (biome shifts) (25).

    <bullet> Loss of wildlife Climate change may shift habitats upslope 
            to such an extent that the American pika, a small alpine 
            mammal that lives at the highest elevations, could 
            disappear from Lassen Volcanic NP, California (46). Climate 
            change could also exacerbate cheatgrass invasions in 
            Craters of the Moon National Monument and Preserve, Idaho, 
            leading to substantial decline of the sage grouse (47,48). 
            Numerous national parks could lose local bird species and 
            be colonized by new migrants (49). At Canaveral National 
            Seashore, Florida, green turtles are vulnerable to 
            increased mortality from flooding of nests by increases in 
            storms (50).

    <bullet> Inundation from sea level rise Sea level rise due to 
            climate change could inundate much of Everglades National 
            Park, Florida (51), the center of Golden Gate National 
            Recreation Area, California (52,53), the National Mall and 
            other national parks in Washington, DC (54), one-third of 
            the area of Assateague Island National Seashore, Maryland 
            (55), and the Statue of Liberty National Monument, New York 
            (56).

    <bullet> Ocean acidification Corals and other marine life in Dry 
            Tortugas National Park, Florida (57), and Channel Islands 
            NP and Cabrillo National Monument, California (58), are 
            vulnerable to dissolving in acidified waters under 
            continued climate change.

               adaptation of natural resource management
    Adaptation to climate change is the adjustment of practices in a 
way that moderates future harm. One adaptation measure under 
implementation in a national park is the protection of refugia for the 
Joshua tree in Joshua Tree NP, California (40). Other adaptation 
measures under consideration for parks include conservation of refugia 
for mountain plants and animals (59,60), and conservation of cooler 
water refugia for fish (61). Prescribed burning is an adaptation 
measure that reduces future risks of catastrophic wildfire and tree 
death by removing an unnatural buildup of fuel and small trees where 
old policies suppressed natural wildfire (62,63). While adaptation 
measures are important to help maintain ecosystem integrity, they only 
treat symptoms of climate change, not the cause.
                            carbon solutions
    Published research by colleagues and me concludes that reducing the 
cause of climate change--carbon pollution from cars, power plants, 
deforestation, and other human sources--can save national parks from 
the most extreme heat in the future (10). Compared to the worst 
scenario, reduced carbon emissions would lower projected heating in 
national parks by one-half to two-thirds by 2100.
    The reduced heating could produce real benefits on the ground. 
While under the worst emissions scenario, 16 percent of plant and 
animal species globally could be at risk of extinction (64), the risk 
drops to 5 percent under the lowest emissions scenario of meeting the 
Paris Agreement goal (65). Similarly, global sea level could rise 74 cm 
(29 in.) under the worst emissions scenario, but rise 44 m (17 in.) 
under the Paris Agreement goal (29). In Yosemite NP, California, 
climate change under the worst emissions scenario could triple burned 
area by 2100, but a low emissions scenario could keep wildfires near to 
their current level (38).
    A supplemental carbon solution is the conservation of forests, 
which naturally reduce climate change by removing carbon dioxide from 
the atmosphere and storing it in leaves and wood. Coast redwood forest 
near Redwood NP, California, contains more carbon per area on the 
ground than any other forest in the world (66). The 27 national parks 
in California together contain as much carbon as the annual emissions 
of 7.4 million Americans, or the combined population of the cities of 
Boston, Charlotte, Dallas, Kansas City, Los Angeles, and Miami (67). 
This is a substantial amount of carbon, but those millions of people 
can burn the equivalent of all the carbon in the coast redwoods and 
other vegetation in the national parks in California in just one year. 
Therefore, forest conservation is insufficient as a sole solution to 
climate change. This points to the need for reducing emissions from 
fossil fuel burning.
    Analyses by the IPCC recently confirmed that it is still possible 
to limit future heating to the Paris Agreement goal of a temperature 
increase less than 2+C (approximately 4+F) (68). The U.S. has already 
demonstrated its ability to cut emissions. From 2007 to 2015, the U.S. 
cut emissions 8 percent (69). From 2005 to 2016, the U.S. Climate 
Alliance of 19 states and one territory cut its emissions 14 percent, 
on track to meet the Paris Agreement goal (70). We have achieved this 
progress through energy conservation, improved efficiency, renewable 
energy, public transit, and other available practices.
    The U.S. national parks protect some of the most irreplaceable 
natural areas and cultural sites in the world. Cutting carbon pollution 
would reduce human-caused climate change and help save our national 
parks for future generations.
                         scientific references
1. Bindoff, N.L. et al. 2013. Detection and attribution of climate 
change: From global to regional. In Intergovernmental Panel on Climate 
Change. Climate Change 2013: The Physical Science Basis. [Stocker, T.F. 
et al. (eds.)] Cambridge University Press, Cambridge, UK.

2. Petit, J.R. et al. 1999. Climate and atmospheric history of the past 
420,000 years from the Vostok Ice Core, Antarctica. Nature 399: 429-
436.

3. Monnin, E. et al. 2004. Evidence for substantial accumulation rate 
variability in Antarctica during the Holocene, through synchronization 
of CO<INF>2</INF> in the Taylor Dome, Dome C, and DML ice cores. Earth 
and Planetary Science Letters 224: 45-54.

4. Luthi, D. et al. 2008. High-resolution carbon dioxide concentration 
record 650,000-800,000 years before present. Nature 453: 379-382.

5. Bereiter, B. et al. 2015. Revision of the EPICA Dome C 
CO<INF>2</INF> record from 800 to 600 kyr before present. Geophysical 
Research Letters 42: 542-549.

6. Ciais, P. et al. 2013. Carbon and other biogeochemical cycles. In 
Intergovernmental Panel on Climate Change. Climate Change 2013: The 
Physical Science Basis. [Stocker, T.F. et al. (eds.)] Cambridge 
University Press, Cambridge, UK.

7. Denman, K.L. et al. 2007. Couplings between changes in the climate 
system and biogeochemistry. In Intergovernmental Panel on Climate 
Change. Climate Change 2007: The Physical Science Basis. [Solomon, S. 
et al. (eds.)] Cambridge University Press, Cambridge, UK.

8. Masson-Delmotte, V. et al. 2013. Information from paleoclimate 
archives. In Intergovernmental Panel on Climate Change. Climate Change 
2013: The Physical Science Basis. [Stocker, T.F. et al. (eds.)] 
Cambridge University Press, Cambridge, UK.

9. Myhre, G. et al. 2013. Anthropogenic and natural radiative forcing. 
In Intergovernmental Panel on Climate Change. Climate Change 2013: The 
Physical Science Basis. [Stocker, T.F. et al. (eds.)] Cambridge 
University Press, Cambridge, UK.

10. Gonzalez, P. et al. 2018. Disproportionate magnitude of climate 
change in United States national parks. Environmental Research Letters 
13: 104001. doi:10.1088/1748-9326/aade09.

11. Gonzalez, P. 2017. Climate change trends, impacts, and 
vulnerabilities in US national parks. In Beissinger, S.R., D.D. 
Ackerly, H. Doremus, and G.E. Machlis (eds.) Science, Conservation, and 
National Parks. University of Chicago Press, Chicago, IL.

12. Larsen, C.F. et al. 2007. Glacier changes in southeast Alaska and 
northwest British Columbia and contribution to sea level rise. Journal 
of Geophysical Research 112: F01007. doi:10.1029/2006JF000586.

13. Marzeion, B. et al. 2014. Attribution of global glacier mass loss 
to anthropogenic and natural causes. Science 345: 919-921.

14. Pederson, G.T. et al. 2004. Decadal-scale climate drivers for 
glacial dynamics in Glacier National Park, Montana, USA. Geophysical 
Research Letters 31: L12203. doi:10.1029/2004GL019770.

15. Pelto, M.S. 2006. The current disequilibrium of North Cascade 
glaciers. Hydrological Processes 20: 769-779.

16. Pederson, G.T. et al. 2011. The unusual nature of recent snowpack 
declines in the North American Cordillera. Science 333: 332-335.

17. Abatzoglou, J.T. and A.P. Williams. 2016. Impact of anthropogenic 
climate change on wildfire across western US forests. Proceedings of 
the National Academy of Sciences of the USA 113: 11,770-11,775.

18. Littell, J.S. et al. Climate and wildfire area burned in western 
U.S. ecoprovinces, 1916-2003. Ecological Applications 19: 1003-1021.

19. van Mantgem, P.J. et al. 2009. Widespread increase of tree 
mortality rates in the western United States. Science 323: 521-524.

20. Berner, L.T. et al. 2017. Tree mortality from fires, bark beetles, 
and timber harvest during a hot and dry decade in the western United 
States (2003-2012). Environmental Research Letters 12: 065005. 
doi:10.1088/1748-9326/aa6f94.

21. Raffa, K.F. et al. 2008. Cross-scale drivers of natural 
disturbances prone to anthropogenic amplification: The dynamics of bark 
beetle eruptions. BioScience 58: 501-517.

22. Macfarlane, W.W., J.A. Logan, and W.R. Kern. 2013. An innovative 
aerial assessment of Greater Yellowstone Ecosystem mountain pine 
beetle-caused whitebark pine mortality. Ecological Applications 23: 
421-437.

23. Millar, C.I. et al. 2004. Response of subalpine conifers in the 
Sierra Nevada, California, U.S.A., to 20th-century warming and decadal 
climate variability. Arctic, Antarctic, and Alpine Research 36: 181-
200.

24. Suarez, F. et al. 1999. Expansion of forest stands into tundra in 
the Noatak National Preserve, northwest Alaska. Ecoscience 6: 465-470.

25. Gonzalez, P. et al. 2010. Global patterns in the vulnerability of 
ecosystems to vegetation shifts due to climate change. Global Ecology 
and Biogeography 19: 755-768.

26. Moritz, C. et al. 2008. Impact of a century of climate change on 
small-mammal communities in Yosemite National Park, USA. Science 322: 
261-264.

27. La Sorte, F.A. and F.R. Thompson. 2007. Poleward shifts in winter 
ranges of North American birds. Ecology 88: 1803-1812.

28. National Oceanic and Atmospheric Administration. 2019. Relative sea 
level trend 9414290 San Francisco, California. https://
tidesandcurrents.noaa.gov/sltrends/sltrends_station.shtml?id=9414290.

29. Church, J.A. et al. 2013. Sea level change. In Intergovernmental 
Panel on Climate Change. Climate Change 2013: The Physical Science 
Basis. [Stocker, T.F. et al. (eds.)] Cambridge University Press, 
Cambridge, UK.

30. Slangen, A.B.A. et al. 2016. Anthropogenic forcing dominates global 
mean sea-level rise since 1970. Nature Climate Change 6: 701-705.

31. National Oceanic and Atmospheric Administration. 2019. Relative sea 
level trend 8518750 The Battery, New York. https://
tidesandcurrents.noaa.gov/sltrends/sltrends_station.shtml?id=8518750.

32. National Oceanic and Atmospheric Administration. 2019. Relative sea 
level trend 8594900 Washington, District of Columbia. https://
tidesandcurrents.noaa.gov/sltrends/sltrends_station.shtml?id=8594900.

33. Eakin, C.M. et al. 2010. Caribbean corals in crisis: Record thermal 
stress, bleaching, and mortality in 2005. PLoS ONE 5: e13969. 
doi:10.1371/journal.pone.0013969.

34. Cramer, W. et al. 2014. Detection and attribution of observed 
impacts. In Intergovernmental Panel on Climate Change. Climate Change 
2014: Impacts, Adaptation, and Vulnerability. [Field, C.B. et al. 
(eds.)] Cambridge University Press, Cambridge, UK.

35. Hall, M.H.P. and D.B. Fagre. 2003. Modeled climate-induced glacier 
change in Glacier National Park, 1850-2100. Bioscience 53: 131-140.

36. Brown, J., J. Harper, and N. Humphrey. 2010. Cirque glacier 
sensitivity to 21st century warming: Sperry Glacier, Rocky Mountains, 
USA. Global and Planetary Change 74: 91-98.

37. Westerling, A.L. et al. 2011. Continued warming could transform 
Greater Yellowstone fire regimes by mid-21st century. Proceedings of 
the National Academy of Sciences of the USA 108: 13165-13170.

38. Westerling, A.L. et al. 2011a. Climate change and growth scenarios 
for California wildfire. Climatic Change 109: S445-463.

39. Cole, K.L. et al. 2011. Past and ongoing shifts in Joshua tree 
distribution support future modeled range contraction. Ecological 
Applications 21: 137-149.

40. Barrows, C.W. and M.L. Murphy-Mariscal. 2012. Modeling impacts of 
climate change on Joshua trees at their southern boundary: How scale 
impacts predictions. Biological Conservation 152: 29-36.

41. Munson, S.M. et al. 2012. Forecasting climate change impacts to 
plant community composition in the Sonoran Desert region. Global Change 
Biology 18: 1083-1095.

42. Williams, A.P. et al. 2013. Temperature as a potent driver of 
regional forest drought stress and tree mortality. Nature Climate 
Change 3: 292-297.

43. Johnstone, J.A. and T.E. Dawson. 2010. Climatic context and 
ecological implications of summer fog decline in the coast redwood 
region. Proceedings of the National Academy of Sciences of the USA 107: 
4533-4538.

44. Fernandez, M., H.H. Hamilton, and L.M. Kueppers. 2015. Back to the 
future: Using historical climate variation to project near-term shifts 
in habitat suitable for coast redwood. Global Change Biology 21: 4141-
4152.

45. Buma, B. et al. 2017. Emerging climate-driven disturbance 
processes: Widespread mortality associated with snow-to-rain 
transitions across 10+ of latitude and half the range of a climate-
threatened conifer. Global Change Biology 23: 2903-2914.

46. Stewart, J.A.E. et al. 2015. Revisiting the past to foretell the 
future: Summer temperature and habitat area predict pika extirpations 
in California. Journal of Biogeography 42: 880-890.

47. Coates, P.S. et al. 2016. Wildfire, climate, and invasive grass 
interactions negatively impact an indicator species by reshaping 
sagebrush ecosystems. Proceedings of the National Academy of Sciences 
of the USA 113: 12,745-12,750.

48. Boyte, S.P., B.K. Wylie, and D.J. Major. 2016. Cheatgrass percent 
cover change: Comparing recent estimates to climate change-driven 
predictions in the northern Great Basin. Rangeland Ecology and 
Management 69: 265-279.

49. Wu, J.X. et al. 2018. Projected avifaunal responses to climate 
change across the U.S. National Park System. PLoS ONE 13 e0190557 
doi:10.1371/journal.pone.0190557.

50. Pike, D.A. and J.C. Stiner. 2007. Sea turtle species vary in their 
susceptibility to tropical cyclones. Oecologia 153: 471-478.

51. Flower, H., M. Rains, and C. Fitz. 2017. Visioning the future: 
Scenarios modeling of the Florida coastal Everglades. Environmental 
Management 60: 989-1009.

52. Griggs, G. et al. 2017. Rising Seas in California: An Update on 
Sea-Level Rise Science. California Ocean Science Trust, Oakland, CA.

53. CMG Landscape Architecture. 2016. Crissy Field + Sea Level Rise-Up. 
CMG, San Francisco, CA.

54. Ayyub, B.M., H.G. Braileanu, and N. Qureshi. 2012. Prediction and 
impact of sea level rise on properties and infrastructure of 
Washington, DC. Risk Analysis 32: 1901-1918.

55. Murdukhayeva, A. et al. 2013. Assessment of inundation risk from 
sea level rise and storm surge in northeastern coastal national parks. 
Journal of Coastal Research 29: 1-16.

56. Marzeion, B. and A. Levermann. 2014. Loss of cultural world 
heritage and currently inhabited places to sea-level rise. 
Environmental Research Letters 9: 034001. doi:10.1088/1748-9326/9/3/
034001.

57. Kuffner, I.B., T.D. Hickey, and J.M. Morrison. 2013. Calcification 
rates of the massive coral Siderastrea siderea and crustose coralline 
algae along the Florida Keys (USA) outer-reef tract. Coral Reefs 32: 
987-997.

58. Marshall, K.N. et al. 2017. Risks of ocean acidification in the 
California Current food web and fisheries: ecosystem model projections. 
Global Change Biology 23: 1525-1539.

59. Johnston, K.M., K.A. Freund, and O.J. Schmitz. 2012. Projected 
range shifting by montane mammals under climate change: implications 
for Cascadia's National Parks. Ecosphere 3(11): 97. doi:10.1890/ES12-
00077.1.

60. Morelli, T.L. et al. 2016. Managing climate change refugia for 
climate adaptation. PLoS One 11: e0159909. doi:10.1371/
journal.pone.0159909.

61. Briggs, M.A. et al. 2018. Shallow bedrock limits groundwater 
seepage-based headwater climate refugia. Limnologica 68: 142-156.

62. van Mantgem, P.J. et al. 2016. Does prescribed fire promote 
resistance to drought in low elevation forests of the Sierra Nevada, 
California, USA? Fire Ecology 12: 13-25.

63. Boisrame, G. et al. 2017. Managed wildfire effects on forest 
resilience and water in the Sierra Nevada. Ecosystems 20: 717-732.

64. Urban, M.C. 2015. Accelerating extinction risk from climate change. 
Science 348: 571-573.

65. United Nations Framework Convention on Climate Change (UNFCCC). 
2015. Adoption of the Paris Agreement. Document FCCC/CP/2015/10/Add1, 
Decision 1/CP21. UNFCCC, Bonn, Germany.

66. Van Pelt, R. et al. 2016. Emergent crowns and light-use 
complementarity lead to global maximum biomass and leaf area in Sequoia 
sempervirens forests. Forest Ecology and Management 375: 279-308.

67. Gonzalez, P. et al. 2015. Aboveground live carbon stock changes of 
California wildland ecosystems, 2001-2010. Forest Ecology and 
Management 348: 68-77.

68. Intergovernmental Panel on Climate Change. 2018. Global warming of 
1.5+C. [Masson-Delmotte, V. et al. (eds.)]. World Meteorological 
Organization, Geneva, Switzerland.

69. U.S. Environmental Protection Agency (US EPA). 2018. Inventory of 
U.S. Greenhouse Gas Emissions and Sinks 1990-2016. US EPA, Washington, 
DC.

70. U.S. Climate Alliance. 2018. Annual Report. U.S. Climate Alliance, 
Washington, DC.

Publications and information by Patrick Gonzalez at http://
www.patrickgonzalez.net, https://ourenvironment.berkeley.edu/people/
patrick-gonzalez, and https://twitter.com/pgonzaleztweet.

                                 ______
                                 

    Ms. Haaland. Thank you, Dr. Gonzalez.
    The Chair now recognizes Dr. Lara Hansen.

    STATEMENT OF LARA HANSEN, EXECUTIVE DIRECTOR AND CHIEF 
       SCIENTIST, EcoAdapt, BAINBRIDGE ISLAND, WASHINGTON

    Dr. Hansen. Good morning, and thank you, Ms. Chairwoman, 
Ranking Member, and the Committee, for inviting me to speak 
about climate change and our public lands. I have had the honor 
to visit the Hill twice before to talk about climate change, 
first in 2004, when I was pregnant with my son. And I talked 
about the hopeful work I was conducting around the world to 
improve ecosystem management in the face of climate change: a 
discipline called adaptation. I urged the Senate to reduce 
greenhouse gas emissions and keep climate change to less than 2 
degrees Celsius.
    In 2007, I was invited back to testify on the effects of 
climate change on marine ecosystems. My son was now three. I 
applauded Congress for the existence of several bills to reduce 
greenhouse gas emissions. I repeated the need to keep climate 
change to less than 2 degrees Celsius, and I added a request 
for the creation of a national adaptation policy with an 
extension agency to provide technical support.
    The following year, two colleagues and I co-founded 
EcoAdapt, in order to bring the skills we were supporting 
internationally to the United States, so our own country could 
become more durable to the insults of climate change.
    A decade later EcoAdapt is now a team of 12 supporting the 
innovation of adaptation approaches across the United States. 
We see a growing number of people incorporating the realities 
of climate change into their work, but not nearly to the extent 
necessary.
    We host the biennial National Adaptation Forum, and in 2017 
we had over 1,000 attendees. We are a country of 325 million. 
Certainly, we need more than 1,000 people doing this work. Our 
country is utterly unprepared for the scale of this challenge.
    In every one of your districts, there are decisions being 
made every day, not only on public lands, but also on private 
lands and in our communities that are vulnerable to climate 
change. Not considering the implications of climate change will 
result in investments in infrastructure, management, and 
protection that will not garner the anticipated outcomes. 
Instead, we will end up spending additional funds to rebuild, 
risking community members' lives and livelihoods, and doing 
damage to our environment. Explicit consideration of climate 
change and our actions today is vital for our lives tomorrow.
    As lawmakers, you have the power to do something. For my 20 
years of professional experience in the field of adaptation, I 
recommend the following.
    One, create a national adaptation policy that requires the 
consideration of the impacts from and to climate change, and 
evaluation of funding and permitting for land use activities 
and, quite frankly, everything else.
    Two, create a national climate change adaptation and 
mitigation extension agency. This would provide technical 
support to public and private land managers and everyone else 
at the Federal, state, and local level.
    Three, require the protection and management of our public 
lands with an awareness that the climate is changing. This 
means the agencies entrusted to protect our public lands must 
evaluate the climate change vulnerability of ecosystems and the 
actions proposed on these lands such that they can act to 
reduce that risk. This needs to be part of how we do business.
    We must ensure that we are protecting adequate and 
appropriate space for ecosystems to function under changing 
conditions, including protecting refugia, connectivity, 
functionality, and employing forward restoration.
    We must support our land stewards with the staff and 
funding to monitor and evaluate the effectiveness of 
management, and give them the ability to make management 
decisions that prepare us for future conditions.
    We must manage lands for the long term, to maximize our 
rate of return, which will be realized as access to clean air, 
clean and plentiful water, flood control, wildlife habitat, 
improved mental health, spiritual opportunities, recreational 
enjoyment, and long-term jobs. Our public lands must not be 
managed for quarterly profit margins.
    Four, re-evaluate acceptable levels of non-climate 
stressors on our public lands. From roads or invasive species, 
to over-harvest or eutrophication, to industrial chemicals from 
gas extraction and mining, or chemical fire suppressants, the 
impact of these stressors can be compounded by the 
manifestations of climate change.
    And, of course, since that child I spoke about at the 
beginning of my testimony is now a teenager, I know that I 
often have to repeat myself to get action, such as emptying the 
dish rack. So, here it goes.
    Number 5, keep global climate change to well below 2 
degrees Celsius. Actually, we now know that 1.5 degrees Celsius 
is the more prudent target. We need to reduce our national 
consumption and production of fossil fuels to stop making the 
problem worse. The cost of inaction is unaffordable for us and 
our children.
    I am delighted that Congress and this Committee are again 
taking up the issue of climate change. This time let's do 
something to increase the likelihood of good outcomes. Let's 
act now. Thank you.

    [The prepared statement of Dr. Hansen follows:]
Prepared Statement of Dr. Lara J. Hansen, Chief Scientist and Executive 
                           Director, EcoAdapt
    Protecting our public lands is a critical part of an adaptation 
strategy that not only safeguards these areas and the ecosystems that 
inhabit them, but also the ecosystem services upon which our citizens 
rely. Investment in the protection of public lands may be our best path 
to enduring access to clean air, clean and plentiful water, flood 
control, wildlife habitat, improved mental health, spiritual heritage, 
and recreational enjoyment. In my testimony I will introduce you to the 
ways by which we can increase the resilience of our public lands in the 
face of climate change and what we need to make this happen.

    I would like to begin by providing some context. I am the head of a 
non-profit organization that is filling a very large gap--creating a 
climate-savvy society by innovating, facilitating and training 
practitioners in adaptation solutions. EcoAdapt's \1\ sole focus is to 
``meet the challenges of climate change.'' That means helping everyone 
from foresters and marine protected area managers to city planners and 
public health officials apply a climate lens through which to evaluate 
their work and develop solutions that will allow them to succeed in 
meeting their mandate even as the world is changing around them. We do 
this through four programs. Our State of Adaptation program takes a 
research approach to assessing what activities people are undertaking, 
what is working and what is preventing success. Our Climate Adaptation 
Knowledge Exchange is the largest adaptation resource database. It is 
available via an online, open access portal (CAKEx.org) \2\ that is 
accessed by thousands of people from around the world each month. 
Awareness to Action is our workshop methodology that has provided 
hands-on training in climate change adaptation to over 6,000 
individuals representing hundreds of organizations and agencies across 
the country (and a few around the world). Finally, our National 
Adaptation Forum \3\ is a biennial convening of adaptation 
professionals that affords the opportunity for the exchange of ideas 
and the innovation of the next generation of climate solutions.
---------------------------------------------------------------------------
    \1\ http://ecoadapt.org/.
    \2\ https://www.cakex.org/.
    \3\ https://www.nationaladaptationforum.org/.

    In the past 10 years, my team at EcoAdapt has learned a lot about 
good adaptation practice--on the ground and through government support. 
I'd like to share some of that with you today. My hope is that you will 
see the importance of supporting this type of work in your own 
Districts and through the Federal mechanisms that can help to make all 
of our lands and communities climate savvy. Because the effects of 
climate change that are being felt today will continue and intensify 
for centuries or millennia to come, every day we are afforded the 
opportunity to make management and planning decisions that either help 
us prepare for these changes or leave us more and more vulnerable. 
Let's take the path that leads to a better future. A path on which we 
take both mitigation (reducing the greenhouse gases that cause climate 
change) and adaptation (preparing for and responding to the climate 
change impacts that are unavoidable due to past emissions) seriously. 
These are not choices to be played against each other--both are 
necessary responses to climate change. Doing one without the other will 
---------------------------------------------------------------------------
lead us to a false sense of failure.

    Ignoring climate change in the management of National Parks, 
forests and other public lands is not an option. It was not an option 
the first time I testified before a congressional committee (Senate 
Committee on Commerce, Science and Transportation) in March 2004, 
almost exactly 15 years ago, when atmospheric CO<INF>2</INF> was 378 
ppm and global temperature had increased 0.6 degrees Celsius. Yet we 
did not take action. It was not an option when I testified in 2007 to 
the Senate Committee on Commerce, Science and Transportation's 
Subcommittee on Oceans, Atmosphere, Fisheries, and Coast Guard, when 
atmospheric CO<INF>2</INF> was 386 ppm. And still we did not change our 
trajectory. Today atmospheric CO<INF>2</INF> has reached 410 ppm and 
global temperature has risen 1 degree Celsius. I am back today hoping 
that we are ready to fully address this massive problem with the level 
of action it requires. The best place to start is somewhere, so let's 
start by taking action on our public lands.
   how can we increase the resilience of public lands in the face of 
                            climate change?
    Public lands are the places where plants and animals thrive, where 
they have the space to move and grow. They are vital for providing 
intact ecosystems and connectivity, supporting high biodiversity and 
healthy species. Public lands also provide critical ecosystem services 
upon which neighboring and non-neighboring communities, non-local 
visitors, and others have come to rely. In particular, public lands 
provide abundant fresh water for human and environmental uses; building 
materials and other wood products; forage for livestock; clean air; 
water filtration and maintenance of water quality; protection from 
wildfire, floods, and erosion; carbon sequestration; recreational 
opportunities; aesthetic values from scenery; spiritual and religious 
values; and cultural heritage.

    Climate change presents a significant threat to our public lands 
and the services that they provide. Resilient public lands enable 
species and ecosystems and the services they provide to rebound in the 
face of rapid environmental change. We can increase the resilience of 
public lands by implementing a number of well-understood practices, 
including incorporating climate change impacts and adaptation into all 
planning efforts, improving regional coordination, assessing the 
effectiveness of adaptation actions and implementing those that 
represent the ``best bets'' under changing climate conditions, 
protecting adequate and appropriate space, reducing local and regional 
climate change and non-climate stressors, and reducing the rate and 
extent of climate change. By implementing these practices, we are 
safeguarding the species, ecosystems, and services that we not only 
hold dear but are essential to our way of life.

    Incorporate climate change impacts and adaptation into all planning 
efforts. Incorporating climate change into planning efforts can take 
the form of discrete ``climate action or adaptation plans'' or the 
direct integration of climate change into existing planning processes. 
For example, through our vulnerability assessment and adaptation 
planning methodologies, EcoAdapt helps natural resource managers from 
state and Federal agencies evaluate how the species and habitats they 
manage are vulnerable to climate change, reassess and revise their 
current actions and projects to address vulnerabilities, and identify 
new actions to integrate into future projects. Some examples include 
work in California and the Hawaiian Islands.

    EcoAdapt, in collaboration with numerous other partners, worked 
with the Greater Farallones National Marine Sanctuary (located along 
the north-central California coast and ocean) to evaluate vulnerability 
of their species, habitats, and ecosystem services to climate change 
and create a Climate Adaptation Plan.\4\ The region's natural resources 
and the services they provide are vulnerable to increasing ocean 
temperatures, sea level rise, and extreme weather events (winds, waves, 
storms). The plan integrates climate adaptation into existing 
management frameworks and recommends over 75 adaptation strategies for 
regional management agencies to take to enhance coastal resilience, 
including implementing living shorelines, protecting and restoring 
habitat, limiting human disturbance, addressing invasive species, 
promoting education, and investing in science needs.
---------------------------------------------------------------------------
    \4\ Hutto, S. 2016. Climate-Smart Adaptation for the North-central 
California Coast and Ocean. Ed. Rachel M. Gregg [Case study on a 
project of the Greater Farallones National Marine Sanctuary]. Retrieved 
from CAKE: https://www.cakex.org/case-studies/climate-smart-adaptation-
north-central-california-coast-and-ocean.

    In Southern California, EcoAdapt worked with natural resource 
managers to re-examine the Ojai Community Defense Zone Project, which 
planned to restore and expand fuel-breaks in chaparral habitats 
adjacent to multiple human communities.\5\ Chaparral habitats, as well 
as adjacent communities, are vulnerable to increased wildfire severity 
and increased extreme precipitation events projected under climate 
change. Increasing human populations may exacerbate these impacts, as 
fire ignitions in the region are primarily human-caused. While a number 
of existing management actions help to alleviate climate impacts, 
resource managers identified new actions to integrate into future 
projects. For example, planting native perennial grasses within fuel-
breaks to reduce invasive grass establishment (invasive grasses 
contribute to more severe wildfires) and establishing trigger points 
for recreation closures and restrictions (helps reduce the number of 
human-caused ignitions).
---------------------------------------------------------------------------
    \5\ Kershner, J.M., L.E. Hilberg, and W.A. Reynier. 2017. The Ojai 
Community Defense Zone Project: A Southern California Climate Change 
Adaptation Case Study. Retrieved from CAKE: https://www.cakex.org/case-
studies/ojai-community-defense-zone-project-southern-california-
climate-change-adaptation-case-study.

    In Hawaii, after going through a vulnerability assessment-
adaptation planning process \6\ with EcoAdapt, managers from the Plant 
Extinction Prevention Program decided to shift the amount of seeds they 
plant vs. store in response to projected climate threats such as 
increased drought risk and altered precipitation amount and timing.
---------------------------------------------------------------------------
    \6\ Gregg, R.M., editor. 2018. Hawaiian Islands Climate 
Vulnerability and Adaptation Synthesis. EcoAdapt, Bainbridge Island, 
WA. http://bit.ly/HawaiiClimate.

    Improve regional coordination. Improving coordination helps 
increase the resilience of public lands and associated ecosystem 
services by providing opportunities to leverage resources (e.g., 
funding, data, people time), building buy-in and support for plans and 
on-the-ground projects, improving communication about planned and 
ongoing activities, and providing a shared understanding of threats, 
solutions, and priorities. For example, the Flagstaff Watershed 
Protection Project is a partnership effort between the state of 
Arizona, city of Flagstaff, and Coconino National Forest to help reduce 
the risk of devastating wildfire and post-fire flooding in neighboring 
watersheds.\7\ In 2010, the Schultz Fire in Coconino National Forest 
severely burned thousands of acres of steep terrain; over 20 major 
flash flooding events occurred after the fire, destroying community 
drinking water and costing over $130 million in damages. Increased fire 
severity and extreme precipitation events are projected to continue 
with climate change, requiring targeted forest restoration work and 
collaboration to reduce the risk of fire and flooding and subsequent 
impacts on the community. This project is one of only a handful of 
examples where restoration work on a national forest is being funded 
primarily by a municipality.
---------------------------------------------------------------------------
    \7\ Flagstaff Watershed Protection Project: http://
flagstaffwatershedprotection.org.

    The Northern California Climate Adaptation Project is a multi-
stakeholder, collaborative effort to assess the impacts of climate 
change on and co-develop adaptation strategies and actions for habitats 
and species of northwestern California.\8\ The USDA Forest Service and 
Bureau of Land Management manage over 6 million acres of public lands 
in the region, and plan to use findings from this project to inform 
revisions of their land management plans. Many tribes occur within or 
around these public lands and are affected by management decisions made 
by these two entities. Tribal input and participation have been 
critically important in this project, helping to identify potential 
conflicts with adaptation options. For example, increasing the use of 
prescribed burning reduces the likelihood of high-severity wildfires (a 
current and future threat to the region) however, increased burning in 
the spring has the potential to conflict with cultural values and site 
use during the season. Explicitly incorporating tribal considerations 
into adaptation planning can help build buy-in for management actions 
on public lands and enhance the resilience of neighboring tribal 
communities.
---------------------------------------------------------------------------
    \8\ Northern California Climate Adaptation Project: http://
ecoadapt.org/programs/adaptation-consultations/norcal.

    Assess adaptation effectiveness. The importance of making informed 
decisions to alleviate the environmental, financial, and emotional 
costs of climate change cannot be overstated. Climate change presents a 
variety of impacts to which managers and planners must respond, ranging 
from habitat restoration and designation of protected areas to 
increased public education and outreach and broad policy changes. 
Several adaptation case studies and guidebooks have been released in 
recent years with recommendations of suitable adaptation actions to 
address different climate impact concerns. However, determining when, 
where and how a particular action may be best implemented is more 
difficult to discern. Synthesizing what has worked and what has not 
worked, as well as why, can help identify potential modifications to 
current management practices and facilitate understanding of the 
consequences of decisions. Further, science- and evidence-based 
decision making supports better management outcomes, while reducing 
costs and lowering the risk of implementing policies that may be based 
on well-intentioned but insufficient research. In addition to improving 
overall practice, a better understanding of which actions can be most 
effectively applied in different settings helps managers identify and 
leverage funding opportunities and create new or enhance existing 
partnerships to advance climate adaptation. Evaluating the science 
behind management approaches of the past to determine their usefulness 
under changing climate conditions is an evolving area of research by 
EcoAdapt. We have embarked on an effort to evaluate the body of 
scientific knowledge supporting specific climate adaptation actions to 
determine the conditions under which particular actions may be most 
effective for achieving management goals. Since 2014, we have assessed 
---------------------------------------------------------------------------
wildfire, sea level rise, and ecological drought adaptation options.

    Protect open space. Protecting adequate and appropriate space, 
including identifying and protecting areas of climate refugia (places 
with more stable climatic conditions, current and/or future), 
connectivity and corridors, and/or the geophysical setting continues to 
be a critical strategy for increasing the resilience of public 
lands.<SUP>9,10</SUP> Protecting habitats and areas of refugia provide 
a safe haven that species can retreat to and/or persist in under 
climate change, and ensures that important ecosystem services continue 
to be available. For example, protecting habitats such as headwater 
streams or groundwater sources may be critical for maintaining water 
supply that human communities depend on. Similarly, protecting 
geophysical settings may help maintain regional biodiversity with 
climate change.
---------------------------------------------------------------------------
    \9\ Hansen, L.J. and J.R. Hoffman. 2011. Climate Savvy: Adapting 
Conservation and Resource Management to a Changing World. Island Press, 
Washington, DC.
    \10\ Hansen, L.J., et al. 2010. Adapting conservation to climate 
change. Conservation Biology. 24:63-68.

    Reduce local and regional climate change, as well as non-climate 
stressors. Reducing local and regional climate change and minimizing 
non-climate stressors are key to increasing the resilience of public 
lands.\11\ In some cases, it may be possible to reduce local or 
regional climate changes. For example, replanting riparian vegetation 
along streams can limit water temperature increases and help keep water 
in the system. Non-climate stressors have the potential to exacerbate 
(or be exacerbated by) climate impacts. For example, invasive grasses 
alter the availability and continuity of fire fuels, contributing to 
more severe wildfires.
---------------------------------------------------------------------------
    \11\ Hansen, L.J. and J.R. Hoffman. 2011. Climate Savvy: Adapting 
Conservation and Resource Management to a Changing World. Island Press, 
Washington, DC.

    Restoration of habitat structure, function, and processes continues 
to be one of the best ways to address both climate and non-climate 
stressors. However, it is not enough to engage in restoration 
activities as we have done in the past and, in fact, ``restoring'' 
ecosystems to some former state will likely make them ill-equipped to 
deal with the challenges of climate change. Instead, restoration 
activities now need to be designed with climate impacts integrated from 
the start. For example, planting drought-tolerant native species in 
areas projected to get drier rather than planting the species that have 
historically been there under wetter conditions, or implementing a 
landscape-scale approach that combines thinning, prescribed burning, 
and managed wildfire to reduce tree densities and understory vegetation 
in an area projected to see more high-severity fires, rather than 
---------------------------------------------------------------------------
relying only on forest thinning.

    Wildfires, particularly in the West, are increasing in frequency 
and severity. With increasing air temperatures and decreasing summer 
soil moisture levels, the probability of widespread, catastrophic 
wildfires continues to rise, threatening habitats, species, and public 
health and safety.<SUP>12,13</SUP> Several approaches are used to 
manage wildfire risk, including prescribed fire, thinning, mechanical 
fuel treatments, and wildfire managed for multiple objectives. For 
example, prescribed fire has been used for decades to reduce fuel 
loads, promote more open and diverse forest structure, maintain or 
increase biodiversity, and preserve defensible space around 
infrastructure and human communities.\14\ As a climate adaptation 
action, prescribed fire reduces the risk of catastrophic or stand-
replacing fire by targeting and reducing surface and ladder fuels, 
allows for the re-introduction of natural fire regimes, and prepares 
the landscape for the re-establishment of fire-tolerant native species 
that may be better adapted to shifting fire regimes.<SUP>13,15</SUP> 
Managers are already modifying their use of prescribed fire in 
responses to changing conditions, such as earlier spring burn windows, 
although institutional and sociopolitical constraints, such as a lack 
of funding and trained staff, liability issues, and public acceptance 
of smoke, limit its application across the landscape.<SUP>13</SUP>
---------------------------------------------------------------------------
    \12\ Westerling, A., et al. 2006. Warming and earlier spring 
increase western U.S. forest wildfire activity. Science (313)5789: 940-
943. DOI: 10.1126/science.1128834.
    \13\ Gregg, R.M., et al. 2016. Available Science Assessment 
Project: Prescribed Fire and Climate Change in Northwest National 
Forests. Report to the Department of the Interior's Northwest Climate 
Science Center.
    \14\ Scott, G., et al. 2013. Reforestation-Revegetation Climate 
Change Primer: Incorporating Climate Change Impacts into Reforestation 
and Revegetation Prescriptions. U.S. Department of Agriculture, Forest 
Service, Northern Region.
    \15\ Spies, T.A., et al. 2010. Climate change adaptation strategies 
for federal forests of the Pacific Northwest, USA: ecological, policy, 
and socio-economic perspectives. Landscape Ecology 25(8): 1185-1199.

    In coastal systems, sea level rise is causing saltwater intrusion 
into freshwater ecosystems and aquifers, habitat conversion, 
infrastructure loss, and in some cases, forced relocation of coastal 
communities, such as in Alaska (e.g., Native Alaska Villages of 
Kivalina and Newtok) and Washington State (e.g., Hoh Tribe). The 
primary adaptation approaches employed to address sea level rise, 
flooding, and erosion issues include: engineered structures (rip rap, 
bulkheads, tide gates), natural and nature-based approaches (natural 
habitats such as wetlands or engineered natural features such as living 
shorelines), and policy and regulatory techniques (tools that either 
prevent infrastructure in at-risk areas, such as conservation 
easements, managed retreat; or modify how activities are implemented to 
reduce risk such as rolling easements, minimum development buffers, 
real estate disclosures).<SUP>16</SUP> Natural and nature-based 
approaches are being increasingly used throughout the United States, 
especially in lieu of structural approaches that are experiencing 
limited and declining use, largely due to their cost, lifetime, and the 
potential for negative ecological consequences.<SUP>16</SUP> New and 
novel approaches, including prioritizing, protecting and restoring 
coastal wetlands with room to migrate inland as sea levels rise, as 
well as purchasing inland/upland land to create new opportunities for 
coastal habitat migration, are also important.<SUP>16</SUP>
---------------------------------------------------------------------------
    \16\ Gregg R.M., et al. 2018. Available Science Assessment Process 
(ASAP): Sea Level Rise in the Pacific Northwest and Northern 
California. Report to the Northwest Climate Adaptation Science Center. 
EcoAdapt (Bainbridge Island, WA) and the Institute for Natural 
Resources (Corvallis, OR).

    Reduce the rate and extent of climate change. Decreasing greenhouse 
gas emissions, planting trees, restoring vegetative cover, and 
preserving open space can help to reduce climate change. If we are 
looking for solutions to climate change, ending fossil fuel extraction 
from public lands is a fine place to start. For every barrel of oil not 
extracted from U.S. public lands, it has been estimated that global 
demand decreases by half a barrel, leading to a reduction in U.S. 
emissions of 280 million tons annually by 2030.\17\ This is the 
essential climate change mitigation role for our public lands. Fossil 
fuels left in the ground will not be entering our atmosphere as 
greenhouse gases, however the carbon storage potential of biological 
carbon is not so certain. For example, the carbon storage of coastal 
wetlands decreases significantly as sea levels rise, drown existing 
wetlands, and release carbon back into the atmosphere.\18\
---------------------------------------------------------------------------
    \17\ Erickson, P., and M. Lazarus. 2018. Would constraining US 
fossil fuel production affect global CO<INF>2</INF> emissions? A case 
study of US leasing policy. Climatic Change 150: 29-42.
    \18\ Thorne K, et al. 2018. U.S. Pacific coastal wetland resilience 
and vulnerability to sea-level rise. Science Advances 4:eaao3270.
---------------------------------------------------------------------------
         how are adaptation efforts on public lands threatened?
    Despite the urgent need for climate-informed action, the science 
and practice of adaptation in the United States is at risk from recent 
intentional and systematic disruptive actions. Public lands are 
threatened by energy development interests, and Federal climate 
programs and regulations are being defunded and dismantled.

    Energy development and mining interests--oil, gas, coal, uranium, 
vanadium, cobalt--have driven the reduction of boundaries of Bears Ears 
and Grand Staircase-Escalante National Monuments by 85 percent and 45 
percent, respectively. Bears Ears in particular is rich with cultural 
significance for Native Americans, featuring over 100,000 well-
preserved cultural and archaeological sites. It is an area that is more 
than tracts of land--it is a profoundly sacred place of spirituality 
and subsistence. Bears Ears is also home to forests, grasslands, and 
headwaters, and 18 species listed under the Endangered Species Act, 
including the California condor and greenback cutthroat trout.\19\ A 
recent study found that this area provides unrivaled ecological 
connectivity, which is essential for species resilience as well as 
biodiversity and ecological function preservation in a changing 
climate.<SUP>19</SUP> The Navajo people describe such intact landscapes 
as Nahodishgish or ``places to be left alone.'' \20\
---------------------------------------------------------------------------
    \19\ Dickson, B.G., M. McClure, and C.M. Albano. 2017. A landscape-
level assessment of conservation values and potential threats in the 
Bears Ears National Monument. A report to The Center for American 
Progress. http://www.csp-inc.org/wp-content/uploads/2017/03/CSP-
BENM_Landscape_Assessment_032717.pdf.
    \20\ Bears Ears Coalition. 2016. Bears Ears: A Native perspective 
on America's most significant unprotected cultural landscape. http://
www.bearsearscoalition.org/wp-content/uploads/2016/03/Bears-Ears-
bro.sm_.pdf.

    In 2009, President Obama enacted Executive Order 13514, which 
mandated the evaluation and assessment of vulnerabilities that climate 
change may pose to Federal agency operations and missions, as well as 
the creation and implementation of agency-specific climate adaptation 
plans. During that administration's tenure, many Federal agencies and 
departments developed individual plans and policies, and collaborated 
through interagency working groups to facilitate funding of climate 
science and adaptation projects, resources, and tools to support on-
the-ground action by other governmental and non-governmental entities. 
Over the last 2 years, there has been a notable shift in the support 
for Federal action on climate change, largely due to a growing 
politicization of science by elected and appointed officials. Federal 
regulations have been dismantled, climate programs defunded, and 
critical climate resources and tools removed, altered, or obfuscated, 
all of which directly impacts the country's ability to prepare for, 
respond to and recover from the effects of climate change. In addition 
to the threatened withdrawal of the United States from the Paris 
Agreement under the United Nations Framework Convention on Climate 
Change, numerous Executive Orders have been enacted to roll back 
climate policies (e.g., reversal of the Federal Flood Risk Management 
Standard, requiring Federal agencies to account for sea level rise in 
building infrastructure; Executive Order 13693 on Planning for Federal 
Sustainability in the Next Decade was revoked in May 2018 \21\). In 
2017 alone, the current administration undertook 60 actions aimed at 
removing or altering environmental regulations, laws, policies and 
protections.\22\
---------------------------------------------------------------------------
    \21\ Executive Order 13834 Regarding Efficient Federal Operations: 
https://www.whitehouse.gov/Presidential-actions/executive-order-
regarding-efficient-Federal-operations/.
    \22\ Eilperin, J. and D. Cameron. 2017. ``How Trump is rolling back 
Obama's legacy.'' The Washington Post, 24 March 2017.

    Funding has also been stripped from most climate-related Federal 
programs, which limits not only our Federal partners' capacity to 
support or implement climate action, but that of by those tribal, 
state, and local governments and non-governmental entities that depend 
on resources and services produced at the Federal level. For example, 
the Landscape Conservation Cooperatives (LCCs), housed within the 
Department of the Interior, were established to provide capacity and 
technical expertise to 22 regional networks of Federal, tribal, state, 
and local governments, NGOs, universities, and private organizations. 
Today, most LCCs are in limbo without dedicated funding and some have 
been redesigned and renamed (i.e., Landscape Conservation Partnerships) 
in instances where there were non-Federal partners that could provide 
interim support. In addition, Federal advisory panels have been 
dismantled or simply not continued, including those for the National 
Climate Assessment, Interagency Land Management Adaptation Group, the 
Environmental Protection Agency's Board of Scientific Counselors, and 
the Department of the Interior's Advisory Committee on Climate Change 
and Natural Resource Science.<SUP>23,24</SUP> Finally, resources 
developed by Federal agencies and their partners are now vulnerable or 
have been altered or removed.<SUP>25,26</SUP> While action is being 
taken by many non-governmental groups to protect climate data, there is 
less attention being paid to protecting the tools, reports, and 
metadata that are the resources relied on by civil society.\27\ And 
even where it has been ``rescued'' it become harder for users to find 
when it is no longer on a Federal website.
---------------------------------------------------------------------------
    \23\ Eilperin, J. 2017. ``The Trump administration just disbanded a 
federal advisory committee on climate change. The Washington Post, 20 
August 2017.
    \24\ Doyle, M. and B. Patterson. 2017. ``Climate advisory group 
died quietly.'' Climatewire, 17 August 2017.
    \25\ Kahn, B. 2017. ``The EPA has started to remove Obama-era 
information.'' Climate Central, 2 February 2017.
    \26\ Sabin Center for Climate Change Law, Silencing Science 
Tracker: http://columbiaclimatelaw.com/resources/silencing-science-
tracker.
    \27\ Varinsky, D. ``Scientists are banding together to fight a 
looming threat from the Trump administration.'' Business Insider, 19 
January 2017.
---------------------------------------------------------------------------
            what is needed to ensure we optimize adaptation?
    When access to sound science and case studies, technical experts 
and peer networks, and funding streams is restricted, decision makers 
are severely limited in their ability to adequately engage in climate 
adaptation. Organizations such as EcoAdapt and our partners are working 
every day to prevent this stagnation. Crucial to advancing adaptation 
and the climate-informed management of public lands are:

  1.  Access to sound science and technical experts

  2.  Clear climate-informed mandates, laws, and policies

  3.  Accessible and sustained finance streams for adaptation 
            initiatives

  4.  Increased capacity, coordination, and collaboration
    Access to sound science and technical experts. Natural and cultural 
resource managers are faced with various challenges on how to avoid, 
minimize and/or recover from the effects of climate change. Decision 
making can be complicated by uncertainty in the rate and extent of 
climate change impacts over time, as well as knowledge gaps in terms of 
which adaptation actions are best suited for different conditions, most 
effective in reducing climate change impacts, and supported by 
scientific evidence.<SUP>28-31</SUP> Numerous Federal statutes call for 
using the ``best available science'' to inform natural resource 
management (e.g., Magnuson-Stevens Fishery Conservation and Management 
Act, U.S. Endangered Species Act), and scientists and decision makers 
consistently agree that the best available science improves the quality 
of management decisions.\32\
---------------------------------------------------------------------------
    \28\ Bayliss, H.R., et al. 2012. Does research information meet the 
needs of stakeholders? Exploring evidence selection in the global 
management of invasive species. Evidence and Policy 8(1): 37-56.
    \29\ Cook, C.N., M. Hockings, and R.W. Carter. 2009. Conservation 
in the dark? The information used to support management decisions. 
Frontiers in Ecology and the Environment 8(4): 181-18.
    \30\ Eriksen, S., et al. 2011. When not every response to climate 
change is a good one: Identifying principles for sustainable 
adaptation. Climate and Development 3(1).
    \31\ Sutherland, W.J., et al. 2004. The need for evidence-based 
conservation. Trends in Ecology & Evolution 19(6):305-308.
    \32\ Sullivan, P.J., et al. Defining and Implementing Best 
Available Science for Fisheries and Environmental Science, Policy, and 
Management. Marine Sciences Faculty Scholarship. Paper 30.

    Making climate-informed decisions requires the integration of 
science, including evidence of effectiveness. The presence of and 
access to high-quality research, including data collection, analysis, 
and synthesis, supports optimal decision-making conditions for managers 
and planners, particularly in light of climate change. Identifying what 
approaches are being implemented and to what degree of success expands 
the list of options for managers seeking to address climate change 
impacts. Part of this critical need for research is understanding and 
learning from past and ongoing efforts. Since 2009, EcoAdapt has 
engaged in a sustained research initiative--the State of Adaptation 
Program--to identify, evaluate, and assess climate adaptation 
activities in planning and underway. These projects have included 
identification and synthesis of best available science on historic, 
observed, and projected future climatic changes and impacts, extensive 
reviews of Federal, tribal, state, and local climate change planning 
documents, over 4,000 interviews with practitioners in order to 
identify trends and barriers to climate adaptation action, and over 400 
---------------------------------------------------------------------------
case studies.

    Knowledge transfer and sharing of lessons learned among managers is 
fundamental to ensuring effective, successful adaptation outcomes. 
Federal (Climate Resilience Toolkit \33\) and non-governmental 
(EcoAdapt, Climate Adaptation Knowledge Exchange \34\) knowledge 
brokers play central roles in gathering, synthesizing, and 
contextualizing science into digestible and actionable information 
sources. Action must be taken to preserve what credible Federal 
resources are still available and support non-Federal adaptation 
science providers and brokers. Over the past 2 years, as Federal 
websites were stripped of mentions of climate change and access to 
adaptation guidance and examples were moved, key boundary organizations 
stepped up to fill these gaps. To protect access to sound science, 
EcoAdapt implemented a multi-phased plan to ensure the public could 
continue to rely on Federal resources through the CAKE database. While 
other groups focused on basic climate data rescue, we prioritized 
adaptation resources including reports, guidance, tools, and records of 
projects and case studies.
---------------------------------------------------------------------------
    \33\ Climate Resilience Toolkit: https://toolkit.climate.gov/.
    \34\ Climate Adaptation Knowledge Exchange: http://www.CAKEx.org.

    Clear climate-informed mandates, laws, and policies. Through the 
State of Adaptation Program interviews, we have found that one of the 
leading motivations of adaptation action on public lands is clear 
agency mandates, laws and policies. To move agencies and departments 
beyond planning into needed implementation projects on public lands, 
bringing back agency mandates to intentionally address and incorporate 
climate change in all their management decisions is critical. These 
mandates and policies should require agencies to work across 
---------------------------------------------------------------------------
jurisdictions to increase the likelihood of success.

    Accessible and sustained finance streams for adaptation 
initiatives. One of the biggest barriers to adaptation action is a lack 
of funding,\35\ inability to apply funding to adaptation efforts, or a 
lack of access to sustained funding. Adaptation is a multi-phased 
process that includes scientific assessments, planning, implementation, 
and monitoring and evaluation. Funding directed to just one of these 
phases will not deliver the results needed to comprehensively address 
climate change. Therefore, it is imperative that the Federal Government 
increase its capacity to provide sustained funding to all stages of the 
adaptation process, particularly to implementation where upfront costs 
tend to be higher. Emphasis must also focus on increasing the capacity 
of boundary organizations, such as non-governmental partners, to 
execute climate adaptation work. These organizations are sources of 
highly specialized and locally relevant expertise, and execute on-the-
ground work from technical decision support to facilitating community 
discourse through workshops. Additional funding sources include 
foundations and local and state governments. However, many of these 
initiatives have resulted in piecemeal, fragmented, and disparate 
approaches, as well as a lack of movement beyond assessment and 
planning into implementation and evaluation. Federal finance plays a 
key role in funding all phases of the climate adaptation process. In 
fact Federal funding that is used to support projects that are not 
inherently taking climate change into account is likely to be money 
misspent--unable to create the benefits it was intended to achieve when 
the effects of climate change erode the target efforts.
---------------------------------------------------------------------------
    \35\ Archie, K.M., et al. 2012. Climate change and western public 
lands: a survey of U.S. federal land managers on the status of 
adaptation efforts. Ecology and Society 17(4).

    Increased capacity, coordination, and collaboration. One the 
greatest resources we have to address climate change is the collective 
capacity of scientists and managers in our Federal, tribal, and state 
agencies and non-governmental institutions. The knowledge, experience, 
and ingenuity brought by our Federal partners cannot be undervalued as 
a key part of the solution to climate change. To capitalize on this 
asset, we need increased capacity, coordination, and collaboration 
among and between Federal agencies and their non-Federal partners, 
including tribal nations, non-profits, small businesses, frontline 
communities, and academic institutions.
                          concluding thoughts
    The problems presented by climate change are vast and the solutions 
are innumerable and already overdue. With a challenge as urgent and 
pervasive as climate change, any delay in action is harmful. We have 
been underachieving for decades. Further prevention of progress will 
result in backsliding with irreversible and in some cases deadly 
consequences. What we need is someone to step forward. As a co-equal 
branch of government, this Congress has the ability to right the ship 
and advance climate action like never before--at a rate appropriate for 
the scale and speed of this problem. Key items for prioritization 
include:

    <bullet> Continued protection and restoration of existing public 
            lands and, where possible, expansion of these areas to 
            maintain ecological functions, ecosystem services, and 
            overall resilience. These efforts should include 
            prioritizing areas that may serve as refugia--places that 
            are likely to maintain more stable conditions over time--
            for plant, fish, and wildlife species, and eliminating 
            energy development.

    <bullet> Increased investments in science- and evidence-based 
            approaches to climate adaptation while allowing for 
            flexibility to identify, develop, and test promising, novel 
            approaches. This includes not just funding for modeling and 
            data collection, but also increased funding for 
            implementation of activities with requirements for the 
            evaluation of effectiveness, and capturing and sharing 
            lessons learned.

    <bullet> Increased coordination and collaboration between Federal 
            entities and non-Federal partners (including international 
            partners) to advance climate adaptation objectives. For 
            example, the majority of Federal dollars goes toward fire 
            suppression rather than prevention activities. Getting fire 
            back onto the landscape (both natural and prescribed burns) 
            to support ecological functions is critical, especially as 
            a means to reduce wildfire risk. This includes supporting 
            tribal cultural burning practices across the landscape.

    <bullet> Discontinue (and certainly do not expand) the extraction 
            of fossil fuels from Federal lands for use in energy 
            generation. Not only does the practice of fuel extraction 
            cause environmental degradation that reduces resilience, 
            but the burning of those fuels literally adds insult to 
            injury causing the changes that require even greater 
            resilience. Simply put, we need to stop increasing the rate 
            and extent of climate change in order to protect our public 
            lands and the services they provide to us.

    Congress' power to appropriate funds can be wielded as one of the 
most effective tools to ensure the protection of public lands and the 
prioritization of climate adaptation overall. Appropriations should be 
viewed through a climate lens to ensure that the agencies, departments, 
and research programs most qualified and poised to meet the climate 
challenge are adequately funded, and that any investments of tax payer 
dollars are not mis-spent on efforts that are likely to be undermined 
by the effects of climate change. We need simultaneous action at the 
scale required to solve the problem on climate change mitigation and 
adaptation. Approaches like the Green New Deal present the types of 
opportunities we need to seize to take action on mitigation, while 
working to integrate investments in climate adaptation across all 
agencies to address the effects of climate change we are and will 
experience due to the past emissions we did not curb.

    I invite the current Congress to have the fortitude your 
predecessors have lacked. The time to take meaningful action on climate 
change to protect not only our public lands but our citizens and our 
neighbors around the globe is upon us. It is your job as elected 
officials to recognize the scope of this crisis and make the changes 
that are needed. Be brave. Be bold. Take action today for a better 
tomorrow.

                                 ______
                                 

Questions Submitted for the Record by Rep. Haaland to Dr. Lara Hansen, 
            Executive Director and Chief Scientist, EcoAdapt
    Question 1. Both your and Dr. Gonzalez's work and testimony 
suggests the need to protect more places from the dangers of climate 
change.

    1a. As policy makers, are there any places that we should 
prioritize for protection?

    Answer. Climate change is already affecting natural and cultural 
resources and the human communities that depend on them, and is 
projected to continue for centuries to come. Impacts include loss of 
habitats and connectivity, shifts in animal and plant species 
distribution and abundance, alteration of natural communities, and 
significant changes in water availability and supply. Places to 
prioritize for protection in terrestrial systems include areas of 
climate refugia, wildlife corridors, enduring features, and headwater 
and groundwater sources. In particular, it is essential that we 
implement a portfolio of prioritization approaches to better cope with 
climate-related uncertainty. Protecting these places will help maintain 
habitat and species diversity, as well as the services they provide to 
people, over the long term.

    Climate refugia, or areas relatively buffered from contemporary 
climate change over time, provide locations that species can retreat 
to, persist in, and potentially expand from under changing climate 
conditions.\1\ Protecting areas of climate refugia can include 
identifying places that have remained relatively stable from historic 
to current conditions or places that are projected to remain stable 
with future climate change. For example, identifying places that have 
effectively maintained soil moisture levels over the last 100 years, 
even in the face of episodic droughts, or identifying places that are 
likely to continue to maintain adequate soil moisture levels even under 
hot and dry future climate conditions. Protecting wildlife corridors 
(both current and potential future routes) as well as habitat linkage 
areas (i.e. those places that connect intact or core habitats to one 
another) allows species to move across the landscape in response to 
changing conditions, helping to facilitate gene flow and decrease 
extinction risk. This could also include planning along latitudinal and 
elevational gradients. Enduring geophysical features (e.g., topography, 
soils, geology) seem to be the factors that help create species 
diversity in the first place.\2\ Protecting areas with a diversity of 
geophysical features provides species and communities with the space to 
move and reorganize in response to climate change. Last, given the 
inherent uncertainty associated with precipitation projections (amount, 
timing, type), it is critical to prioritize the protection of our 
headwater and groundwater sources as it will help minimize the impacts 
of other non-climate stressors. Because the locations of many 
groundwater sources are currently unknown, an important first step will 
be providing the resources necessary to find and map these locations. 
It is also important to protect the area around these sites such that 
they are buffered and connected to the greater landscape.
---------------------------------------------------------------------------
    \1\ Morelli TL, et al. 2017. Climate change refugia and habitat 
connectivity promote species persistence. Climate Change Responses 
4(8).
    \2\ Lawler JJ, et al. 2015. The theory behind, and the challenges 
of, conserving nature's stage in a time of rapid change. Conservation 
Biology 29(3): 618-629.

    1b. How might we work with the Federal land management agencies to 
---------------------------------------------------------------------------
identify and prioritize the protection of these places?

    Answer. It is important to note that effective natural resources 
management includes a balance between ``hands off'' preservation of 
some natural areas and the conservation of natural areas for continued 
and sustainable use. While preservation efforts may be appropriate in 
protecting specific sites to eliminate all human activity, the vast 
majority of conservation efforts require some active management of 
natural lands to ensure the continued availability and use of ecosystem 
services, such as food, timber, water supply, and cultural heritage. 
This is particularly true for climate adaptation practices wherein 
reducing vulnerability to both climate and non-climate stresses (e.g., 
pollution, water and oil withdrawals) is key. Congress has several 
tools at its disposal to support natural resources management in a 
changing climate--legislation, appropriations, oversight, and public 
hearings.

    Legislation. Congress can support climate-informed action by 
passing climate change legislation, creating amendments to existing 
legislation, integrating climate change into National Environmental 
Policy Act (NEPA) processes, and designating public lands that support 
climate change mitigation and adaptation goals. For example, Congress 
could create an amendment to the Coastal Zone Management Act, calling 
for the Coastal and Estuarine Land Conservation Program to not only 
protect coastal areas with ``significant conservation, recreation, 
ecological, historical, or aesthetic values'' (16 U.S.C. Sec.  1456-1), 
but also to explicitly protect areas of climate adaptation significance 
(e.g., refugia, corridors). Congress should encourage all NEPA-related 
environmental analyses to consider both the effects of climate change 
on projects and the effects of projects on climate change (e.g., how a 
proposed project may exacerbate greenhouse gas emissions). A tool like 
the Climate Change Adaptation Certification \3\ could be employed. In 
addition, Congress may designate public lands and review designations 
made by Executive Order to ensure that public lands maintain ecological 
functions and services in a changing climate. For example, Congress can 
create national monuments on public lands (e.g., Tule Springs Fossil 
Beds in Nevada) or review and reverse national monument decisions 
(e.g., Mount Olympus National Monument was re-designated as Olympic 
National Park in 1938 \4\). Congress can establish other public lands--
national parks, national conservation areas, wilderness areas--to 
support climate mitigation and adaptation efforts. These decisions may 
be made in consultation with Federal land management agencies to ensure 
protection of sites that include climate refugia, wildlife corridors, 
enduring features, and headwater and groundwater sources.
---------------------------------------------------------------------------
    \3\ Justus Nordgren, S. and L.J.Hansen. 2018. Climate Change 
Adaptation Certification. EcoAdapt. https://www.cakex.org/adaptation-
certification.
    \4\ National Park Service. 2018. Monuments List. National Park 
Service Archaeology Program, https://www.nps.gov/archeology/sites/
antiquities/MonumentsList.htm.

    Appropriations. Congressional appropriations should be viewed 
through a climate lens to ensure that the agencies, departments, and 
research programs most qualified and poised to meet the challenges of 
climate change are adequately funded. Sufficient budgets and staffing 
of Federal agencies are needed to facilitate institutional capacity for 
climate action. Adequate funds also need to be available to support on-
the-ground climate action by other governmental and non-governmental 
entities. Congress can also eliminate riders that are contrary to 
climate mitigation and adaptation and conservation goals (e.g., 
blocking consideration of the economic costs of carbon pollution, 
repealing clean water rules). Congressional appropriations can be used 
to fund the scientific research, data collection, mapping, modeling, 
and staff time necessary to identify climate refugia, wildlife 
corridors and linkage areas, enduring features, and headwater and 
groundwater sources. Appropriations also allow Federal land managers to 
manage the best they can; for example, while the majority of Federal 
dollars goes toward fire suppression rather than prevention activities, 
most land managers recommend getting fire back onto the landscape 
through both natural and prescribed burns to better support ecological 
functions and reduce wildfire risk.\5\
---------------------------------------------------------------------------
    \5\ Gregg RM, et al. 2016. Available Science Assessment Project: 
Prescribed Fire and Climate Change in Northwest National Forests. 
Report to the Department of the Interior's Northwest Climate Science 
Center.

    Oversight. Congress can use its oversight powers to review, 
monitor, and otherwise supervise Federal agencies, programs, and 
activities to ensure that climate change mitigation and adaptation are 
adequately integrated. For example, Congress can hold polluters 
accountable for carbon emissions and other sources of pollution. 
Reducing these non-climate stresses, many of which can exacerbate the 
effects of climate change (e.g., temperature affects the toxicity of 
various chemicals \6\), increases overall resilience.
---------------------------------------------------------------------------
    \6\ Gregg RM, et al. 2011. The State of Marine and Coastal 
Adaptation in North America: A Synthesis of Emerging Ideas. EcoAdapt, 
Bainbridge Island, WA.
---------------------------------------------------------------------------
    Public Hearings. Congress can give a voice to the land managers and 
everyday Americans experiencing climate change on the ground. In 
addition to inviting scientists to present their findings, we would 
encourage you to amplify the voices of the managers of these public 
lands who are making the everyday decisions in light of climate change 
as well as the administrative restrictions they are under. Part of 
EcoAdapt's role as climate adaptation facilitators is to identify the 
ways in which managers can make modifications to current practices and 
co-produce (with the relevant stakeholder communities) new, innovative 
strategies to address the climate challenge. No one is more passionate 
about protecting public lands than the people who work on them every 
day. Giving them the space to share their challenges, needs, and 
successes will be critical to informing Federal action.

    Question 2. Dr. Hansen, when you say ``protecting adequate and 
appropriate space for ecosystems to function under changing 
conditions,'' what kind of actions would that include?

    Answer.

    <bullet> This means protecting ample space for ecosystem services 
            such as hydrological function under changing precipitation 
            patterns. For example, what are the new requirements the 
            recharge of groundwater or flow of surface water.

    <bullet> This means protecting locations that appear to be climate 
            refugia, meaning those locations that are changing less 
            quickly and may afford natural systems the ability to 
            respond on their own.

    <bullet> This means supporting connectivity across landscapes so 
            species (animal and plant) can move in response to changing 
            climatic conditions. This includes thinking about 
            latitudinal and elevational gradients.

    <bullet> This means keeping systems as intact as possible so 
            natural diversity can allow for the greatest number of 
            potential response avenues.

    <bullet> This means designing restoration efforts for not only 
            current and future conditions, not reach for a past that 
            cannot exist again given the elevated levels of carbon 
            dioxide in our atmosphere.

    Question 3. Dr. Hansen, in your testimony you mentioned that we 
need to provide our agencies with clear, informed mandates to begin 
preparing for climate change.

    3a. Has this Administration provided these?

    Answer. In short, no. The Administration has intentionally and 
systematically worked to eliminate or repeal climate-informed mandates, 
policies, and regulations. Furthermore, Federal climate programs have 
been defunded or dismantled, and scientific advisory groups dedicated 
to advising the Federal Government on best approaches to prepare for 
and respond to climate change have been disbanded.\7\
---------------------------------------------------------------------------
    \7\ https://www.washingtonpost.com/news/energy-environment/wp/2017/
08/20/the-trump-administration-just-disbanded-a-federal-advisory-
committee-on-climate-change/?utm_term=.5d89 df6ed69d.

    This Administration has taken more than 70 actions aimed at 
removing or altering environmental and climate mandates, regulations, 
and policies.\8\ From international actions, such as announcing the 
withdrawal from the Paris Climate Accord, to revoking an Obama-era 
Executive Order setting Federal Flood Risk Management Standards, 
climate mandates put in place by previous administrations are under 
attack. Under the explanation of streamlining the approval process for 
building infrastructure, the current administration signed an Executive 
Order eliminating Obama-era planning step to make roads, bridges and 
buildings more resilient to climate and flood dangers. The current 
administration has also dissolved the Federal advisory panel for the 
National Climate Assessment, a group that helps policy makers and 
private-sector officials incorporate the government's climate analysis 
into long-term planning. In addition, the EPA and Department of the 
Interior have followed suit, with the EPA dismissing dozens of 
scientists from their Board of Scientific Counselors and Interior is 
not renewing the charters of numerous scientific advisory panels. 
Beyond these actions, the agencies are failing to enforce existing 
regulations and limiting enforcement mechanisms by others.
---------------------------------------------------------------------------
    \8\ https://www.washingtonpost.com/graphics/politics/trump-rolling-
back-obama-rules/?utm_term =.0aec397d6676.

    The loss of adaptation resources (and government services in 
general) is further exacerbated by recent changes in funding streams 
through changing tax law. Reduced Federal tax revenue will result in 
further cuts to Federal programs, and changes in state tax deductions 
will likely erode local tax revenue streams. With state and local 
programs being touted as the backstop to lost Federal action this may 
undermine that potential. Should charitable contribution tax deductions 
be changed that would also undermine NGO adaptation activities, leaving 
American society with little access to information or support as it 
---------------------------------------------------------------------------
faces the perils of climate change.

    3b. What type of mandates might we give to help the Government 
begin to address the impacts of climate change?

    Answer. Through EcoAdapt's State of Adaptation Program, we have 
found that the leading motivations for adaptation action on public 
lands is clear agency mandates, laws, and policies.

    We recommend mandates focus on:

  1.  Changing goal of public land management from short-term, multi-
            use industry concerns to a focus on the maintenance of the 
            long-term health of our public lands for ecosystem services 
            (which themselves have strong fiscal value) and public 
            health. This shift in focus will enable agencies to embrace 
            and prioritize planning for long-term uses including 
            insurance against the effects of climate change, over 
            short-term uses that often exacerbate climate change. We 
            should definitely ensure that our public lands are not 
            being used to make climate change worse by increase 
            greenhouse gas emissions either through fossil fuel 
            extraction or unmitigated use.

  2.  Focus on science, research, and technical experts

          <bullet>  Prioritization of science and research is crucial 
        because most agencies current mandates direct them to use the 
        best available science. This science needs to reflect current 
        and up to date understanding of current and future climate 
        conditions and the implications of those conditions.

          <bullet>  Technical experts are crucial to moving beyond 
        research and planning into implementation. Without specific and 
        clear direction from technical experts, Federal mandates will 
        not translate into effective on-the-ground actions.

  3.  Require agencies to capture, share, and translate climate 
            adaptation knowledge

          <bullet>  Capture and Share: Most crucial to on-the-ground 
        adaptation success are lessons learned from practitioners 
        around the field. Given the scope of the lands managed by 
        Federal agencies, these managers play a key role in building 
        and advancing the field of adaptation.

          <bullet>  Translation and synthesis: Managers often cite 
        relevance, scale, and context as a barrier to the usability of 
        climate science. Translation, or knowledge brokers, of climate 
        science and adaptation research such as the Climate Adaptation 
        Knowledge Exchange (CAKE), are vital to ensure on the ground 
        managers have access to digestable and actionable information.

  4.  Require all phases of the adaptation process (assessment, 
            planning, implementation, monitoring and evaluation) as 
            well as thorough reporting on progress (including 
            successes, failures, and modified approaches or lessons 
            learned).

          <bullet>  Include thorough reporting/oversight processes on 
        progress including successes and failures, and modified 
        approaches.

          <bullet>  Reported progress should be tied to previous 
        planning phase (e.g. planning should be tied to reducing 
        vulnerability identified in assessment phase).

          <bullet>  Mandate needs to identify accountability for 
        progress, as well as highlight champions and leadership.

    Finally, mandates need to be coupled with climate adaptation 
capacity at the agency and external partner level, appropriations and 
funding, and accountability and oversight. This means that Federal 
staff need appropriate training in climate change adaptation, which is 
often required through professional continuing education opportunities 
as much of the Federal work force has no formal training in this area 
of science and management practice. This should be supported through 
the National Conservation Training Center, Sea Grant, a national 
adaptation extension service, and other venues such as the National 
Adaptation Forum. Congress must ensure that there is sufficient funding 
to not only support training of Federal staff, but the funding for 
sufficient staff and the inclusion of funds to design, implement, 
monitor and share adaptation actions.
    Question 4. Dr. Hansen, you suggest in your testimony that Federal 
funding for projects that don't account for climate change is often 
money misspent.

    4a. Can you please elaborate on this claim?

    Answer. When climate change is not recognized, and a project (or 
policy) is design or implemented without explicitly considering the 
implications of climate change, the project (or policy) is vulnerable 
to the effects of climate change. When those vulnerabilities become 
realities the climate uninformed project (or policy) will no longer be 
effective. It will then need to be repaired, replaced, removed or 
repeated elsewhere. This means that the initial projected or policy was 
taxpayer dollars not delivering the outcome they paid for.

    Additionally, citizens, businesses, communities and ecosystems may 
incur harm from the project (or policy) that did not deliver on its 
intended and advertised outcome.

    There are at least two major categories in by which this can 
happen.

  1.  Funds (or Federal employee effort) are expended in a manner that 
            assumes conditions today are the same as they were in the 
            past and will not change in the future. As a result, the 
            work will not garner the desired effects given the reality 
            that climate change will mean that today is different from 
            yesterday and tomorrow will be different than today. For 
            example, consider a coastal infrastructure investment such 
            as a road, an estuary restoration project, or a coastal 
            sewage treatment plant that are designed without taking sea 
            level rise projections (relevant to the project lifetime) 
            into account. You could also consider building standards or 
            land use management in increasingly fire prone regions that 
            does not take into account the increasing risk therefore 
            putting new structures, communities and associated 
            ecosystems at risk. You could also consider changing 
            frequencies of flood events, wherein older flood projection 
            maps continue to be used to make land use decisions or 
            allow for the use of FEMA funds to rebuild in harm's way--
            again putting people, property, business and government 
            function at risk.

      Uninformed decisions such as all of these (and many more) may 
            result in either the need to spend additional funds to 
            redesign the project when the vulnerability becomes an 
            ``event'' that renders the project ineffective. For 
            example, the restoration project fails because the site is 
            inundated or the species used for the project has moved out 
            of the region as temperatures change. Similarly, if a road 
            is inundated it may require a sea wall, drains or pumps; or 
            it may require that the road is moved to an entirely new 
            location. In all cases there is an additional expenditure 
            of funds to provide the same service as the initial outlay 
            before the lifetime of the project should have ended.

  2.  Funds are not spent to address the challenges of climate change 
            leaving existing efforts vulnerable to the impacts of 
            climate change. Often there are existing investments or 
            resources that need new actions to protect them. This can 
            include creating living shorelines to protected coastal 
            infrastructure, funding the application of prescribed fire 
            to protect our forestlands, upgrading culverts and bridges 
            to avoid flood and erosion damage, funding enforcement to 
            protect natural habitats and species from illegal poaching 
            and destruction.

    4b. How do we best ensure we're getting a fair return on taxpayer 
funded infrastructure projects?

    Answer. First of all, it is not just infrastructure projects that 
may be vulnerable to these issues. The simplest path to this is to both 
build the capacity of Federal agency staff and Congress about climate 
science and adaptation, and to create explicit review mechanisms that 
require evaluation of the implications of climate change on any Federal 
expenditure, project or other action. Using a tool such as the Climate 
Change Adaptation Certification,\9\ provides a structure for how to do 
this, along with direction to readily available climate science to use 
in the evaluation, and a structure around how to make decisions based 
on what this analysis indicates. This is very similar to how current 
analyses are done to the financial or environmental impact of a project 
(or policy).
---------------------------------------------------------------------------
    \9\ Justus Nordgren, S. and L.J. Hansen. 2018. Climate Change 
Adaptation Certification. EcoAdapt. Bainbridge Island, WA. 
www.CAKEx.org/Adaptation-Certification.

---------------------------------------------------------------------------
                                 ______
                                 

    Ms. Haaland. Thank you, Dr. Hansen.
    The Chair now recognizes Mr. Hans Cole.

STATEMENT OF HANS COLE, DIRECTOR OF ENVIRONMENTAL CAMPAIGNS AND 
         ADVOCACY, PATAGONIA, INC., VENTURA, CALIFORNIA

    Mr. Cole. Chairman Haaland, Ranking Member Young, thank you 
for the opportunity to testify today. My name is Hans Cole, and 
I am the Director of Campaigns and Advocacy for Patagonia.
    At Patagonia, we are in business to save the home planet. 
On behalf of our 3,000 employees and their families and 
communities across America and around the world, I commend the 
Committee for tackling this issue, and I strongly urge you to 
take bold action to address our planet's climate crisis before 
it is too late.
    The science reflects what we are seeing with our own eyes, 
and the voices of the American people and responsible 
businesses on the topic are clear. If we fail to change course, 
global temperatures will continue to rise and environmental 
emergencies, wildfires, deadly heat waves, hurricanes, 
flooding, and growing food shortages will grow worse.
    At Patagonia, we believe that clean, renewable energy, 
regenerative organic farming, and public land and water 
protection should play critical roles in addressing the climate 
crisis. My testimony today will focus on our public lands.
    America's public lands are one of our greatest collective 
assets, but they are also the source of substantial greenhouse 
gas emissions. Almost a quarter of all greenhouse gas emissions 
in the United States come from fossil fuels extracted from 
public lands or offshore waters. This will get much worse, as 
the Trump administration continues its assault on land and 
water protections, despite outcries from outdoor enthusiasts 
and companies of all political stripes who, together, represent 
a nearly $900 billion industry.
    We oppose the Administration's proposed offshore leasing 
and drilling. It would make more than 90 percent of U.S. waters 
available to oil and gas companies.
    We oppose an attack on Alaska's Arctic National Wildlife 
Refuge that would open one of our planet's truly wild places 
for drilling.
    And we oppose the slashing size of Utah's Bears Ears and 
Grand Staircase-Escalante National Monuments, and any reduction 
in size of other monuments, as well.
    The Administration's actions not only rob native people and 
all Americans of their natural and cultural heritage, threaten 
communities that depend on the outdoor economy, poison our 
water and air, and damage vulnerable species, they also make 
the climate crisis worse.
    Opening up public lands to more extraction will increase 
emissions and destroy ecosystems that help mitigate climate 
change by storing carbon. Instead, Congress should impose a 
moratorium on oil and gas drilling in Federal waters, and bar 
drilling in Alaska's remaining wild places.
    We urge you to restore Bears Ears and Grand Staircase-
Escalante National Monuments, and support measures like 
Representative Haaland, yours, and Senator Udall's bill to make 
it clear that no president has the authority to undermine the 
protection of America's national monuments.
    Congress should also permanently re-authorize and fully 
fund the Land and Water Conservation Fund, which has used a 
small percentage of revenues from existing offshore drilling 
leases to protect 5 million acres of public parks, wildlife 
habitats, and recreation areas.
    Instead of further slicing up our landscapes and waterways, 
we should build wildlife overpasses and underpasses, invest in 
communities eager to remove unsafe and damaging dams, and 
strengthen large-scale wildlife corridors for migratory 
species. These are all bipartisan solutions that address 
climate issues and appeal to outdoor enthusiasts and businesses 
in every single state.
    Patagonia supports proposals to transition to 100 percent 
clean, renewable energy by 2050. We need to focus on the 
cleanest available technology, including wind, solar, and 
geothermal, and not rely on the false promise of outdated 
technologies like hydro-electric dams and nuclear power that 
have catastrophic consequences for our public lands and waters 
by producing toxic waste and driving species to extinction.
    If Congress takes bold action to address this crisis, it 
will challenge the private sector to step up, as well, and 
Patagonia will continue to do our part. We are reinvesting $10 
million from the 2017 irresponsible corporate tax cuts to 
groups working to solve the causes of the climate crisis. And 
Patagonia is committed to becoming carbon neutral across our 
entire business, including across our supply chain, by 2025.
    Please make 2019 the year that the United States finally 
takes decisive action to fight the climate crisis. Please 
reclaim our public lands and waters from the polluters and give 
them back to the people.
    Thank you, and I look forward to any questions you may have 
for me.

    [The prepared statement of Mr. Cole follows:]
Prepared Statement of Hans Cole, Director of Environmental Campaigns & 
                        Advocacy, Patagonia, Inc
    Chairman Haaland, Ranking Member Young. Thank you for the 
opportunity to testify today. My name is Hans Cole, and I am director 
of Campaigns and Advocacy for Patagonia. At Patagonia, we are in 
business to save our home planet. On behalf of our 3,000 employees, and 
their families and communities across America and around the world, I 
commend the Committee for tackling this issue, and I strongly urge you 
to take bold action to address our planet's climate crisis head-on 
before it is too late.
    The science reflects what we see with our own eyes, and the voices 
of the American people and responsible businesses on the topic are 
clear. If we fail to change course, global temperatures will continue 
to rise and environmental emergencies--massive wildfires, deadly heat 
waves, disastrous hurricanes, major flooding, growing food shortages--
will grow worse.
    The U.S. Government's 2018 National Climate Assessment noted that 
ecological catastrophe will lead to an economic catastrophe, wiping out 
up to 10 percent of the American economy by 2100. That is not good for 
business, but it's even worse for our employees, our customers and your 
constituents who could see wages drop and unemployment rise.
    We believe that clean renewable energy, regenerative organic 
farming, and purposeful public lands protection should play critical 
roles in addressing the climate crisis. Consistent with this 
Committee's interest in public lands, my testimony today will focus on 
purposeful protection of these important places and the need to 
transition to a more sustainable future.

    America's public lands are one of our greatest collective assets 
but they are also the source of substantial greenhouse gas emissions. 
According to the U.S. Geological Survey, almost a quarter of all 
greenhouse gas emissions in the United States come from fossil fuels 
extracted from public lands or offshore waters. Oil, gas, and mining 
corporations are damaging our public lands and waters and worsening the 
climate crisis. This will get much worse as the Trump administration 
continues an assault on land and water protections, despite outcries 
from outdoor enthusiasts and companies of all political stripes who 
together represent a nearly $900 billion industry. We oppose:

    <bullet> The Administration's proposed offshore leasing and 
            drilling that would make more than 90 percent of U.S. 
            waters available to oil and gas companies, including the 
            entire Atlantic and Pacific coasts, the entire Gulf of 
            Mexico, and most of Alaska's available coastal waters.

    <bullet> An attack on Alaska's Arctic National Wildlife Refuge that 
            would open one of our planet's last truly wild places to 
            drilling and accelerate the destruction of the Western 
            Arctic.

    <bullet> Slashing the size of Utah's Bears Ears and Grand 
            Staircase-Escalante National Monuments, in violation of the 
            Antiquities Act.

    The Administration's actions not only rob Native people and all 
Americans of their natural and cultural heritage, threaten communities 
that depend on the outdoor industry for economic survival, poison our 
water and air, and wreak untold damage on vulnerable species--they also 
exacerbate the climate crisis. Opening up public lands to more 
extraction will increase emissions and destroy ecosystems that help 
mitigate climate change by storing carbon.
    Instead, Congress should impose a moratorium on oil and gas 
drilling in Federal waters and bar drilling in Alaska's remaining wild 
places. We urge you to restore Bears Ears and Grand Staircase-Escalante 
National Monuments, and support measures like Senator Udall and 
Representative Haaland's bill to make it clear that the President has 
no authority to undermine the protection of America's National 
Monuments.
    Congress should also permanently reauthorize and fully fund the 
Land and Water Conservation Fund, which has used a small percentage of 
revenues from existing offshore drilling leases to protect 5 million 
acres of public parks, wildlife habitats, and recreation areas across 
the country. Instead of further slicing up our important landscapes and 
waterways, we should build wildlife overpasses and underpasses, invest 
in communities eager to remove unsafe and damaging dams and diversions, 
and strengthen large-scale wildlife corridors for migratory species. 
These are all bipartisan solutions that address climate issues and 
appeal to the outdoor enthusiasts in every single state, as well as the 
small and big businesses that rely on tourism and protected natural 
resources for their livelihood.
    Along with protecting our public lands as one of our greatest 
resources to combat climate change, we must also transition our economy 
to rely on clean, renewable energy. Congress should stop spending 
taxpayer dollars subsidizing large oil and gas companies and approving 
destructive projects like the Keystone XL and Dakota Access pipelines, 
and reverse the drive to loosen restrictions on coal-fired power 
plants, inefficient cars and trucks, and polluters of all kinds.
    Patagonia supports proposals to transition to 100 percent clean, 
renewable energy by 2050. We need to invest in transformative research 
and green infrastructure like a smart electric grid. Congress should 
provide incentives to encourage American consumers and businesses to 
install solar panels, build wind turbines, buy electric vehicles, and 
retrofit buildings to make them more energy efficient.
    The traditional ``all-of-the-above'' approach has unfortunately 
relied on the false promise of outdated technologies like nuclear 
plants and hydroelectric dams that have catastrophic consequences for 
our environment by producing toxic waste and driving species to 
extinction. The only viable path for the planet's survival is to 
embrace wind, solar, geothermal, and other truly clean and renewable 
sources of energy.
    This transition toward a less-polluting economy must account for 
how American's food is grown and distributed. Agriculture is a 
significant part of the American economy, contributing billions to GDP, 
and is also a source of substantial greenhouse gas emissions, emitting 
about 650 million metric tons of CO<INF>2</INF> equivalent annually. 
But how we grow our food also holds great promise in combatting climate 
change. At Patagonia we have helped develop a new standard--the 
Regenerative Organic Certification--that builds on current organic 
practices to improve soil health. Regenerative organic farming has the 
potential to remove carbon from the atmosphere, storing it in the soil. 
Studies indicate that if we moved from current industrial farming to 
regenerative organic practices we could sequester enough carbon to 
slow, if not completely halt, the growing amount of CO<INF>2</INF> in 
our atmosphere. And experts agree we could feed our growing population 
using regenerative organic farming.
    If Congress takes bold action in all these areas--protecting public 
lands and waters and promoting a change to clean, renewable energy 
along with encouraging regenerative organic agriculture--it will 
challenge the private sector to step up as well. Patagonia will 
continue to do our part.
    We are re-investing $10 million we received from the 2017 
irresponsible corporate tax cuts by donating to groups that are 
fighting to protect our air, land, and water to save our planet. 
Patagonia is committed to becoming carbon neutral across our entire 
business--including across our supply chain--by 2025. That means we 
will reduce, capture or otherwise mitigate all of the carbon emissions 
we create, including the emissions from the factories that make our 
textiles and finished clothing. We will use only renewable or recycled 
materials in our products, and by 2020 we will use only renewable 
electricity in our stores and offices. We are similarly piloting 
products made and built compliant with the new Regenerative Organic 
Certification to show the world that products can be built using these 
practices.
    Patagonia will continue to encourage our community and customers to 
participate in the democratic process. As long as polluters wield 
power, Patagonia will speak out and fight back. We will proudly and 
transparently support candidates and causes we believe in.
    Please make 2019 the year that the United States finally takes 
decisive action to fight the climate crisis. Please reclaim our public 
lands and water from the polluters and give them back to the people.
    Thank you for the opportunity to testify here today. I look forward 
to any questions you may have for me.

                                 ______
                                 

   Questions Submitted for the Record by Rep. Haaland to Hans Cole, 
   Director of Environmental Campaigns and Advocacy, Patagonia, Inc.
    Question 1. Mr. Cole, some conservatives, especially those from the 
West, often cast our public lands as a burden. They claim that public 
lands hurt economies and ruin development potential. Do you at 
Patagonia think that public lands harm communities?

    Answer. At Patagonia, we do not think of public lands as a burden, 
and in fact just the opposite: as a business that relies on protected 
public lands for our very existence, we know that public lands, 
particularly protected public lands, contribute immensely to the health 
and economic vitality of local communities. Looking first at the data, 
Headwaters Economics, an independent, non-partisan research firm, has 
shown that from the early 1970s to the early 2010s, ``. . . rural 
counties in the West with more federal lands or protected federal lands 
[perform] better on average than their peers with less federal lands.'' 
This was shown to be true for four key economic measures: population, 
employment, personal income, and to a smaller extent, per capita income 
growth. Public lands also bring value across numerous different areas: 
from the ecosystem services of clean water and air (for example, 
National Forests provide as much as 33 percent of our water in the 
West), to the more community-based values of healthy opportunities for 
kids and families, to the recreation sector and economy that Patagonia 
is a part of. This sector, which brings economic opportunity for many 
``gateway'' communities that sit at the doorstep of our public lands, 
now provides $887 billion in annual consumer spending and 7.6 million 
jobs (as compared with about 180,000 jobs from oil and gas extraction). 
National parks, national wildlife refuges, national monuments and other 
public lands and waters account for $45 billion in economic output and 
about 396,000 jobs nationwide--many of which are in communities with 
close proximity to public lands.

    It's equally clear when you ask the public: a clear majority of 
people from across the political spectrum love our protected public 
lands and recognize the importance of the outdoor economy they support. 
For example, in the 2019 Colorado College ``Conservation in the West'' 
poll, results indicate that ``. . . there is almost no partisan 
distinction in perceptions of outdoor recreation's importance to the 
economic future of the West.'' Whether it was Republicans, Independents 
or Democrats responding, over 85 percent indicated that outdoor 
recreation is important to their state's economic future.

    Finally, coming out of the hearing on February 13, it's critical to 
note that our public lands are an important and often overlooked 
component of community-level efforts to address climate change. 
Protected public lands (where forests, wetlands, grasslands and other 
ecosystems are intact) have increased carbon storage capacity that will 
be needed to reduce greenhouse gases in the long term, and in the short 
term, provide the ecosystem services and resilience that communities 
will require as precipitation patterns and temperatures change, and as 
we face increasing fires, floods and other challenges. Intact and 
protected public lands provide a refuge for biodiversity and 
connectivity for migrating species that will need to move and adapt in 
response to a changing climate. And, with care given to smart and 
ecologically sensitive citing, we can even consider renewable energy 
development opportunities on our public lands. In summary, protected 
public lands are one of our greatest assets in the fight to protect our 
communities and ecosystems in the face of climate change.

    Question 2. Mr. Cole, this Administration has prioritized 
extraction on our public lands over other uses, exposing us to the 
dangers of climate change and to the local impacts associated with 
methane leakage and groundwater depletion and contamination. This 
prioritization includes the alteration of our national monuments, 
seemingly for the benefit of fossil fuel interests.

    2a. Why is it important that we protect our public lands from 
unbridled extraction and depletion?

    2b. What benefits do national monuments provide that supersede the 
benefits of short-term and short-sighted extraction?

    Answer. Public lands provide a diverse array of values to local 
communities, and they are critical to maintaining a life-sustaining 
climate and biosphere on a macro level. However, when we prioritize 
using these lands for resource extraction--particularly without any 
sense of balance or attention to sensitive ecosystems--we quickly lose 
access to many of the values that protected public lands offer. 
Unbridled resource extraction creates serious and long-lasting impacts 
(for example: pollution, disturbance, aesthetic impacts, barriers such 
as dams and fences, and carbon emissions), that permanently damage 
natural ecosystems, threaten biodiversity, exacerbate climate change, 
and exclude, often permanently, other more sustainable activities. 
While sometimes touted as part of a ``multi-use'' agenda on our public 
lands, the truth is that unwise resource extraction can turn our public 
lands into a single-use landscape, one where corporate interests are 
favored over those of citizens who rely on the place to support a more 
diverse, sustainable economy, or to recreate and spend time with family 
and community. Intensive resource extraction can also damage cultural 
resources and uses of the land important to native communities, who in 
many cases live closest to these landscapes and have a connection with 
them that stretches back hundreds, even thousands of years.

    By contrast, National Monument designation can prevent unwise 
resource extraction on sensitive landscapes that hold incredible 
natural and cultural value. Whether we're talking about the sensitive 
cultural and ecological landscape of Bears Ears, the forests of 
Katahdin Woods and Waters, or the still largely unknown depths of the 
Northeast Canyon and Seamounts--National Monument status can quickly 
and effectively provide significant immediate protection, allowing for 
more thoughtful management planning to take place and giving Congress 
the time and opportunity to consider greater protection down the road 
if needed. It should be no surprise that almost half of our treasured 
National Parks started as National Monuments, including many of our 
most popular parks: Teton, Grand Canyon, Acadia, Zion, Olympic, and 
Arches. National Monument management plans offer an opportunity for 
diverse stakeholders to come to the table together, to discuss and plan 
for truly sustainable use of the landscape--allowing sensitive areas to 
have a rest, while simultaneously enabling a greater swath of the 
public to access, enjoy, and gain benefit from the area. The beauty of 
thoughtful management is that long-standing uses of the landscape can 
be grandfathered in where appropriate--for example, ranching, hunting, 
firewood gathering, and similar activities. Thus, a National Monument, 
while off limits to corporate oil and gas development, is not an 
exclusive model at all, but instead can host a variety of activities 
and groups of people, many of whom have had life-long and multi-
generational connection to the place. Finally, in terms of long-term 
impact vs. short-term gain, there is no more convincing argument than 
the fact that National Monument protection can keep more fossil fuels 
in the ground, preventing further impact to our climate.

                                 ______
                                 

    Ms. Haaland. Thank you, Mr. Cole.
    The Chair now recognizes Dr. Elaine Oneil.

     STATEMENT OF ELAINE ONEIL, ONEIL FOREST RESEARCH AND 
                 MANAGEMENT, TENINO, WASHINGTON

    Dr. Oneil. Thank you, Chairman Haaland and Committee 
members. I am Dr. Elaine Oneil, a forest scientist and 
management consultant specializing in forest health, climate 
change, and forest carbon accounting.
    Today, I will be providing comments on research I conducted 
at the University of Washington that examined the impacts of 
climate change on forest carbon in the 11 western states. That 
is contiguous states; we didn't look at Alaska. These results 
speak to the heart of the question before you today: What 
climate impacts are occurring on our public lands, and what 
adaptation opportunities exist?
    I am going to place that research into context using 
examples from Washington State, my home state.
    First, some easy math. Trees take up carbon dioxide out of 
the atmosphere and use it to make wood, roots, needles, leaves, 
and branches, ending up at about 50 percent carbon by dry 
weight. Superficial analysis suggests that the more trees we 
have, the more carbon dioxide they can suck out of the 
atmosphere.
    That is only true if you ignore biological principles that 
dictate forest growth and death related to site carrying 
capacity. And in our western forest landscapes--and we have a 
lot of Members here representing them, and it is also where 
most of our public lands are located--that is only true if we 
ignore fire, which would be a mistake.
    What we are seeing in the western United States is an 
epidemic of insects and disease and wildfires brought on, in 
large part, by what one of your Federal scientists calls an 
``epidemic of too many trees.'' He talked about that epidemic 
of too many trees at a recent TEDx talk called ``The Era of 
Mega-Fires,'' and I have to say we are in an era of megafires.
    When we first began the analysis of climate impacts on 
forest carbon in these 11 western states we used both 
historical fire rates for the region, and fire rates that were 
predicted to occur by 2050. A look at the wildfire statistics 
since 2000 is sobering. We have doubled the average acres 
burned since 2000, with 10 of the worst fire years on record 
occurring since that time, and that doesn't even count last 
year. The statistics aren't in on that date.
    That means that the climate science published as late as 
2004 was wildly optimistic. We are seeing future expected fire 
rates 30 years earlier than anticipated.
    So, what do we do about these climate impacts? It is a bit 
counter-intuitive, but we cut more trees. This wildly unpopular 
idea has been the recommendation of fire scientists who have 
studied the fire ecology of these systems for decades. This is 
not new information. It is completely in line with our fire and 
carbon analysis that examined nine management alternatives 
across 25,000 forest inventory plots in the West. In other 
words, we didn't cherry-pick the data; we looked at every plot 
and said what would happen here.
    In most cases, managing forests creates a more favorable 
forest outcome than letting nature take its course. Like any 
other potential natural disaster, whether driven by climate 
change or not, wildfire mitigation demands a response.
    [Slide.]
    Dr. Oneil. Forest inventory data already show that two-
thirds of the Federal forest growth is lost to wildfire, 
insects, and disease, as shown on this chart on the wall. In 
some states, mortality already exceeds growth, meaning the 
forests are now carbon sources and not sinks. In other words, 
they are emitting more than they are absorbing.
    So, while forests do store carbon, when they are left 
without care the results are usually not what we want. Clearly, 
letting nature take its course did not provide much carbon 
benefit, especially since the climate impacts we are seeing are 
real, current, and often devastating.
    We know how to mitigate these climate impacts at both the 
stand and landscape level. It starts with greatly reducing the 
number of trees, keeping fire-resistant species, and 
interrupting fuel ladders so the fires don't spread as easily. 
Across the West, this treatment has been proven to keep forests 
alive when wildfires hit, and they will hit. That is 
inevitable. It is part of the fire ecology of the system. They 
can be easily replicated across the landscape using a 
systematic approach that considers adjacent landowners in order 
to create a patchwork of defensible space that is actually more 
akin to what our natural forests looked like than they do now.
    Coordination across landowners is required, so is 
infrastructure that can handle the harvested material. Even 
with the best of intentions, we will not be successful unless 
efforts are made to ensure milling infrastructure remains 
viable. Shared stewardship approaches like we have in 
Washington State, including the Good Neighbor Authority and 
local forests collaboratives, should continue to be supported 
and encouraged as a fundamental mechanism to move forward with 
keeping our public lands and adjacent forestlands healthy, fire 
resilient, and green.
    Thank you.

    [The prepared statement of Ms. Oneil follows:]
   Prepared Statement of Dr. Elaine Oneil, Oneil Forest Research and 
                               Management
    I am Dr. Elaine Oneil, a forest scientist and management consultant 
specializing in forest health, climate change, and forest carbon 
accounting. My comments are focused on research I conducted while at 
the University of Washington that examined the impacts of climate 
change on forest carbon in the 11 western states. Key results from that 
research, combined with data on wildfire impacts, forest management, 
and regional forest health strategies will be used to provide context 
for the comments.

    Commentary can be categorized into four main themes:

  1.  Forests are suffering from too many trees for the site and extant 
            climate conditions. Overstocking creates conditions that 
            kill trees. That mortality combined with wildfire has 
            changed the calculus for defining the optimal strategies 
            for climate mitigation and adaptation in forests.

  2.  Management provides for improved firefighting capability and 
            improved forest carbon outcomes in nearly every forest type 
            across the 11 western states.

  3.  Wildfire ignition is random, but the consequences of wildfires 
            are driven by forest cover conditions, climate, and 
            prevailing weather patterns. Forests that have too many 
            trees, and which contain large amounts of dead trees, 
            produce conditions for wildfires that are uncontrollable, 
            with devastating consequences to the forest, the adjacent 
            landowners and communities, and the budgets of land 
            management agencies.

  4.  Like any other potential natural disaster, wildfire mitigation 
            demands a response. Letting nature take its course is not 
            supported by the science of forest carbon dynamics.

                          forest carbon primer
    Trees remove carbon dioxide from the atmosphere using 
photosynthesis to produce wood, roots, needles, leaves, and branches. 
Carbon is also released via respiration, either directly from the 
plant, or indirectly via decomposition or combustion pathways. Growth, 
and therefore carbon accumulation in forests is constrained by limiting 
factors that range from climatic parameters driving growing season, 
moisture and temperature conditions, to nutrient availability, 
competition, and species growth habit and longevity. There is some 
variability in carbon content between tree components and species but 
on average trees are about 50 percent carbon by dry weight. This has 
led some to suggest that leaving forests to grow without management or 
interruption would be a sound climate solution. That is only true if 
you ignore biological principles that dictate forest growth and death, 
including site carrying capacity. And in our western forest landscapes 
where most of our public lands are located, that is only true if you 
ignore fire.

1. Forests are suffering from having too many trees for the site and 
extant climate conditions. Overstocking creates conditions that kill 
trees. That mortality combined with wildfire has changed the calculus 
for defining the optimal strategies for climate mitigation and 
adaptation in forests.

    What we are seeing in the western United States is an epidemic--of 
insects and disease and wildfires--brought on in large part by An 
Epidemic of Too Many Trees. That epidemic is summarized in a TED talk 
called the Era of Megafires and is described it in much greater detail 
in a hour long multimedia presentation that is available here. Wildfire 
data from the National Interagency Fire Center supports the idea that 
we are in an Era of Megafires. Their wildfire statistics show that the 
average acres burned since 2000 has doubled relative to the prior four 
decades, with 10 of the worst fire years on record occurring since 2000 
(excluding 2018 data which is not available yet).
    Every 10 years a U.S. forest inventory report (Resource Planning 
Assessment or RPA) is published that summarizes growth, harvest, and 
mortality by region, forest landowner, and forest type. Data are 
collected over a 10-year period, so the final numbers are more 
representative of an average for the 10-year period than a summary of 
the endpoint. These data show a fourfold increase in mortality on 
National Forests in the 40-year period from 1976-2016. Of total forest 
growth on National Forests about two-thirds is lost to wildfires, 
insects and disease (Figure 1). Wildfire is not the only mortality 
agent that is on the rise on Federal lands. Insects and diseases are 
prevalent and their threat is growing (Littell et al. 2010).

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]
    
Figure 1. Growth, Mortality, and Harvest on National Forest 
      Timberlands 1952-2016. Data provided by Oswalt et al. 2018.

    The current rate of mortality is unsustainable. This may well lead 
to a tipping point wherein additional uncontrolled damage can be 
expected. It is doubtful that any one scientist or group of scientists 
has any idea where that tipping point is and what reaching it might 
cause. With policies and management approaches that pull us back from 
that brink by reducing risk and building resilience we can ensure that 
these forests remain a part of our heritage and serve a vital role as 
carbon sinks into the future.

2. Management provides for improved firefighting capability and 
improved forest carbon outcomes in nearly every forest type across the 
11 western states.

    Fire scientists who have studied the fire ecology of these systems 
for decades have long advocated for management action to mitigate fire 
risk and bring the forest condition into alignment with the fire 
ecology of the west (Agee and Skinner 2005, Skinner et al. 2004). Fire 
impacts can be substantially reduced by thinning treatments that 
restore densities more like those observed before fire suppression was 
introduced. Multiple studies have shown that thinning reduces fire 
severity, sufficient for firefighters to gain control and maintain 
forest structure, tree seed source, and other values (e.g. Agee and 
Skinner 2005, Moghaddas 2006, Skinner et al. 2004). General principles 
of fire management based on long-term research have been integrated 
into tools that can assess the impacts of fire and management for any 
combination of site, stand and climate conditions. These tools were 
used to model nine different forest management treatments on over 
25,000 forest inventory plots in Arizona, California, Colorado, Idaho, 
Montana, New Mexico, Nevada, Oregon, Utah, Washington, and Wyoming. 
Results show that in most cases, managing forests created a more 
favorable forest carbon outcome (Figure 2b) than letting nature take 
its course (Figure 2a).

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

Figure 2a. Unmanaged forest with 100% mortality from wildfire.

   Figure 2b. Managed forest with jackpot burns to reduce fuel loads.

    Even better carbon outcomes are possible if harvested material is 
large enough to be used for solid wood products as the wood also stores 
carbon during its use phase (Oneil and Lippke 2010).
    Research identifies how to mitigate climate impacts at both the 
stand and landscape level. In dry forests it starts with greatly 
reducing the number of trees, keeping fire resistant species, and 
interrupting fuel ladders so that fires don't spread as easily 
(Moghaddas 2006). Across the West, this treatment method has been 
proven to keep forests alive when wildfires hit. It can be easily 
replicated across the landscape using a systematic approach that 
considers adjacent landowners, in order to create a patchwork of 
defensible space that is more akin to historical natural conditions on 
our forests.
    Under future climate conditions which predict longer, drier, 
hotter, summers (Littell et al. 2010, McKenzie et al. 2004) we can 
expect regeneration failure in burned forests, which will push these 
forests toward being a net carbon source. Mitigation measures include 
thinning the forests to prevent the loss of all trees and to reduce the 
fire impacts on soils somewhat so that successful regeneration is more 
likely. By thinning we also are building resilience into the existing 
trees, and ideally choosing the specimens and species that we think can 
survive and perpetuate on these landscapes.

3. Wildfire ignition is random, but the consequences of wildfires are 
driven by forest cover conditions, climate, and prevailing weather 
patterns. Forests that have too many trees, and which contain large 
amounts of dead trees, produce conditions for wildfires that are 
uncontrollable, with devastating consequences to the forest, the 
adjacent landowners (Figure 3) and communities, and the budgets of land 
management agencies.

    Coordination across landowners is required. So is infrastructure 
that can handle the harvested material. Shared stewardship approaches 
like we have in Washington State, including use of the Good Neighbor 
Authority and local Forest Collaboratives, should continue to be 
supported and encouraged as a fundamental mechanism to move forward 
with keeping our public lands, and adjacent forest lands, healthy, fire 
resilient, and green.

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]
  
Figure 3. Wildfire impacts on adjacent state and private forest 
                land from ignition on public forestland.

4. Like any other potential natural disaster, wildfire mitigation 
demands a response. Letting nature take its course is not supported by 
the science of forest carbon dynamics.

    Jerry Franklin (ecologist) and Jim Agee (fire scientist) from the 
University of Washington offer their perspective on the need for a 
rationale national forest policy that incorporates ecology, fire 
science, known benefits of treatment and social benefits. Their 
perspective is that ``Letting nature take its course in the current 
landscape is certain to result in losses of native biodiversity and 
ecosystem functions and other social benefits . . .'' (Franklin and 
Agee 2003).
    Other social benefits include smoke free summers. Emissions from 
wildfires are not inconsequential. In addition to the large amounts of 
carbon dioxide released, there are also releases of methane, nitrous 
oxides, and volatile organic carbons which are all potent greenhouse 
gases that have a greater atmospheric impact than the release of carbon 
dioxide alone (Wiedinmyer and Neff 2007). The net result is that 
emissions from wildfires can produce higher carbon dioxide equivalent 
values than the total equivalent carbon dioxide equivalent 
(CO<INF>2</INF>e) content of the biomass that is consumed (data 
analysis of factors in Wiedinmyer et al. 2006). This means that a 20 
percent reduction in forest carbon stocks from wildfire generates more 
than a 20 percent increase in CO<INF>2</INF>e in the atmosphere.
                                summary
    We have experienced two decades of unprecedented mortality in our 
western forests, and much of that mortality is concentrated on Federal 
lands. In some states, mortality on public forests has reached a point 
where they are now emitting carbon rather than sequestering it thus 
exacerbating our current greenhouse gas emissions profile. Forest 
health treatments that reduce tree density, create canopy 
discontinuities, and open patches will become both the climate 
mitigation and adaptation strategy on these forests. They will also 
more closely replicate historical forest conditions. Letting forests 
die and burn in anticipation that the past will replicate itself in a 
future with large uncertainties around climate conditions is a high-
risk approach.
                               references
Agee, J.K. and C.N. Skinner. 2005. Basic principles of forest fuel 
reduction treatments. Forest Ecology and Management. 211(1-2): 83-96.

Franklin, Jerry F. and James K. Agee. 2003. Forging a science-based 
national forest fire policy. Issues in Science and Technology 20(1): 
59-66.

Littell, Jeremy S., et al. 2010. Forest ecosystems, disturbance, and 
climatic change in Washington State, USA. Climatic Change 102(1-2): 
129-158.

McKenzie, D., et al. 2004. ``Climatic change, wildfire, and 
conservation.'' Conservation Biology 18(4): 890-902.

Moghaddas, J.J. 2006. A fuel treatment reduces potential fire severity 
and increases suppression efficiency in a Sierran mixed conifer forest. 
In: Andrews, P. L. and B. W. Butler (comps). Fuels Management--How to 
Measure Success, Proceedings RMRS-P-41, Fort Collins, Colorado: U.S. 
Department of Agriculture, Forest Service, Rocky Mountain Research 
Station. p. 441-449.

Oneil, Elaine E. and Bruce R. Lippke. 2010. Integrating products, 
emission offsets and wildfire into carbon assessments of Inland 
Northwest forest. Wood and Fiber Science 42(Special Issue): 144-164.

Skinner, C.N., et al. 2004. Effects of prescribed fire and thinning on 
wildfire severity: the Cone Fire, Blacks Mountain Experimental Forest, 
Proceedings 25th Vegetation Management Conference, Redding, California. 
12 pp.

Wiedinmyer, C. and J.C. Neff. 2007. Estimates of CO2 from fires in the 
United States: implications for carbon management. Carbon Balance and 
Management 2(10): doi:10.1186/1750-0680-2-10.

Wiedinmyer, C., et al. (2006). ``Estimating emissions from fires in 
North America for air quality modeling.'' Atmospheric Environment 
40(19): 3419-3432.

                                 ______
                                 

    Ms. Haaland. Thank you very much, Dr. Oneil. Thank you for 
the valuable testimony that you have given this morning.
    The Chair will now recognize Members for questions. Under 
Committee Rule 3(d), each Member will be recognized for 5 
minutes. And I would like to recognize myself first for 5 
minutes.
    My question to each of you--and if you could just each 
answer this one after the other, that would be great--thank you 
all again for being here and for your testimony.
    As I mentioned in my statement, I am excited for this 
Subcommittee to take the lead on these issues. To fill that 
role, we need to recognize that now is the time to act on 
climate change. We can't wait any longer. While some response 
efforts may be beyond this Committee's purview, the impacts of 
climate change affect the resources, lands, and communities we 
are here to protect. So, it is our responsibility to consider 
all options.
    My first question for each of you is, can we prevent the 
worst impacts of climate change by land management strategies 
alone?
    Dr. Gonzalez. Land management strategies and adaptation are 
important for improving ecosystem integrity. But our research 
shows that, compared to the worst emission scenario, cutting 
carbon pollution could reduce projected heating in the national 
parks by up to two-thirds. And clearly, that attacks the cause 
of climate change.
    Ms. Haaland. Thank you. Dr. Hansen?
    Dr. Hansen. I agree that one of the most important things 
we can do is adjust our land use. And in reality, almost 
everything in the United States is affected by land use. Our 
transportation habits are affected by land use. Our energy 
consumption habits, both transportation and our homes, are 
affected by land use. However, at the end of the day, the core 
component that we have to take care of is addressing the root 
cause of climate change. We need to stop emitting greenhouse 
gases into the atmosphere from the combustion of fossil fuels.
    Ms. Haaland. Thank you.
    Mr. Cole. I would say, from our perspective, we need to use 
all the techniques at our disposal. Land management is 
certainly one of them. We need to look at the types of land 
management. Protected public lands can help us make space for 
renewable energy and reduce our emphasis on fossil fuel 
extraction across the country, which can provide a massive 
impact on the amount of carbon in the atmosphere.
    But we also need to think about other ways of addressing 
the climate crisis, including regenerative organic agriculture 
and looking at our entire energy mix across the board. Thank 
you.
    Ms. Haaland. Thank you.
    Dr. Oneil. I think that land management alone cannot 
address or prevent the worst impacts. But if you look at the 
way within the wheelhouse of forests and forest management, 
part of the way we look at that and we think about it is if you 
are able to maintain that sort of average forest carbon in your 
landscape, and then use those products to substitute for other 
products that have a higher greenhouse gas footprint, like 
steel and concrete, then you do have an opportunity to have an 
additive effect, based on how you use any kind of material that 
would be removed if you were removing those trees.
    There are some complicated processes in there, but there is 
a possibility to actually leverage land management and land use 
activities where they are allowed--obviously, not in parks, but 
where they are allowed--to achieve additional benefits in terms 
of greenhouse gas mitigation.
    Ms. Haaland. Thank you, Dr. Oneil. I am glad we largely 
agree on that point.
    Now, Dr. Hansen, can you please explain why adaptation, 
particularly on public lands, can help us fight the impacts of 
climate change?
    Dr. Hansen. I would be happy to. Adaptation offers you the 
opportunity to try to maintain the function of whatever it is 
you are trying to do. In this case, it is the function of 
public lands, which are vitally important to all of our lives, 
whether we live in a city or we live in more rural parts of the 
country.
    Adaptation allows us to reflect directly on what are the 
implications that we anticipate happening from climate change, 
and how do we change management to respond to that. That will 
affect our ability to access water, for example.
    In the Sierra Nevada of California, the way that those 
forests are managed provides water for most of the largest 
places in the state. Water is, obviously, a big issue there. 
But if we continue to manage the water resource and the forest 
resource, as we always have, ignoring the facts that 
precipitation patterns are changing, ignoring the fact that 
human use rates are changing because of increasing 
temperatures, we will not have the rate of return that we 
expect on those resources. And public lands are probably one of 
the best insurance investments we have in maintaining all those 
ecosystem services for our country.
    Ms. Haaland. Thank you, Dr. Hansen. And now the Chair 
recognizes Ranking Member Young for 5 minutes of questions.
    Mr. Young. Thank you, Madam Chairman.
    Mr. Cole, Patagonia, what do they sell?
    Mr. Cole. We are an outdoor clothing and gear company.
    Mr. Young. OK. And where are most of those products made?
    Mr. Cole. We have a supply chain that is global in nature. 
We manufacture----
    Mr. Young. Where are they mostly made?
    Mr. Cole. Across about 20 different countries, from the 
United States to China and----
    Mr. Young. Most of them are made in China. I happened to go 
to your store. And the ironic part about it is most of your 
products are a result of fossil fuels. They are made by fossil 
fuels, the material is fossil fuels. They are made in China. 
The biggest polluter we have is China. And I often think it is 
hypocrisy to talk about we cannot use fossil fuels when the 
product they sell and advocate against is made by fossil 
fuels--in China, not with American labor. I just wanted to 
bring that up.
    Dr. Oneil, some environmental activists argue that fuel 
loads or too many trees are not a problem. However, in your 
testimony you argue the epidemic of insects and disease in our 
western forests have been brought down in a large measure by an 
epidemic of too many trees. How does that work, too many trees?
    Dr. Oneil. The work that myself and other scientists in 
that space--as opposed to activists, we work as scientists. We 
look at the numbers, and we look at the data.
    If you are wanting to mitigate fire impacts, you have to 
think about it within the framework of how does fire actually 
work, and it is real simple. It is what is called a fire 
triangle. You have fuels, oxygen, and heat. The only thing we 
can affect in the fire triangle is the fuels. The more fuel you 
have, and the drier it is--which that will be exacerbated with 
warmer weather, drier weather, longer seasons--the more fuel 
you have, the more chance that when you get that lightning 
strike, when you get that ignition source, that you are going 
to end up with a catastrophic event.
    Fire ecologists have been talking about this for 40 years, 
that this is a problem. And it is continuing to be a problem. 
And now we are seeing that it is a problem.
    Mr. Young. You bring up a very valid point. For those 
members on the Committee from California, when I was 5 years 
old we were pasturing sheep in Paradise. My father and I had 
5,000 ewes. And we didn't have any fires of any consequence 
because there was no over-burden, no volatility that was left 
on the ground.
    And what I see now, when there is a fire, there is so much 
heat that it destroys the tree and actually destroys a lot of 
the ground, which probably would add later on with more trash 
timber than real timber. And I just--I watch that fire.
    By the way, how many acres did you burn? Anybody know? 
Anybody ever put a pencil to it?
    [No response.]
    Mr. Young. I want to get the science, how much pollution 
was put in the air by that fire. A lot.
    I think if they had managed it to begin with, you wouldn't 
have that fire. There is the big argument. Are we going to let 
the trees still be natural, or are we going to manage the 
timber? We have to manage the timber. But you even mention 
cutting the tree and, ``Oh, we can't do that,'' including those 
people who sell goods made in China. You can't do it.
    But in reality, if we don't do it, we will never address 
this issue. That is called adapting. That is all I ask, is 
think about adapt. Just don't automatically say no.
    I yield back the balance of my time.
    Ms. Haaland. Thank you, Mr. Young. The Chair now recognizes 
Mr. Grijalva.
    Mr. Grijalva. Thank you, Madam Chair. And to you and to the 
members of this Committee, thank you very much for the hearing.
    I want to associate myself with some of your comments at 
the outset, Madam Chair, and that was climate change isn't just 
in our jurisdiction. I think it falls under the shared 
responsibility for all Members, all decision makers. And I 
think this Subcommittee and the Committee as a whole plays a 
big role, a very expansive role, in addressing climate change. 
And within that jurisdiction, a very large nexus to be able to 
address those issues. So, I appreciate you mentioning that, 
because I think it is important to keep that in mind.
    Dr. Hansen, let me ask you, both your and Dr. Gonzalez's 
work suggest that we need to protect more places from the 
dangers of climate change. An example that you could respond 
to, Dr. Hansen, is the Sky Islands along the southern border 
region in Arizona as a place for further protection. Can you 
speak about that, specifically, in terms of those Sky Islands 
being potential adaptation tools on the issue of climate 
change?
    Dr. Hansen. One of the effects of climate change that was 
alluded to in testimony today is about the movement of 
ecosystems and species in response to climate change. In order 
for that movement to happen, there has to be a place for that 
to happen.
    The Sky Islands Region offers a unique suite of opportunity 
because, not only does it involve space that moves up in 
latitude to some degree, but it also creates elevational 
refugia, places that stay a little bit cooler, perhaps, as the 
overall landscape is changing, and places for things to move.
    Thinking about how we use the space we have to allow 
natural systems to respond to the extent they can by themselves 
in conditions like that is a vital component of adaptation. We 
do not have the money to hand-manage all of the systems. We do 
not have the ability to move species manually. We need to come 
up with how do we create an intact landscape across which 
things can move on their own.
    Mr. Grijalva. Thank you very much.
    Mr. Cole, based partly on Dr. Hansen's response and the 
testimony today, we talk about these efforts at adaptation. The 
Land and Water Conservation Fund, of which your organization 
and your business have been large supporters of, what role do 
you believe that plays in the discussion?
    Mr. Cole. I think the Land and Water Conservation Fund is 
one of our most important conservation measures in the United 
States. It has impacts in every single state, almost every 
single county across the country. And it takes a small amount 
of money from revenues from offshore drilling and leasing, and 
puts that into conservation. And I think that, whether you are 
living in a community that has city parks, or whether you are 
living in a community that is close to wilderness area, you 
could be helped by the Land and Water Conservation Fund.
    And with climate change, we need more of those protected 
spaces to allow for resilience, to allow for protection of 
biodiversity, to allow for carbon storage, all those things. 
The Land and Water Conservation Fund can contribute to all 
those benefits in the face of climate change.
    Mr. Grijalva. And last, Dr. Hansen, you served on the 
Advisory Committee on Climate Change and Natural Resources 
Science under the previous administration. Let's take a 
snapshot of where we are right now, in the last 2 years, under 
this Administration.
    Dr. Hansen. Unfortunately, that committee no longer exists.
    Mr. Grijalva. Any action on the findings?
    Dr. Hansen. No. In fact, most of the suggestions that were 
made by that committee, the structures that were part of that 
set of ideas, that set of principles no longer exists, or are 
quite vestigial with no funding.
    Mr. Grijalva. If you could respond, there was a beginning 
effort of utilizing public lands as an adaptation vehicle going 
forward. And that has stopped, as well. The issue now becomes, 
are we contributing to the overall negative effect of climate 
change as public lands, or retreating from any commitment to 
adaptation. Are we part of the problem now, as opposed to being 
part of the solution?
    Dr. Hansen. Yes. I mean, unfortunately, the dominant 
contribution of greenhouse gases to the atmosphere from public 
lands is our use of them for the extraction of fossil fuels. 
And increasing that increases the problem not only for all of 
us, but for public lands themselves. We need to be stopping 
climate change to save our public lands, not using our public 
lands to stop climate change, as a friend of mine would be 
paraphrased to say.
    Mr. Grijalva. Thank you very much.
    Madam Chair, I yield back. Thank you.
    Ms. Haaland. Thank you, Mr. Grijalva. The Chair now 
recognizes Mr. Westerman.
    Mr. Westerman. Thank you, Madam Chair. Thank you to the 
witnesses for being here today. I have read all of your 
testimonies last night, plus listened to your testimonies 
today.
    Dr. Gonzalez, I would like to commend you on the written 
testimony and the research behind the data that you presented. 
And Dr. Oneil, as well, I appreciate you bringing to the 
forefront things that need to be talked about, as far as the 
benefits of healthy forests to helping our environment.
    Dr. Gonzalez, part of your testimony, you said prescribed 
burning is an adaptation measure that reduces future risk of 
catastrophic wildfire and tree death by removing an unnatural 
buildup of fuel and small trees, where old policies suppressed 
natural wildfire. I agree with that.
    Can you elaborate on that a little bit more about carrying 
capacity of land and how many trees per acre? Is it just small 
trees, or are there places where larger trees need to be 
removed and then do the controlled burning?
    Dr. Gonzalez. Well, the published scientific research shows 
that two major factors have caused the catastrophic wildfires 
that we are seeing. It is the old policies that have led to 
this unnatural accumulation of small trees and, of course, 
woody debris. And then human-caused climate change has ignited 
that and doubled the wildfire since 1984.
    Mr. Westerman. All right, I agree----
    Dr. Gonzalez. It is mainly the small trees and the coarse, 
woody debris.
    Mr. Westerman. Right. And I agree the suppression tactics 
over the decades have increased fire potential.
    Dr. Oneil, would you like to talk about the carrying 
capacity, stems per acre, or biomass per acre, and how that 
contributes to more fires?
    Dr. Oneil. Thank you. What we are dealing with in the 
western United States in particular, we have done some research 
looking at carrying capacity under these various alternative 
scenarios of a warmer and drier region.
    In 2010, we published this over-arching document that 
looked at this carrying capacity issue, and realized that, 
going forward, we might end up losing two, three, or more 
species in particular areas because of increasing aridity.
    What that really means is that there isn't enough water 
there to sustain forests. As most people who live in the West 
know, you have forests in places where you have a little bit 
more moisture, and as soon as you leave those places and go 
into more arid regions, it turns into grassland. So, we are 
seeing that----
    Mr. Westerman. I am going to have to move on, but I 
appreciate you highlighting that part about the water. And I 
know there were questions about the role of land management and 
the role of adaptation management, which gets into water and 
how important our healthy forests are for providing good water.
    But there is one thing that I think is confusing out there, 
and that is how managed forests helped to sequester more carbon 
over the long run. I have a slide I would like to put up.
    [Slide.]
    Mr. Westerman. It is very hard to see, especially at that 
scale. But basically, the top chart shows an unmanaged forest 
over 160 years. The bottom chart shows a managed forest. And 
those curved lines are the amount of carbon stored over that 
time frame. That is a logarithmic scale, so that is actually 10 
times more carbon on the bottom than on the top.
    And when you use these wood products, you are storing the 
wood in buildings. If you look at not managing the forest, the 
top chart, and the one in the middle is where you do harvest 
every 70 years, the one on the top does store more carbon. But 
the one on the bottom, because you are storing the carbon in 
buildings--plus, the amount of energy that it takes to produce 
wood versus other building materials, which that was alluded 
to.
    And if you will, put the next slide up there.
    [Slide.]
    Mr. Westerman. This is another very-hard-to-see chart. But 
the black line there in the middle, the large black line, that 
is the amount of cement--on the first column--that China used 
in 2017. The very top one is how much the United States used.
    So, China used 2.4 billion tons of cement in 2017. That is 
three times more than the United States used in the previous 10 
years combined. And then we look at using wood in a building 
as--it takes 1.9 times more energy, more fossil fuels to 
produce concrete than it does to produce wood. So, you get this 
huge cumulative effect, globally, when you substitute wood for 
other materials.
    I wish we had more time to talk about this. I am out.
    Ms. Haaland. Thank you, Mr. Westerman.
    The Chair now recognizes Ms. DeGette.
    Ms. DeGette. Thank you very much, Madam Chair, and 
congratulations on your new position. I want to congratulate 
the Chair on having her very first hearing as a hearing on 
climate change, which is so important for our public lands and 
for our country.
    I also sit on the Energy and Commerce Committee, and we had 
a hearing last week on climate change. I asked the panel a 
question that I am going to also ask this panel here today, 
vis-a-vis public lands. And it will require only a yes or no 
answer, so we will start with you, Dr. Gonzalez.
    And the question is, is climate change real, largely due to 
human activity, a source of profound risk to the health, 
safety, and welfare of our country, including to our public 
lands, and something we urgently need to address? Yes or no?
    Dr. Gonzalez. Yes.
    Ms. DeGette. Dr. Hansen?
    Dr. Hansen. Yes.
    Ms. DeGette. Mr. Cole?
    Mr. Cole. Yes.
    Ms. DeGette. Dr. Oneil?
    Dr. Oneil. Yes.
    Ms. DeGette. Thank you very much. And as I said last week 
in Energy and Commerce, the very fact that we have a bipartisan 
panel here who all agree with the basic foundation of what we 
need to address is actually a big step forward for Congress. 
And it gives me great hope that we can work in a bipartisan way 
on really addressing these issues.
    As a westerner, I see the impacts on our public lands for 
myself. And I just have a few follow-up questions.
    Dr. Gonzalez, you testified that temperatures have 
increased in national parks more than other places. Could you 
briefly tell us why that is?
    Dr. Gonzalez. National parks are located in our most 
extreme environments: in the Arctic, in high elevation 
mountains, and in the arid Southwest. And those are the areas 
that climate change is exposing more. And that is where we have 
placed----
    Ms. DeGette. They are the most vulnerable areas. Would that 
be----
    Dr. Gonzalez. Yes, they are the most exposed. And America's 
most special places, the national parks, happen to be located 
in those extreme environments.
    Ms. DeGette. Dr. Oneil, I wanted to talk with you about 
some issues, because I think we agree on a lot, which is when 
you would have a forest, normally that would help offset carbon 
emissions. But as you accurately point out in your testimony, 
when you have massive forest fires, that increases carbon 
emissions. Would that be a fair assessment of your testimony?
    Dr. Oneil. That is a fair assessment.
    Ms. DeGette. Thank you.
    Dr. Oneil. The difficulty is that the global carbon budgets 
don't actually count emissions from public lands as something 
that is human caused, so they get excluded.
    Ms. DeGette. We should probably fix that.
    But one of the things that you testified about is the 
increased vulnerability of our forests from issues of aridity 
and also things like insects, which we have seen in Colorado 
and throughout the rest of the Rocky Mountain West very 
dramatically the last few years.
    Scientists say that the reason why we have had the 
devastating pine beetle kill, for example, in our western 
forests is in large part because of climate change, because it 
doesn't get cold enough in the winters any more to kill the 
insects. Would you agree with that statement about pine 
beetles?
    Dr. Oneil. No.
    Ms. DeGette. You don't?
    Dr. Oneil. No, because that is the focus of my Ph.D. And, 
in fact, in Colorado and the southern states, it is not colder 
winters, it is hotter summers that is causing----
    Ms. DeGette. But in any event, the hotter summers are due 
to climate impacts, correct?
    Dr. Oneil. When you see these changes----
    Ms. DeGette. You know what? I only have a minute left. Can 
you answer that yes or no?
    Dr. Oneil. There is that pattern that is in that system----
    Ms. DeGette. Right. So, I will say if we address the 
climate issues as Dr. Hansen was talking about, if we can keep 
climate change down below 2 degrees, that will help with the 
initial causes of the devastating forest fires that we have, as 
well as other issues. And that is what I think we need to look 
at.
    And one last thing I will say. I was just telling 
Congressman Huffman forest management is really important in a 
lot of these areas. And to my view, one of the reasons why we 
have had such devastating fires is previous forest management 
plans where we didn't let naturally occurring fires burn. But 
now we have millions of acres in the West, millions of acres of 
public lands. The idea that we would harvest wood from these 
areas in order to have better forest management is just simply 
not tenable. We have to work on a lot of other issues, and we 
have to be practicable.
    Thank you, Madam Chair.
    Ms. Haaland. Thank you, Ms. DeGette. The Chair now 
recognizes Mr. Hice.
    Dr. Hice. Thank you, Madam Chair.
    Today, we are engaging in--from my count, at least--this 
Committee's fifth hearing on anthropogenic climate change and 
the horrible consequences that will occur unless, of course--
and this is my concern--unless we take action which includes 
massively expanding government, ultimately destroying 
federalism, and restricting individual liberties.
    And I go back and look at the first five hearings of the 
115th Congress that this Committee had, and it included 
modernizing water and power infrastructure, improving 
infrastructure for tribal and insular communities, examining 
management of marine sanctuaries, improving infrastructure for 
National Park Service and Forest Service, and how best to use 
our natural raw materials for national security.
    But today, again, if my count is correct, we have the fifth 
hearing--this time in the National Parks, Forests, and Public 
Lands Subcommittee, in what amounts to me as a publicity stage 
for the Green New Deal, which is championed by many of my 
colleagues across the aisle. And this resolution--which, of 
course, was named, at least recalls the name from FDR's New 
Deal, which, arguably, intended to put Americans back to work--
this resolution does just the opposite.
    In fact, one really has to wonder, in looking at the 
details of this, whether or not there will actually be new 
regulations that would be created regarding the manner in which 
we breathe because of the carbon dioxide that we ourselves 
produce.
    This deal calls for a massive mobilization of resources, 
resources that could be more appropriately used to pay down 
$11.6 billion in Park Service maintenance backlog, which, of 
course, Chairman Grijalva and Republican Leader Bishop in a 
bipartisan manner put forth last Congress in the Restore Our 
Parks Act.
    And I can't recall the number of times that I have heard 
from my colleagues across the aisle talking and complaining 
about how offshore oil rigs so far off they can't even be seen, 
and yet they ruin our environment. But this Democratic plan 
would now call for hundreds of thousands of square miles of 
wind turbines and solar panels. More precisely, a 2015 study by 
Stanford engineers noted that to meet the Nation's power needs 
entirely with clean energy would require almost 500,000 on- and 
off-shore wind turbines and over 75 million solar panels, and 
would cost roughly $7 trillion.
    All of this new infrastructure would somehow, amazingly, 
not run into any problems with the Endangered Species Act or 
Clean Waters Act, and environmental impact studies would 
apparently just sail right through the approval process, 
although in this Committee we have had countless witnesses 
testify that oftentimes we are looking at a 7- to 10-year 
average of getting some of these permits.
    This is potentially, I would say, the Green New Deal's only 
winning strategy, which I would assume supporters on the other 
side would aggressively help to overhaul, some of the 
ridiculous burdensome hoops that must be jumped through. And I 
would certainly welcome that conversation.
    But overall, I am extremely disappointed with the direction 
of this Committee and the Subcommittees in these first few 
weeks of business. It seems to have taken the very important 
issue we have of managing the American people's natural 
resources and disguise the Committee as one focused on climate 
alarmism.
    No doubt clean air, clean water, and healthy environment 
are important issues, one that I certainly want to help pass on 
to my children and my grandchildren. But so is the business of 
managing our Federal lands and parks, and making sure that we 
are focused on the issues like the national parks' maintenance 
backlog and a host of other issues. This is an immediate 
concern to the function of these parks, so that they continue 
to be enjoyed.
    My hope is that in the near future we will come back to 
this Committee's agenda to match more closely the mission and 
our jurisdiction, and that we would get away from these 
continued rainbow and unicorn promises of the fairyland Green 
New Deal.
    With that, Madam Chairman, I yield back.
    Ms. Haaland. Thank you so much, Mr. Hice. The Chair now 
recognizes Mr. Neguse.
    Mr. Neguse. Thank you, Madam Chair. And also, 
congratulations to you on your election. And I appreciate the 
opportunity to participate in this hearing, and the fact that 
this first hearing of the Subcommittee is on such an important 
issue, and as existential an issue as climate change.
    I would just say, with respect to my colleague on the other 
side of the aisle, I respectfully disagree in the framing of 
this hearing as a publicity stage or publicity stunt, something 
to that effect. I think this hearing is an opportunity for 
members of this Committee to hear from some world-renowned 
experts and scientists in their respective fields, both 
witnesses from the Majority and the Minority. And I have 
appreciated, actually, the give and take and some of the 
thoughtful questions with respect to forest management, and so 
forth.
    So, I think that this could hardly be described as a 
publicity stage, that this is, in fact, an important 
Subcommittee hearing on the defining issue of our time, which 
is the planetary crisis that we find ourselves in.
    Dr. Hansen, I found your testimony very compelling with 
respect to your comment to testifying in 2004. As I mentioned 
at the last Full Committee meeting, my wife and I are new 
parents. I have a 6-month-old. Or she is 5 months, 2 weeks old, 
Natalie, our daughter. And I think a lot about the work that we 
do here in the context of the world that she will inherit.
    When some of the most catastrophic consequences of climate 
change are set to occur at the IPCC report and, of course, we 
have several members of the IPCC here with us today, my 
daughter will be 12 years old, 13 years old. So, it really 
brings into clarity just how important the work is that this 
Committee is undertaking. I appreciate the Chairwoman holding 
the hearing, and the Members participating, and, of course, the 
witnesses, for joining us today.
    I want to ask a question of Dr. Gonzalez. And you 
referenced Rocky Mountain National Park. I happen to represent 
the great state of Colorado, Northern Colorado, Boulder, Fort 
Collins, and Rocky Mountain National Park. I have spent my life 
as a child and a young adult and, of course, now, as a father, 
going to the park and enjoying the park as so many countless 
Americans do. You talked a lot about the consequences, just in 
terms of how our national parks are faring as a result of 
climate change, including Rocky Mountain National Park. I guess 
I am wondering if you can put a finer point on what we are to 
expect in the coming years if we don't take decisive action.
    I agree with Dr. Hansen, that inaction is just simply not 
an option, but I am curious if you could provide sort of some 
additional details about just how dire the consequences will be 
for our national parks.
    Dr. Gonzalez. Yes. Rocky Mountain actually has experienced, 
historically, some of the more severe impacts of climate 
change: the increased wildfire; the bark beetle kill, which, 
across the western United States has been the most severe in 
125 years; and the reduction of snow cover. If we don't reduce 
carbon emissions from human activities, wildfire could 
substantially increase--published research estimates in 
Yellowstone an increase of 300 to 1,000 percent. And with the 
increased aridity and the increase in bark beetles, more 
massive tree death, tree mortality across the western United 
States.
    In addition, the wildlife right now in Yosemite National 
Park, historically, wildlife have been shifting up-slope, 
following the cooler temperatures. That shifting might go off 
the top of mountains.
    And in Lassen Volcanic National Park, the American pika, 
small mammal, might completely lose its habitat and locally 
disappear.
    Mr. Neguse. Thank you, Dr. Gonzalez. My next question is 
for Mr. Cole.
    I want to thank you for your testimony, and certainly for 
your leadership. I want to give you an opportunity to respond, 
to the extent that you would like to, to the Ranking Member of 
this Subcommittee's comments with respect to your company and 
manufacturing and so forth. My understanding is Patagonia was a 
founding member of the Sustainable Apparel Coalition, and does 
quite a bit in that regard. So, I just want to make sure you 
have an opportunity to respond to the extent you would like to.
    Mr. Cole. Thank you. I appreciate that. In regards to our 
company's activities and our approach to this problem, we have 
a goal of being carbon neutral by 2025. This is in alignment 
with 40 years of our work around sustainability, as you note. 
And we are working hard across our entire supply chain to make 
that happen.
    We do make products around the world, in about 20 different 
countries. We also are proud to make products in the United 
States, and we support about 1,500 to 2,000 jobs in the United 
States, depending on the season. We are proud of those 
employees and that contribution to our economy here.
    We are also a part of an $887 billion industry, the outdoor 
recreation economy, that is present in the United States and 
supports about 7.6 million U.S. jobs, direct jobs, that derive 
directly from the protection of our public lands and from 
having a climate that supports the kind of lifestyle and 
economy that we are used to.
    So, I would say, internationally, that having a global 
supply chain is an advantage for us, in understanding this 
global problem. And we are working with our suppliers in China, 
frankly, and other places around the world to also address 
these key issues. Climate is not just a problem for our 
country, but it is a global problem, as well. Thank you.
    Ms. Haaland. Thank you, Mr. Cole.
    Thank you, Mr. Neguse.
    Mr. Neguse. Thank you, I yield back.
    Ms. Haaland. The Chair now recognizes Mr. Curtis.
    Mr. Curtis. Thank you, Madam Chairman. I, with my 
colleagues, would like to express my appreciation for the 
opportunity to talk about this important topic. If any of you 
have been to Utah, you will understand why I believe Utahans 
have it in their DNA to be good stewards of this earth. It 
comes quite naturally.
    As a Boy Scout, I was taught to leave my campground cleaner 
than I found it. And I actually believe that both Republicans 
and Democrats believe that to be true. I regret the stereotypes 
that are often formed around this issue. Somehow all 
Republicans hate the environment and all Democrats are 
alarmist. And I don't believe either of those stereotypes are 
true. I hope we can find common ground as we talk.
    You have heard from a lot of my colleagues today how 
important the forests are. I would like to add to that. Clean 
air and natural disaster resiliency, I think it is a mistake 
not to be talking about resiliency to these natural disasters.
    There has been, interestingly, something that, in my 
opinion, has been totally missed in our dialogue today, and is 
almost always missed in this dialogue in Washington, DC, and 
that is the impact of local and state governments and elected 
officials. I believe, personally, having been a former mayor, 
that if you want to reduce it by 2 degrees, mayors know how to 
solve this. And I think it is a mistake when we feel like there 
is somehow one magic fix at the Federal level that we can 
mandate in a one-size-fits-all to solve this problem.
    And I want to give you a quick example. In Utah, in Salt 
Lake City in Utah County, we have a unique problem, that we are 
surrounded by mountains on all sides. And particularly in the 
winter months, we get what is called an inversion, where a 
high-pressure system comes in and traps there in those valleys. 
And, therefore, if you ask Utahans what the largest 
environmental crisis is, they will say clean air. And they will 
say it about 15 times a year. Otherwise, we enjoy beautiful 
mountain, clean air.
    In response to this, our governor, in his last State of the 
Union just several weeks ago, increased the money in his budget 
not 2 times, not 3 times, but 117 times for clean air, 
introducing initiatives with transit. And we have a big issue 
with wood-burning stoves, and that was a big part of it, 
electrical vehicles charging stations, things like that were 
part of his plan.
    I mentioned that I was mayor before I came here, and our 
city recognized the need to take responsibility, and we 
produced something called the Provo Clean Air Toolkit. The name 
of the city is Provo. I would also invite all of you to Provo. 
And I would hope that you would all search on the Internet for 
the Provo Clean Air Toolkit. In it, I think you will see a 
masterful plan for cities about what individuals can do, what 
municipal government can do, what colleges can do, what 
businesses can do to improve air quality.
    We also introduced transit. We worked on walking and 
biking. As the mayor, I committed to ride my bike to work 100 
times in a given year to try to inspire my residents to do the 
same.
    We introduced renewables, we are a municipal power city. We 
were 70 percent coal when I took over. We introduced renewables 
and gave our residents a chance to buy as much as 100 percent 
of their energy from renewables.
    And one fun thing that we did is, we also recognized no 
matter what we did as a government, unless the hearts and minds 
of our residents were in tune with this need, that we could 
accomplish nothing. So, we came up with what we called the 
Provo Clean Air Challenge pledge, and we had several points 
that we challenged our residents to do. We asked them to 
carpool as much as possible.
    We have a unique situation in Utah, where you can find a 
church house on almost every corner. And most of us live within 
walking distance of that church. Embarrassingly, the Curtis 
family sometimes will take three cars to that church three or 
four blocks away. And we are not the only ones, so challenging 
my residents to carpool when it was appropriate.
    Park and ride, instead of going into a drive-up restaurant 
was on the list, not letting your vehicle idle for more than 30 
seconds, and ride or bike or carpool and use public transit 
wherever possible.
    So, today I invite all of my colleagues to take this 
challenge. And I have for you a pin that we wear on our lapel 
in Provo, if any of you feel so inclined to take that personal 
responsibility.
    Thank you, Madam Chairman. The very first one I have given 
out in Washington, DC.
    But before my time expires, I would just like to really 
emphasize how important it is that, first of all, as a Member 
of Congress, we personally are doing what we can do before we 
ask other people to do it. Are we changing our light bulbs? Are 
we not using plastic bags, and all of those things?
    And the second thing is to remember the power of local 
government in solving this problem, and make sure that we are 
empowering them and not ignoring them.
    Thank you very much. I yield my time. Thank you.
    Ms. Haaland. Yes, thank you, Mr. Curtis. I walk to work 
every day. Just letting you know that. And I haven't used a 
plastic disposable water bottle since I have been here on 
Capitol Hill. So, thank you so much.
    The Chair now recognizes Mr. Case.
    Mr. Case. Thank you, Chair.
    Dr. Oneil and Dr. Gonzalez, I have two questions, one for 
each of you, both sides of the same coin. I will give them to 
you both up front.
    Dr. Oneil, I will start with kind of a very abbreviated 
story from my own home state of Hawaii, where the indigenous 
peoples of Hawaii, the native Hawaiians, lived for generations 
and generations in isolation, no contact, a very ecologically 
and environmentally balanced and sustainable society.
    And then what happened was the first western ships brought 
with them rats, and the rats wreaked havoc on the local 
wildlife, and also on human beings. Therefore, we imported the 
mongoose from India to take care of the rats. Well, the 
mongoose started killing off the foul population, and they went 
from hero to enemy. So, we brought in something else to take 
care of the mongoose, et cetera, et cetera. You can see that 
sometimes the best intentions of humans are not as good as what 
nature wrote to start with.
    And I say that by way of asking you this question. When I 
hear your testimony, what I hear you saying is that, hey, we 
have a climate change problem, we have incredible risk to our 
public lands, to include our forests. And, obviously, that is 
creating a number of problems, whether it be wildfires or 
whether it be the lack of a natural solution to climate change 
and CO<INF>2</INF> emissions. But the way to do that is to 
harvest the forest. And I just pause on that when I think about 
it, from a science perspective, because you are asking me to 
really say that my solution to the problem I had in Hawaii was 
to introduce another human solution, when the problem was the 
rat coming in to start with. The problem was climate change to 
start with.
    So, I just ask you to comment on--are you saying that the 
out, in terms of the impact of climate change on our public 
lands, is to enhance harvesting, or is there a human solution? 
I am just having--I am not a scientist, I am not a climate 
scientist, but I am a skeptic of that position. As opposed to 
just going back to a more natural cycle.
    I am sorry. And, Dr. Gonzalez, the flip side is, is there a 
way to manage our forests that helps climate change?
    Dr. Oneil. I think that the challenge is do nothing or log 
it to the beach. And that is not actually an alternative that 
you would look at, in terms of the national forests, which is 
where I have done a lot of this analysis and work. Those are 
areas that are available, they are considered timberlands. And 
there are a lot of different alternatives of the way that you 
would treat those forests to get to a condition that was more 
fire resilient.
    Like the example that you just explained--I was just in 
Hawaii at Christmas, so I got the story of the errors of the 
mongoose way--but the idea that if we just leave it to nature 
everything would be wonderful would suggest that we haven't 
spent 40 or 50 years doing fire suppression and, therefore, 
that historic fire return interval would be such that we would 
get back to a natural condition. And because we are so far out 
of synch, that is not actually possible.
    Mr. Case. So, are you saying that we are out of synch 
because of human-caused management, and we have to get back 
into synch by human ways, as opposed to----
    Dr. Oneil. It is a combination of all of those things. It 
is a combination of the management decisions that were made in 
the last 100 years, including stopping all fires by 10 a.m.
    Mr. Case. OK.
    Dr. Oneil. And the recognition of that probably--like I 
said, for the past 30 or 40 years, fire ecologists are saying 
we are going to have a problem, we are going to have a problem. 
And now we have a problem.
    Mr. Case. OK, I get it. I appreciate your answer. That was 
an honest answer.
    Dr. Gonzalez, what do you think? Can we handle climate 
change in some forest management way to include continued 
harvesting? What does that do?
    Dr. Gonzalez. Well, published scientific research by my 
colleagues at the University of California-Berkeley in Yosemite 
National Park and elsewhere shows that prescribed burning and 
the use of wildland fire can effectively restore ecosystem 
function to our forests, and that it reduces risks of high-
severity fire in the future, improves their resilience to 
drought, and improves soil moisture.
    Also, fire is more efficient, cost effective, and 
environmentally sound than timber harvesting or thinning.
    I would underline also that prescribed burning also results 
in long-term accumulation of carbon, which naturally reduces 
climate change. And the way it does that is you remove the 
small trees and the large trees get larger. And over the long 
term, the research shows that the large trees will store more 
carbon than you release in the short-term burn.
    Mr. Case. OK, I am out of time.
    So, you are saying, just briefly, yes, there are 
appropriate forest management techniques that actually help 
climate change?
    Dr. Gonzalez. Yes, prescribed burn and wildland fire.
    Mr. Case. OK, thank you.
    Ms. Haaland. Thank you, Mr. Case. The Chair recognizes Mr. 
Bishop.
    Mr. Bishop. Thank you.
    Dr. Oneil, I appreciate you not speaking in glittering 
generalities. But I have 1 minute to ask this question and have 
it answered.
    Traditionally, forests are thought of as carbon sinks to 
suck up carbon. Instead, they are now emitting it. Are there, 
in your opinion, some creative ways of forest resiliency that 
we could use for these extreme events that we have had? Forty-
one seconds, go for it.
    Dr. Oneil. There are a number of examples that are 
occurring here. There is an example in Arizona, where they are 
looking at forest restoration. They removed the trees, they 
have to find a market for them. Unfortunately, there are no 
markets to be found.
    And part of their requirement is actually to do the fire 
risk reduction and get rid of all the biomass before they can 
move on to the next area. And I think this is important. When 
you harvest, you also have to treat those residues, usually 
through some kind of a fire effort.
    Now, the challenge is----
    Mr. Bishop. I am sorry. Let me go on with this. So, you are 
talking about there are practices, but they also have to have 
some private-sector economy to make them functional at the same 
time?
    Dr. Oneil. Absolutely.
    Mr. Bishop. All right. Mr. Cole, I appreciate the fact that 
you are here when none of your company actually was going to 
attend last year. So, thank you for accepting a Democrat 
invitation. I think it clearly illustrates how crony capitalism 
is working very well in the last administration, and may do it 
again in the future.
    I have been reading in Matthew about how Christ and John 
talked about the hypocrites, except the word ``hypocrite'' 
comes from a Greek word, which actually is better translated as 
a play actor. There are roles people are playing. And I think 
we have roles that people are playing here.
    Now, the slur against Patagonia is, is Patagonia made in 
China? Because that is what all the labels say. I want everyone 
to know that is not true. I cleaned out my closet and found a 
vest that was purchased from Patagonia, so I looked at the 
label. And it was not made in China, it was made in Sri Lanka.
    So, the $900 billion industry you are talking about--which 
is a slight exaggeration--is basically there to improve the 
bottom line, not necessarily improve the planet.
    So, for example, the stuff that is made in China by your 
company, your company clearly put out the statement that, ``We 
made the choice not to disengage with countries on the basis of 
their policies.'' I wish you would do that in the United 
States, as well.
    But amongst those policies which the company now wishes to 
ignore is the internment, re-education of over a million Uighur 
Muslims; routine jailing of environmental activists and civil 
rights campaigners; destroying over 3,000 acres of coral reefs 
in the South China Sea with ports and military facilities; 
subsidizing long-range commercial fishing fleets that threaten 
the viability of fishing around the world; providing $36 
billion in financing to developing countries for the 
construction of over 102 gigawatts of coal-fired power plants.
    In addition, just the Patagonia businesses in China, 65 
percent of all those businesses are run on coal. If you had 
actually done your work in America, the average in the United 
States is only 37 percent, which would be a lot nicer.
    Now, in addition to that, the testimony you have given here 
has a whole bunch of false narratives in there. If I read the 
paragraph you said simply about Bears Ears and Grand Staircase, 
but specifically Bears Ears, ``The Administration's actions not 
only robbed Native Americans,'' which is false, ``and all 
Americans of their natural and cultural heritage,'' false, 
``threatened communities that depend on outdoor industries for 
economic survival,'' false, ``poison our air and water,'' 
false, ``wreaked untold damage on vulnerable species,'' false, 
``exacerbate climate change,'' false, ``and open up public 
lands to more extraction.''
    Mr. Curtis, if I can yield to you for a second, you had a 
bill to actually legalize the Bears Ears situation and create 
it the proper way. Did you open up extraction in the area that 
was no longer part of the Bears Ears Monument that was done, 
unfortunately, by President Obama in Hawaii?
    Mr. Curtis. I regret that, because of the anger in that 
area, nobody realized that my bill did more to protect the land 
than President Obama's designation. There was a mineral 
withdrawal throughout the entire area that President Obama had 
designated.
    Mr. Bishop. All right. Well, get this in 40 seconds, 50 
seconds or less: Did you ban extraction?
    Mr. Curtis. Yes.
    Mr. Bishop. Why?
    Mr. Curtis. It is the right thing to do.
    Mr. Bishop. And was there any potential of extraction in 
that entire area?
    Mr. Curtis. No.
    Mr. Bishop. So, that is why we were able to do it. 
Actually, the association Patagonia leads was organized to 
avoid paying taxes so that you can get the taxpayer to fund all 
these programs to exist with your bottom line.
    I am pleased that on the tax break that you got, you got 
$10 million and you decided to put that into politics. Had you 
done that into something actually enhancing the backlog problem 
we have in maintenance, that could have been real, and that 
could have been something specific, and that could have been 
happily there.
    Madam Chairman, I have 15 seconds. I want to congratulate 
you. You are the only member on your side that has not gone 
over the 5-minute limit. In fact, so far, everyone totals 2 
minutes and 44 seconds. We should get another speaker on our 
side, just to do that. But I appreciate the fact there is a 5-
minute limit. I am quitting.
    Ms. Haaland. You are amazing. Thank you very much, Mr. 
Bishop.
    The Chair now recognizes Mr. Horsford.
    Mr. Bishop. For 5 minutes.
    Mr. Horsford. Thank you, Madam Chair. And it gives me great 
honor to say that, and I am very pleased to be on this 
Committee.
    Not to belabor the comments that were just made, I would 
like to divert back to the interest from my home state of 
Nevada, which depends heavily on public lands, and has a long-
standing partnership with government agencies, that we work to 
both manage and protect the public lands in partnership 
together.
    In fact, my district, Nevada's 4th Congressional District, 
is home to Great Basin National Park, Death Valley National 
Park, Lake Mead National Recreation Area, as well as Gold 
Butte, Basin and Range, and Tule Springs National Monument, 
something that I am proud to have worked with Ranking Member 
Bishop in prior congressional sessions.
    Nevada's 4th Congressional District is also home to three 
national forests, which span more than 3.5 million acres. In 
total, Nevada has more than 59 million acres of public lands. 
Eighty-six percent of our state is made up of public land 
managed by the Bureau of Land Management, the National Park 
Service, the U.S. Forest Service, and other Federal agencies.
    Nevada's public lands provide unparalleled outdoor 
recreational opportunities for the people of Nevada and the 
visitors to our state. In 2017 alone, the National Park Service 
accommodated more than 6 million visits to Nevada's parks. And 
in 2017, visitors to land managed by the National Park Service 
spent more than $250 million supporting 3,281 jobs.
    Sadly, due to the impacts of climate change, Nevada's 
public lands face an ever-increasing list of threats. In recent 
years, rising temperatures have allowed the bark beetle to 
multiply faster, putting more forest area at risk of 
infestation. Now, the bark beetle may not sound too threatening 
to some. But as it continues to infest our forest, it will 
substantially increase the forest fires and threaten the health 
of Nevada's national forests.
    Climate change continues to contribute to longer wildfire 
seasons in Nevada. And we have also seen a decline in our water 
rates at the Lake Mead National Recreational Area.
    All the impacts of climate change increase in scope and 
severity. Managers of public lands will continue to face 
increased challenges.
    Dr. Gonzalez, your research spoke to the disproportional 
impacts of climate change on national parks in the Southwest. 
And I would like to ask, if you could, if we allow climate 
change to continue unabated, what will this mean for districts 
like mine?
    Dr. Gonzalez. Already in Lake Mead National Recreation 
Area, in your district, climate change has combined with 
increased water withdrawals from cities and agriculture to 
lower the level of the lake to its lowest level since it was 
filled in the 1930s. That is in part due to a drought in the 
southwestern United States that published research has shown 
has been caused by human-caused climate change since 2000, and 
is ongoing.
    Continued climate change could continue to reduce water 
flow in the Colorado River, which threatens the level of the 
lake, which not only provides for the ecosystems in the area, 
but sustains the people of southern Nevada.
    Mr. Horsford. Thank you. And Mr. Cole, can you explain how 
the threats outlined by Mr. Gonzalez might impact outdoor 
recreation on our public lands?
    Mr. Cole. Absolutely. And first off, Nevada is a very 
important state for us. We will have upwards of 1,000 employees 
as of the end of this year.
    Mr. Horsford. We appreciate your contribution to our state 
and the creation of those jobs.
    Mr. Cole. Thank you, and thanks for your leadership. And 
those employees--for a business, we need to attract employees 
like that to our locations, to places like our distribution 
center in Reno, Nevada. And we can't do that without an 
attractive state to bring them into. And part of the 
attraction, as you have just noted, about Nevada are its public 
lands. It has incredible places for people to come and 
recreate, spend time outdoors.
    It is an attractive thing for a business like ours. I think 
that is the case for businesses across the spectrum in outdoor 
recreation, whether it is small mom-and-pop businesses on a 
local level that rely on protected places for their business 
and to bring people in, or large ones like ours. It was a huge 
economic impact, for sure.
    Ms. Haaland. Thank you, Mr. Cole.
    Thank you, Mr. Horsford. The Chair recognizes Mr. Fulcher.
    Mr. Fulcher. Thank you, Madam Chairman and panel, thank you 
for being here. I have a question for Dr. Oneil, but I need to 
set the stage for that because I think, from what I am hearing, 
the situation in our state of Idaho is different than what I am 
hearing from my colleagues.
    But in our state, approximately two-thirds of our land is 
Federal land, so we are really tenants there, instead of 
landlords in that sense. And the problem is that our landlord 
is about $22 trillion in debt, and they don't have the ability 
to manage what is theirs, so they don't.
    So, in a given year, we will burn up--just in the forest 
areas--about a half-a-million acres, if you want to average it 
out over time. And that has kind of turned into a worse-of-all-
worlds scenario, because the wildlife gets decimated in that 
circumstance, tons of carbon emissions get kicked up into the 
air. We will collectively, state and Federal, spend six-digit 
millions in trying to suppress it. But when it is not managed 
at all, there is this fuel load that builds up so much that a 
lightning strike, boom, hits it and then it is decimated for 
our wildlife, our sportsmen, our timber industry, all of that.
    So, what is left of our timber industry, what is left of 
our sportsmen, our recreationalists, and our farmers, our 
ranchers, they would just like to engage in some fashion to try 
to put some wisdom--and that is all, just that, just wisdom--
into how that land is managed, the land that is within our 
state borders.
    From your perspective and your homework, what are the 
biggest obstacles and some of the things we might be able to 
do, just simply to take the stakeholders who live there, who 
want to take care of it, to have a little bit more say in how 
that is done?
    Dr. Oneil. In Washington State, we have adopted an all-
lands, all-hands approach, where you systematically--looking at 
these very high-risk areas, including state, private, and 
Federal land, and tribal lands, and looking at how it is that 
we could create these large areas that have some resilience in 
them. That is sort of a shared stewardship model. They work 
very closely with the U.S. Forest Service to try to accomplish 
that kind of effort.
    But it wouldn't happen without on-the-ground forest 
collaboratives. In Washington State, we have a large number of 
forest collaboratives that very much speak to that local input 
and local outcomes. I would suggest that is a model that is 
usable in almost every area. They use it in Arizona, they use 
it in Washington State, where they are actually looking at ways 
that the local people can get their needs addressed well.
    And also public-private relationships because, obviously, 
the Forest Service or any other public agency is not in the 
business of marketing any kind of material that they remove. 
And you do need markets to be able to sustain this stuff. We 
have had stewardship contracts for years, and the difficulty is 
being able to actually market the material and, therefore, 
nobody bids on it, or they don't bid enough to do the work to 
actually create this really significant change.
    So, it is a systemic challenge, especially if you lose your 
infrastructure.
    Mr. Fulcher. Thank you, Dr. Oneil.
    And Madam Chair, just a closing statement. And I really do 
appreciate the perspective of the panelists. And I would just 
invite you, if you really believe that fires in their natural 
state and just leaving things alone is the best thing to do for 
the environment, then I would just encourage you during fire 
season, when we are pumping tons of carbon into the air and 
spending hundreds of millions to try to suppress it, I would 
encourage you just to come visit. We live there. It is our 
home. And we just want to take care of it. Thank you.
    Ms. Haaland. Thank you, Mr. Fulcher. The Chair now 
recognizes Mr. Lowenthal.
    Dr. Lowenthal. Thank you, Madam Chair and the witnesses for 
being here. I have sat here through this, listening to this, 
and I really think it reflects the fact that--later on we are 
going to be voting about a package to keep the government open 
or not. And we may have some issues later on around the 
President thinking about a national emergency. What we are 
talking about here is the national emergency that the Nation 
confronts, and the planet confronts. So, I am really glad to be 
part of this hearing and listen to it.
    Yesterday, we held hearings in the Natural Resources 
Committee on the Energy and Mineral Resources Subcommittee, and 
again, as witnesses have pointed out, 25 percent of our 
Nation's energy sources--oil, gas, coal, and then also 
renewables--come from Federal lands. That is all the offshore, 
all the onshore that are under the control of the Federal 
Government, about 25 percent. So, I think that is a great 
discussion.
    And we have heard from some of the witnesses. I am going to 
ask all the witnesses to really answer three questions.
    Should we now be placing a moratorium on issuing any new 
permits or any new leases for onshore and offshore oil, gas, 
and coal? Should we be?
    Should we also look at, on existing extraction, to place a 
fee or a tax on fossil fuel extraction to fund some of the 
impacts of climate change? Should those that are contributing 
now, should we be looking at that?
    And if we are going to fund some of the impacts, what would 
you set up as our priorities from some kind of fee on oil 
extraction, or carbon fee, but from Federal lands? How would 
you spend, as your highest priority, in terms of some of the 
impacts?
    I am going to go right across, start with Dr. Gonzalez. 
First question, should we place a moratorium on all now new 
development on Federal lands?
    Dr. Gonzalez. The scientific research clearly shows that we 
need to reduce greenhouse gas emissions from fossil fuels. And 
moving to renewable, solar, wind, and energy conservation, and 
energy efficiency is the way to do that.
    Many policy mechanisms to do that, and the one that you 
have identified is one of them, it is not in my particular area 
of expertise to judge that moratorium, but anything that moves 
us away from fossil fuels is good.
    Dr. Lowenthal. OK, Dr. Hansen. Should we be placing a 
moratorium on all new development, permits, leases?
    Dr. Hansen. If our bottom-line goal is to stop making this 
problem worse, I would say that would be a prudent course of 
action, especially when the injury from the action affects the 
very place from which that energy is being extracted.
    Dr. Lowenthal. Thank you.
    Mr. Cole?
    Mr. Cole. Yes, we have already been pretty public in 
stating that, for offshore drilling, we believe very firmly the 
moratorium should be in place. And similarly, for onshore, I 
think it is a prudent action to proceed that way.
    Dr. Lowenthal. And Dr. Oneil?
    Dr. Oneil. Offshore oil and gas is outside of my realm of 
expertise, as a scientist. I am going to decline that one.
    Dr. Lowenthal. OK. On existing oil extraction, which is 
approximately 25 percent of the Nation's oil, gas, and coal, 
should we be having some kind of fee or extraction to really 
begin to pay for some of the both short-term and long-term 
impacts?
    And if it is so, what other kinds of impacts, whether 
environmental, whether it is economic development, transitions, 
labor, disruptions, if we begin to do this, how should we begin 
to use some of the resources?
    And anybody can jump in. Because we are going to have to 
prioritize.
    First of all, should we be--is there a cost to carbon 
extraction? And should they be part of the solution by helping 
to fund impacts?
    Dr. Gonzalez. Again, clearly, the research shows that the 
real cost of fossil fuels, the social cost of carbon, has not 
been reflected in the price, the environmental impacts and the 
social costs. So, any policy that can integrate that real 
social cost of carbon into fossil fuel use would be a good 
advance.
    Dr. Lowenthal. Anybody else? I think I am running out of 
time.
    Dr. Hansen. I would just like to quickly say that solving 
the problem of climate change is addressing the need for fiscal 
prudence. The cost of the impacts of climate change is already 
upon us. We have already talked about a lot of the effects that 
have been seen in everybody's home states.
    What that will mean if it continues unchecked for our 
economy is catastrophic. Coming up with ways that we create 
market incentives to move us away from that and toward the 
economy of the future, I think, is vital. I am not an 
economist, so I don't know what the best mechanisms are, but we 
certainly do need to account for those costs.
    Dr. Lowenthal. All right. Thank you, Mr. Chair, and I yield 
back.
    Mr. Huffman [presiding]. Thank you, Mr. Lowenthal. The 
Chair now recognizes the acting Chair. And I allowed a little 
extra time there, unlike Ranking Member Bishop, who did a great 
job bringing his comments in precisely within the time limit.
    However, I think he may have exceeded the limit of 
reasonable credibility with some of that anger and sanctimony 
directed at Patagonia. It seems that all of this anger and 
passion about doing business with China and other countries for 
clothing is reserved for companies that want to protect public 
lands and national monuments, and do something about climate 
change and be good corporate citizens.
    I wish we had more even-handed sanctimony that applied to 
the Trump family. After all, these are the biggest hypocrites 
of all. They attend their MAGA rallies, they whip people into a 
nationalist fervor, railing against doing business and trade 
with China, and then they turn around and do exactly that. So, 
I hope we cannot only honor time limits, but also honor even-
handedness in our sanctimony, as we go forward.
    I was pleased by the other side's calling a witness to this 
hearing--the first time, I believe, in any of our Natural 
Resource Subcommittee hearings--Dr. Oneil, who firmly reflects 
the mainstream of the global scientific community in 
acknowledging climate change. I am getting a little whiplash, 
because we have heard previous witnesses that tell us no big 
deal, nothing to see here.
    But Dr. Oneil, I found your testimony refreshing and 
welcome. The only piece that I wanted to push back on a little 
is the notion that we might be able to log ourselves out of 
this problem, or log ourselves even to fire resilience. I 
represent a lot of forestland and a lot of public land that has 
much in common with some of my Republican colleagues. And I am 
glad you clarified a little bit that you are not talking about 
logging all the way to the beach, so I appreciate that comment 
very much that you made.
    But I think it is important to acknowledge--because I live 
this reality, too--that the 2017 North Bay Fires and last 
year's Mendocino Complex Fire, which devastated parts of my 
district, burned primarily in chaparral. These were not large-
standing merchantable trees. Sixty percent of wildfires occur 
on chaparral and grasslands, so they are not going to be 
stopped by logging, they are not going to be stopped even by 
many conventional fuels reduction projects. And these fires 
also are exceptional because of weather events: high winds, dry 
ground, all of these factors, not simply this simplistic notion 
that we don't cut enough trees.
    That is why many of us want to prioritize mitigation 
projects in and around at-risk communities, ensuring that those 
communities have the resources and guidance that they need to 
establish fire-safe neighborhoods. That is smart fire 
resiliency.
    But you might be surprised, Dr. Oneil. I think if you and I 
sat in a room, we would agree on a lot of things where we can 
do more cutting of trees and more harvesting. And we can do it 
thoughtfully, with shaded fuel breaks. We can do thinning of 
some of these second and third-growth plantation stands that 
are extreme risks for catastrophic fires.
    So, I don't want to suggest that we are totally on opposite 
pages, or that the choice is to discontinue all harvesting and 
just open the doors to unlimited harvesting with impunity. I 
think there is a lot of common ground that we can work on 
together.
    Now, Dr. Gonzalez, we have heard at length about logging to 
reduce fuel loads, and I want to ask you. Does the best 
available science suggest that commercial logging in this 
fashion is a silver bullet to reduce fire risk?
    Dr. Gonzalez. Published scientific research shows the 
opposite. It is that pre-emptively using fire management, 
prescribed burning, and wildland fire is the way to restore 
ecosystem integrity to our forests, and to reduce high-severity 
fire in the future.
    Mr. Huffman. OK. Mr. Cole, I know Patagonia is based in 
Ventura, close to where the devastating Thomas Fire burned 
hundreds of thousands of acres around Ventura. Was this the 
fire in an unthinned tree stand?
    Mr. Cole. No, those fires which did impact us heavily--we 
had over half of our employees evacuated at given times over 
the past couple of years--that was in exactly the kind of 
habitat you described, which is chaparral. It is coastal scrub.
    A policy to log more would not have helped that area at 
all.
    Mr. Huffman. OK. Moving to a different subject, we have 
talked a lot about our public lands being a great asset for 
this country, and a contributor to emissions. But they can also 
be part of the solution through carbon sequestration, soil 
health, and other factors. Can you speak very briefly about 
regenerative agriculture, and healthy soils on our public 
lands, as a strategy to reduce emissions?
    Mr. Cole. Yes, this is another sort of pillar of our policy 
and approach around addressing the climate crisis, is 
regenerative organic agriculture. The concept is one that goes 
back, literally, thousands of years. It is a sort of low-till, 
no-till crop rotation orientation to agriculture that has huge 
benefits in storing carbon in the soil. And we know that simply 
cutting back on fossil fuels and shifting to renewables is not 
enough. We have to store carbon.
    Mr. Huffman. Thank you----
    Mr. Cole. So, this is a great approach----
    Mr. Huffman. I apologize that I don't have more time, 
because we deserve to have a longer conversation about that 
subject, but we are out of time.
    Mr. Westerman.
    Mr. Westerman. Thank you, Mr. Chairman, I appreciate----
    Mr. Huffman. I think we have reached the end.
    Mr. Westerman. Yes, OK, I thought we were doing a second 
round.
    Mr. Huffman. Are we going to do a second round? Oh, the 
Chair is here.
    Mr. Westerman. We still have time on the clock.
    Mr. Huffman. I am happy to--let me leave that tough 
decision to the Chair, though.
    Ms. Haaland [presiding]. Thank you so much. I wanted to go 
until noon. We have 10 minutes. So, we have time for two more 
questions, one on your side and one on ours. How is that? If 
you would like to go over your time, I am more than happy to 
accommodate you. Thank you.
    Mr. Westerman. We are burning them now.
    Ms. Haaland. Exactly. Mr. Westerman.
    Mr. Westerman. Thank you, Madam Chair. I appreciate you 
doing a second round. I think southerners should be given more 
minutes. I think we are being discriminated against because of 
our slow cadence in speaking, but we will try to get more 
questions in this time.
    I would like to make a bit of a clarification. I think we 
have to distinguish between public lands and Federal lands. We 
have the national parks and we have the Forest Service, which I 
think are two land bases that should be managed differently.
    Dr. Gonzalez, I know you talked about Yellowstone. I got to 
spend some time in Yellowstone. I never realized before going 
out there just how much of a lodgepole pine cohort is in 
Yellowstone, which we know has about a 100-year life 
expectancy, until you get a stand-replacing fire. I think the 
one in the 1980s took out about half of Yellowstone. It is 
going to burn. I don't think we need to manage on Yellowstone, 
we can let nature manage Yellowstone. That is what has been 
going on there. And there are other places on our national 
parks where I have never promoted doing intensive management on 
those parks. There could be stuff in the wildland-urban 
interface.
    But the Forest Service is a different story. And I would 
like to just go back briefly to my previous testimony, where I 
had the chart up that showed that active management plus using 
wood materials, overall, is a bigger carbon synch, better for 
the environment than just a hands-off approach to management. 
And I want to ask the scientist this.
    Dr. Gonzalez, do you agree with that assessment, that 
management plus using wood materials is better than non-
management?
    Dr. Gonzalez. Prescribed burning, again, has been shown to 
increase carbon storage in forests more than mechanical 
thinning.
    Mr. Westerman. Dr.----
    Mr. Huffman. Could I ask if Mr. Westerman would yield just 
for a clarification of his question? And I will give you all of 
my time, as far as----
    Mr. Westerman. I will yield to the gentleman.
    Mr. Huffman. I am just wondering if you are asking 
categorically, across the board. Because sometimes we talk as 
if all forests and all fires are the same, and they are just--
--
    Mr. Westerman. No, I am not talking across the board.
    Mr. Huffman. OK.
    Mr. Westerman. But in areas where we can actively manage, 
where we produce wood products, we build wood buildings, build 
furniture, the research shows that that, overall, is better for 
the environment than no management at all. And I am just asking 
if you agree with that research, or do you disagree with it.
    Dr. Gonzalez. Storage and harvested wood products can, yes, 
increase carbon storage. But the point I was making was the 
difference between prescribed burning, proactive fire 
management, versus logging and thinning. And it is the 
proactive fire management that has been shown----
    Mr. Westerman. I need to move on. Dr. Hansen?
    Dr. Hansen. My area of expertise is not forest dynamics. 
However, what I do know is that if, in fact, you want to have 
forest products in order to be harvested, we need to start 
managing our forest systems for future conditions. Otherwise, 
we will end up with not----
    Mr. Westerman. Agreed, that the adaptive management----
    Dr. Hansen. We need to undertake adaptation principles, 
yes.
    Mr. Westerman. And Dr. Oneil?
    Dr. Oneil. I have worked extensively in this area. In fact, 
some of the published research quantifies those differences in 
just leaving the forests alone or managing it for wood products 
to both store the carbon in the wood and offset the use of 
other materials like steel and concrete. So, yes, I do agree 
with that.
    Mr. Westerman. OK. And Madam Chair, I would like to submit 
for the record the charts that I have put up that were so hard 
to read. They did come from this graduate-level textbook called 
Global Resources and the Environment, by Chad Oliver, who is a 
professor at Yale University. I would like to submit those for 
the record, that show that managing forests and using wood 
products are better for the environment.
    Ms. Haaland. Without objection, so ordered.
    Mr. Westerman. Thank you.
    Dr. Oneil, you also supplied this chart that shows forests 
on the Federal lands have a higher mortality rate than a growth 
rate, which is very concerning.
    Contrary to that, in my state of Arkansas we produce 16 
million more tons of wood per year every year. And with your 
data of 50 percent of that is carbon, we are actually synching 
8 million more tons of carbon per year in the state of 
Arkansas. The state of Georgia, it is 9\1/2\ million tons of 
carbon more per year that is going into synch.
    Should states like Arkansas, who have a healthy forest, be 
rewarded for that, versus states who have--or the Federal 
Government, that have forests that have higher mortality and 
are emitting more carbon, storing less carbon? Should they be 
punished?
    Dr. Oneil. I am not into the punishment and reward thing 
here.
    Mr. Westerman. Well, maybe that wasn't the right word. 
Should there be more incentives for states like Arkansas, that 
are sequestering more carbon?
    Dr. Oneil. I think the incentive is to promote and support 
a sector, for a sector that will encourage that investment in 
growing forests and using them for harvested wood products, and 
then using those harvested wood products, as many of them as 
possible and long-lived products.
    Certainly in the Southeast we have a really vibrant forest 
industry. And actually, that same report that looked at the 
national forests and the level of mortality also speaks to the 
fact that in the southeast United States there are more acres 
under management, and they are harvesting more than they ever 
have, but yet they are carrying more than they ever had because 
there is investment, because there is a market. And that market 
promotes the reinvestment in forestry.
    We also see that in the Pacific Northwest in the coastal 
areas, where you have a lot of private forestland, and the 
investment supports the idea of continued forest management.
    When we lose that market, we lose the investment potential, 
we lose the potential to use those lands to sequester carbon 
and then produce wood products. It is a different calculus.
    Ms. Haaland. Thank you, Dr. Oneil.
    Thank you, Mr. Westerman. And I would like to make note 
that we did yield to your southern cadence, so thank you for 
bringing that up.
    Mr. Huffman. Madam Chair, would you please deduct Mr. 
Westerman's extra time from mine? And I will yield back.
    [Laughter.]
    Ms. Haaland. Thank you. I will ask the last question of 
this hearing, and my question goes to Dr. Hansen. The first is 
a yes-no question, the second one I will ask you to expand on 
the answer.
    In your testimony, you mentioned that we need to provide 
our agencies with clear, informed mandates to begin preparing 
for climate change. In your opinion, has this Administration 
provided these?
    Dr. Hansen. No.
    Ms. Haaland. And what should we be requiring our agencies 
to do?
    Dr. Hansen. It should be a required part of how they do 
business. And I am going to preface this by saying this isn't 
just because of environmental interests. This should also be an 
interest by every taxpayer in this country.
    We should not be allowing decisions to be made that are not 
going to be effective for what we want our government to be 
doing for us, because they will be undermined by the effects of 
climate change. So, the need would be for all decisions made, 
all actions taken by Federal agencies to be evaluated for their 
vulnerability to climate change, and designed to maximize the 
reduction of that risk so that we can deliver on the promises 
that we are making to the American people, to future 
generations, and to the environment that we are stewards of.
    Ms. Haaland. Thank you very much, Dr. Hansen. And that 
concludes our hearing on this climate change and public lands.
    I want to thank you all again for being here today, and for 
helping us start this important conversation. It is imperative 
that we hear the best science, and that we understand the 
impacts so that we can begin to act on climate change.
    Unfortunately, our colleagues across the aisle have chosen 
to focus on land use scenarios and outdated rhetoric, but these 
claims will not slow us down.
    To our witnesses, your insights and policy recommendations 
have been helpful, and will help us craft bold and impactful 
legislation around climate change adaptation. Let us not forget 
how momentous it is that we are once again hosting these 
important conversations in the halls of Congress.
    And this is the end of the hearing.
    That is right. The members of the Committee may have some 
additional questions for the witnesses, and we will ask you to 
respond to these in writing.
    Under Committee Rule 3(o), members of the Committee must 
submit witness questions within 3 business days following the 
hearing, and the hearing record will be held open for 10 
business days for these responses.
    If there is no further business, without objection, the 
Committee stands adjourned.

    [Whereupon, at 12 p.m., the Subcommittee was adjourned.]

            [ADDITIONAL MATERIALS SUBMITTED FOR THE RECORD]

  Prepared Statement of the Hon. Debbie Dingell, a Representative in 
                  Congress from the State of Michigan
    Thank you, Chairman Haaland and Ranking Member Young, for convening 
this hearing to discuss the threat of climate change and the unique 
challenges it poses to our Nation's public lands.
    Public lands are key to the economic and ecological health of 
Michigan. As they comprise almost 10 percent of Michigan's total land 
area, these areas drive tens of millions of dollars in tourism and 
support thousands of jobs.
    From the iconic Sleeping Bear Dunes National Lakeshore to Isle 
Royale National Park, these areas are fundamental to Michigan's 
identity and the state's outdoor recreation economy.
    Given the integral role that public lands play in Michigan, I am 
highly concerned about the effects of climate change that these areas 
face. We know that public lands will face disproportionate impacts as a 
result of climate change.
    Over the last century, the mean annual temperature experienced 
across the United States' national park system increased at double the 
rate of the United States as a whole.
    As a result of reduced winter ice and snow cover caused by climate 
change, the Sleeping Bear Dunes National Lakeshore will face 
accelerated loss from increased erosion. Additionally, other national 
parks both in Michigan and across the United States face potentially 
existential risks.
    The need for action is clear--we must work to address climate 
change without delay by taking strong and decisive action at the 
Federal level.
    Protections for public lands are critical for not only mitigating 
the impact of climate change on sensitive ecosystems, but also, 
properly managed, can serve as a climate adaption solution.
    Unfortunately, the Trump administration has elected to ignore the 
numerous economic, public health, and ecological benefits that public 
land preservation provides. Instead, they have prioritized oil 
drilling, mining and resource extraction at all costs.
    The Administration's actions include rescinding Department of the 
Interior guidance to prepare for the impacts of climate change on 
public lands, as well as unprecedented actions to put public lands in 
private hands.
    These actions are highly misguided. Instead, we should be renewing 
our commitment to preserving America's public lands for future 
generations.
    It is my hope that today's witnesses will provide context on the 
importance of public land protections in addressing climate change, and 
the key role that they will play as we examine solutions to this 
pressing issue.

                                 ______
                                 

    Dr. Mark E. Harmon, Professor Emeritus, Oregon State University
 Statement Submitted for the Record Concerning Committee Hearing dated 
February 13, 2019 on Climate Change and Public Lands: Examining Impacts 
                and Considering Adaptation Opportunities
    My name is Dr. Mark E. Harmon and I am currently a professor 
emeritus at Oregon State University. I wish to offer the Subcommittee 
my personal comments and opinions on the issue you are considering. 
These are based on my 33 years of professional experience examining 
these and related issues. Over my career I have received a large number 
of grants (78 in total), published numerous peer-reviewed journal 
articles (over 140), been an author of three major reviews (one cited 
over 3,900 times), reviewed about 175 research proposals for agencies 
such as NASA, NSF, and USDA, served as a referee on many scientific 
manuscripts (over 450 for a total of 100 different journals), taught 
several graduate level courses on the topic of forest ecosystems and 
forest carbon dynamics and well as made dozens of scientific and 
outreach presentations on these topics, and served as a scientific 
expert to Oregon's and Federal agencies including the US EPA (biogenic 
carbon). To give more details I am providing my abbreviated curriculum 
vitae, but I believe most scientists in this field would consider me a 
leading expert particularly in the field of forest carbon.
    I have a general concern about both the written and transcribed 
testimony from Dr. Oneil (the Minority witness) that I have recently 
read regarding the examination of climate change impacts on public 
lands and adaptation opportunities. To sum up the basic logic that 
appears to have been presented: (1) a warming climate coupled with 
increased tree density has lead increased disturbance caused by fire, 
insects, and disease in forests; (2) therefore more trees must be 
harvested to reduce tree density; (3) these management actions will 
reduce the amount of disturbance; and (4) will result in greater stores 
of carbon thus reducing one of the key drivers of climate change, 
atmospheric carbon dioxide. I find this analysis to be overly 
simplified, lacking context, and incomplete as it leaves out many key 
concepts that need to be part of any practical and credible solution. 
In the following sections I elaborate.
                    selecting a management solution
    The choice presented in the testimony seemed to have been that one 
can either let nature take its course or institute management involving 
deliberate campaign of widespread tree harvesting. I believe that is a 
false choice that does not reflect the diversity of forest management 
objectives present in the United States, nor does it reflect the range 
of forest conditions and responses; nor does it reflect the practical 
and economic limitations that will undoubtedly shape management 
choices. One can envision a wide diversity of potentially effective 
management options that go far beyond what was offered:

        In some remote wilderness/park/reserve areas the best choice 
        might be to allow nature take its course given lack of access, 
        expense, and management objectives (which might include 
        allowing nature to dominate);

        In other such areas it might make sense to reintroduce 
        disturbances such as fires to achieve objectives;

        In yet other areas it might make sense to suppress fires 
        aggressively under certain weather conditions, but not others;

        In the interfaces between forests and human communities it 
        might make sense to not only reduce tree density, but to remove 
        trees altogether.

    This not an exhaustive list, but the point is that the management 
solution must match the specific management objectives, have a strong 
chance of achieving the objectives, and be realistic regarding economic 
and logistical limitations. Using forest harvest such as thinning in 
all situations would mean roads would have to be built into parks and 
wilderness areas often at extreme financial and environmental cost, but 
it would also mean that areas where complete tree removal is needed, 
such as for fire breaks and defensible spaces, would not be managed 
appropriately either. In plain terms we need to match specific 
solutions to specific conditions, not find a general problem to impose 
the single solution that we desire to implement.
    In deciding which management actions to take, the primary objective 
of management for a particular forest needs to be recognized. Despite 
studying forest carbon for decades, I do not believe that carbon 
sequestration is the primary reason why most forests are managed today. 
While certainly important, carbon is a secondary objective/concern that 
should be managed to maximize stores (in the forest, in products, and 
substitutions) within the constraints of the primary management 
objective. One of my concerns with the testimony I read is that it 
seems to suggest that management actions will be taken to increase 
carbon stores and that other benefits such as economic, housing, energy 
benefits will follow. I would encourage everyone to stop dropping ``the 
carbon bomb'' to convince others of the validity of their desired 
management objective. There is a wide range of valid forest management 
objectives that have little to do with carbon. A more productive 
pathway would involve accepting the wide range of forest management 
objectives that exist and within those consider how carbon can be 
managed effectively.
                          mortality considered
    Increased mortality beyond the historic range of this process is a 
concern, and I have no doubt some aspects of these changes need to be 
managed and mitigated through adaptation. However, it is overly 
simplistic and counterproductive to imply that mortality is always 
undesirable or that it automatically degrades forest ecosystem 
function. Mortality has always occurred in forests and that is why 
there are numerous species of animals, plants, and fungi that have 
evolved to take advantage of dead trees. Moreover, mortality is how 
forests thin themselves and coupled with decomposition is how forests 
recycle the nutrients they need to grow. Preventing mortality in 
forests or removing dead trees, as in the very intensive management 
best seen in 1980s northern Europe, has reduced the abundance of many 
species by removing their habitat and limiting the structural 
development/diversification of forests. That is why current forest 
management in many parts of northern Europe is trying to restore dead 
tree habitat. It should be noted that mortality does not equate with 
the loss of carbon or any other general function of forest ecosystems. 
The concept that carbon is completely lost or habitat is completely 
lost because of mortality is mistaken at best. When trees die in a 
forest from natural causes, a substantial part of the carbon remains 
(even in the case of severe fires more than 90 percent remains) and 
this carbon is gradually lost through the process of decomposition 
(which takes decades to centuries). While live tree habitat is lost 
during mortality, dead tree habitat is gained. What occurs in mortality 
is that the form of carbon and type of habitat changes. The only known 
process to immediately remove live and/or dead tree carbon and habitat 
at a large scale from a forest is timber harvest. We know this because 
trees, at least the aboveground part, are deliberately removed from the 
forest in a harvest!
    Mortality is a natural process and ranges from the death of 
scattered individual trees to small patches of trees all the way up to 
major episodes covering broad areas. These forms of mortality have 
occurred in forests as long as forests have existed. None of these 
scales is more natural than another and over a broad area about as many 
trees die as scattered individuals as in major episodes. In and of 
itself these forms of mortality are not cause for concern. What is a 
concern is the degree that these forms of mortality change forests in 
ways that prevent specific management objectives from being achieved. 
This means that we cannot assume that the level of mortality tolerated 
in an intensively managed forest (very little) is the same as expected 
in a wilderness area where the creation of open habitats might be an 
important management objective (a great deal).
    If maintaining forests is the management objective, then widespread 
mortality coupled with low tree regeneration success is the key 
concern, not mortality on its own. Mortality need not lead to a 
permanent loss of desired forest conditions, especially when a 
disturbed forest retains and regenerates the elements needed to restore 
these conditions. In many cases, disturbance-related mortality is a 
temporary reorganizer of forests and there are natural processes that 
allow forests to ``recover'' the conditions that are desired. The 
recovery process can begin quickly (years) or slowly (decades), but one 
must bear in mind that the perceived speed of successful recovery is 
strongly influenced by management objectives: 5 years may be too long 
for tree regeneration in a short rotation production forest, but 50 
years or more may be appropriate in a remote wilderness. If management 
actions such as seeding and planting are needed to speed forest 
regeneration, then these actions need to be targeted to specific 
locations and situations as they may be neither needed (moist soils) 
nor effective (persistently very dry soils) in all locations. Moreover, 
if regeneration is assisted, the approach should be to introduce a wide 
range of genetic stock and species to cover the possible spectrum of 
future conditions. This acknowledges our uncertainty in predicting 
future conditions and increases changes of success because it allows 
natural processes to find the most successful ``players'' in the future 
forest.
    To understand how to solve a problem one must understand what the 
problem is. Much was made in the testimony of the observation that 
mortality has increased fourfold in National Forest timberlands over 
the 1976-2016 period. While the data support this observation, it is 
misleading if taken at face value. The implication is that if mortality 
has increased fourfold, it must be solely due to increases in 
disturbance. This is misleading because, as noted above, about half of 
all tree mortality occurs at the individual level (which is not 
generally considered a disturbance), but also because mortality as it 
was expressed (that is a volume dying per year) depends on two items: 
(1) the proportion dying each year and (2) the volume of trees that can 
potentially die. Mortality can increase if either term increases. As 
Figure 1 in Dr. Oneil's written statement makes clear, net growth (the 
amount forest live volume/biomass/carbon increases) has been positive 
throughout the 1952-2016 period. This means, despite the occurrence of 
mortality, that live tree volume has increased over this time period. 
Based on the values presented in Dr. Oneil's testimony I estimate that 
tree volume may have roughly doubled over this period.\1\ Thus, one 
would expect half of the fourfold mortality increase evoking concern to 
have been caused simply by the fact that today's forest has 
substantially more volume than earlier forests. By analogy if one plans 
to buy a house at 4 percent annual mortgage interest then do not be 
surprised if the $100,000 house has one-half the interest payment of 
the $200,000 house. This not to say that there has not been an increase 
in the proportion of tree volume dying. Using the mortality rate 
reported by Dr. Oneil, it does appear that the proportion of tree 
volume dying has increased by about a factor of two between 1972 and 
2016 with much of this increase occurring in the past two decades. 
However, in addition to knowing what level of reduction is required one 
must also understand the specific mechanisms behind the changes: one 
has to ask why the proportion of tree volume dying has increased. The 
suggestion in the testimony seems to be that it is related to fire and 
bark beetles; while I suspect this is partially true and there is 
evidence to support this hypothesis, there are other substantial 
sources of tree mortality that have increased over this period such as 
those related to wind and invasive species that are not related to 
either tree density or drought. Therefore, it is hard to envision how 
forest thinning, the proposed solution to reducing fires, disease, and 
insect attacks, would decrease the impact of wind disturbance, or that 
related to invasive insects such as the woolly adelgids attacking 
eastern hemlocks and Fraser fir or the emerald ash borer attacking 
green ash much less diseases such as sudden oak death. In fact, in some 
cases thinning might exacerbate these forms of mortality.
---------------------------------------------------------------------------
    \1\ Unfortunately the data used in this figure is not publicly 
available as far as I could determine and a full citation was not 
provided limiting my ability to find it. I have no doubt that the data 
presented are relatively accurate, however, without knowing the 
starting volume it is difficult to precisely estimate the degree volume 
has increased in a relative sense. The data presented suggest that 
cubic volume has increased by 212,150 million cubic feet over the 1952-
2016 period. However, we know that cubic volume was not zero in 1952. 
Based on the likely fraction of live tree volume dying in 1952-1976, 
something in the range of 0.3-0.6 percent per year, it is likely the 
volume in 1952 was in the range of 250,000 cubic feet. If provided the 
1952 volume from this dataset I could easily make a more precise 
estimate of the relative increase in live tree volume between 1952 and 
2016.
---------------------------------------------------------------------------
    While an increase in the proportion of trees dying each year is of 
concern, the idea that the proportion of gross growth (NPP) allocated 
to mortality is indicative of a problem is misguided. Specifically, 
concern was expressed that two-thirds of gross growth (equivalent to 
net primary production or NPP) is currently being ``lost'' to 
mortality. The suggestion is that this ``large'' proportion is 
unnatural, but that ignores the fact that, absent harvests (which are 
after all forms of human induced mortality), forests allocate gross 
growth (NPP) into either net growth or mortality and this allocation 
changes as forests age. In young forests the majority of gross growth 
is allocated toward net growth (leading to a rapid increase in volume) 
and in older forests an increasing share of gross growth (up to 100 
percent) is allocated toward mortality. This change is why forest 
volume does not increase forever and tends to saturate as forests age. 
This is a fundamental relationship found in all forests, documented in 
the forestry literature for more than a century, and is observed even 
those in management systems in which harvest mortality replaces natural 
mortality as a source of live tree removal. In fact when a sustainable 
harvest system is implemented, the expectation is that harvest and 
mortality comprise 100 percent of gross growth, hence the volume over a 
large area remains constant. As a specific example of how the 
allocation of mortality changes as forest age, we can examine the case 
when tree maximum life span is about 500 years. For this kind of 
forest, mortality would comprise 63 percent of the gross growth of an 
even-aged stand at about 100 years. In a stand that is 200 years of age 
one would anticipate that mortality would comprise 85 percent of gross 
growth and for a stand of 300 years age mortality would comprise 95 
percent. Returning to the National Forest timberlands data we find that 
between 1952 and 2019 all forms of mortality (harvest included) have 
increased as a share of gross growth from 53 to 69 percent. But much of 
this is related to the fact that these forests have become older, a 
fact consistent with the observed twofold increase in volume over this 
period. The only alternative explanation for increased live mass is 
that National Forest timberland acreages have increased twofold, 
whereas we know these acreages have remained relatively constant.
             where and when is high tree density a problem?
    The idea that high tree density (that is number of stems) is the 
primary cause of recent unnatural mortality levels is overly 
simplistic. This is because it ignores the natural variation in space 
and time that one expects of tree density. In closed forest ecosystems, 
tree density is highest once forest stands have regenerated. As trees 
grow and start to compete for resources, mortality is expected to 
increase. Harvest thinning in these forests is a way to mimic and 
control this expected natural mortality process.
    While some forests have higher tree density because of management 
actions such as fire suppression, others have climates and reproductive 
strategies that lead to high tree density. Those most influenced by 
fire suppression in the West include ponderosa pine and mixed conifer 
types where tree density has greatly increased over the period of fire 
suppression. One could argue that harvest thinning in these types would 
be appropriate. However, in many other forest types tree density is 
naturally high and is unlikely the direct cause of recent widespread 
mortality. A prime example would be the recent massive beetle-kill in 
lodgepole pine forests. The cause of these outbreaks was not high tree 
density. Tree densities in these types are naturally very high because 
of this species' reproductive strategy and tree densities in these 
forests have not noticeably increased substantially due to fire 
suppression. Rather, warmer conditions allowed bark beetle populations 
to increase and coupled with a long-term drought widespread mortality 
occurred. Ironically, the lodgepole pine stands least susceptible to 
beetle-kill were those with small diameter and high tree density, the 
conditions where drought conditions should have had the highest impact 
due to high levels of competition. The ecology of these species tells 
us why: this beetle species cannot reproduce when bark falls below a 
certain thickness and adult beetles will not attack trees if the 
beetles cannot reproduce within them, regardless of the tree's drought 
stress. It is therefore important to apply basic ecological knowledge 
in developing an effective solution and not impose a one-size-fits-all 
solution unrelated to addressing actual mechanisms.
        effective management solutions with a responsive system
    While it tempting to assume that once a management treatment is 
imposed from ``above'' that the problem is solved, this is a mistake 
when applied to forests.\2\ This is because forests do not stay the way 
one leaves them, and they often respond in ways that counter treatment 
objectives. Perhaps the best example of this is fire suppression and 
its effects on fuels: suppressing fires initially leads to a decrease 
in fire impacts, but as fuels increase (because of the lack of fire) 
the impacts (at least in some forests) eventually increase. A similar 
response behavior is quite possible for the management actions being 
proposed. Specifically, reducing tree density or carbon in the form of 
fuel is a temporary solution because, unless the underlying controls 
are changed, forests will respond to these actions by increasing tree 
density and carbon. Hence, the solution will have to be repeated 
frequently raising long-term logistical, environmental, and economic 
concerns. This repeated treatment also leads to permanent carbon debts: 
if high fuel/carbon level is the cause of undesired levels of 
disturbance, then to solve the problem one must reduce fuel/carbon 
permanently, hence a carbon permanent debt develops. I should add that 
the argument that carbon debts cannot occur in forests because forests 
are renewable resources is completely erroneous: if high fuel/carbon is 
causing a problem then why would be want this high level to renew?
---------------------------------------------------------------------------
    \2\ A mistake that I might add which has been repeated to the 
degree that an alternative to top down control management approaches 
has recently been developed.
---------------------------------------------------------------------------
    Even if the goal of reducing tree density is permanently achieved, 
forests may react in ways that counter the expected goal. Suppose the 
goal is to greatly reduce the occurrence of crown fires; then tree 
density would have to be greatly reduced because average tree distance 
has to be increased beyond that needed to spread these types of fires. 
This degree of opening in turn would allow smaller forms of vegetation 
(fine fuels associated with fire spread) to greatly increase and these 
openings would also greatly increase the rate of fuel drying. So while 
crown fires might be reduced, fires would continue to be widespread and 
challenge control efforts. In other words, one would replace one 
problem with a slightly different one.
    To avoid these problems, one cannot think of forests as static 
systems that do what they are ``told.'' Instead forests are adaptive, 
responsive systems than need to be persistently ``persuaded'' to move 
in the directions consistent with our management objectives.
                      the fate of harvested trees
    In the testimony harvest removal is viewed as not only solving the 
problem, but having major benefits in terms of goods and economic gain 
as well as major carbon benefits that would exceed carbon losses 
incurred in the forest. The carbon benefits would come in two forms: 
(1) carbon stores related to forest products and (2) substitutions that 
would reduce the use of fossil carbon. While there is an element of 
truth to these statements, they are misleading if accepted at face 
value.
    Let us consider the statement that harvested carbon is stored in 
products. A more accurate statement would be that some harvested carbon 
is stored in products for some time. Although these sound similar, they 
are profoundly different in their effects. Specifically, when carbon is 
removed from forests through harvest, not all of the carbon ends up as 
solid products. If the harvested carbon is used for lumber/plywood/OSB 
production then somewhere between 30-40 percent is lost to the 
atmosphere in the manufacturing process. If the harvested carbon is 
used to make paper, then the amount lost to the atmosphere is around 50 
percent and if used as fuel then it is 100 percent. Contrast these 
amounts to the range of live carbon lost to the atmosphere during 
natural disturbances: somewhere between zero and 10 percent. Moreover, 
consider the fact that wood products have varying life spans in use and 
after they are disposed, that these time frames can be quite short, and 
are roughly comparable to those found for wood decomposing naturally. 
While is it often assumed that the carbon related to mortality is lost 
to the atmosphere, that process can take 3 to 50 decades to complete. 
Taken together, the initial losses in manufacture and the losses in use 
and disposal means that removing carbon by harvest have roughly the 
same carbon storages effects as leaving the wood in the forest to 
decompose. Granted harvesting produces items that humans can use and 
generates wealth, but that should not be conflated with carbon effects.
    Perhaps the biggest misconception is that using harvested wood will 
lead to large amounts of fossil carbon not being used through the 
process of substitution. While this is theoretically possible, there 
are several considerations that must be acknowledged to determine the 
degree this actually will happen. For example, in the case of product 
substitution (that is substituting wood for concrete and steel in 
construction), the preferences for materials has to be considered. In 
North America wood is the preferred material for residential homes, 
with about a 95 percent preference for wood. That would mean that one 
could try to replace the 5 percent of buildings not utilizing wood and 
gain a substitution benefit, but it is not possible to substitute wood 
for wood and gain a substitution benefit for the other 95 percent. The 
situation for taller buildings would differ as concrete and steel are 
currently preferred, but this raises a different problem: to build 
taller buildings using wood one need to engineer laminated materials, a 
process that involves more energy. It is highly unlikely that concrete 
and steel manufacturers will increase their fossil carbon use to keep 
the product-related displacement factor the same. Hence, it is possible 
that amount of fossil carbon displaced by wood use could decrease 
substantially in the case of taller buildings. Finally, for both 
substitutions related to products and energy one must recognize that 
the fossil carbon not used by the building sector today will likely be 
used by other sectors in the future. Consider the estimates of the 
times that fossil fuel carbon is likely to be depleted: 50-250 years 
depending on the form of fossil carbon. Unless this substitution-
related carbon is protected by some actual mechanism, the assumption 
that unused fossil carbon today will never be used in the future is 
completely naive. Taken together it is highly likely that actual 
substitution benefits will be far lower than most expect and, in some 
cases, will not fully counter carbon losses related to forest harvest.
        a strategy that acknowledges odds of success and failure
    As described in the testimony, the suggested management treatments 
appear to assure complete success. Conversely, the path of allowing 
nature to take its course appears to assure complete failure. That may 
be, but this view seems overly deterministic given the system we are 
actually dealing with: critical conditions such as drought and 
temperature that vary greatly from place to place, season to season and 
year to year; different historical pathways creating varying forest 
structures that react to climate and other stressors in different ways; 
and species that not only have different characteristics, but that do 
not interact in consistent ways.\3\ In other words, the system we have 
to deal with is not deterministic, it is highly stochastic (seemingly 
random). Like it or not, we are forced to play games of chance in our 
management.
---------------------------------------------------------------------------
    \3\ The case of bark beetles illustrates this point. When bark 
beetle populations are low, many of these species attack recently 
killed trees, but not living ones. When bark beetle populations are 
high many species attack weakened living trees, and when very high they 
attack even vigorously growing trees. This behavior is related to the 
ability to mass attack trees which is in turn a function of the 
beetles' population size.
---------------------------------------------------------------------------
    There are several ways to increase the odds of success when playing 
games of chance including: (1) know the rules and the possibilities, 
(2) understand the odds regarding outcomes, (3) use a range of 
strategies, (4) recognize that while there is a chance of winning, 
there is also a chance of losing, and (5) decide where and when it is 
best to not play at all. This general strategy is applied to everything 
from poker to investments to medicine. I am not sure why we would not 
apply it to climate change adaptation.
                                summary
    I believe that it is a mistake to apply a single solution (such as 
more tree harvest) to a problem with the complexity of forest 
adaptation to climate change. A more appropriate and productive 
approach would be the development of a broad strategy that considers 
the likelihood of climate change-related phenomena modifying forests in 
ways that do not meet the very wide range of management objectives 
related to forests. To work, this strategy would have to be applied a 
local level given the wide variation at multiple scales from landscapes 
to regions to the Nation in terms of management objectives as well as 
the conditions present in forests. Moreover, it would have to assess 
the range of negative responses possible, their magnitude, and 
likelihood so that efforts can be prioritized. Management solutions 
would have to be tied to the actual mechanisms causing the undesired 
changes and the possible negative side effects (environmental, 
economic, ecosystem) and potential countervailing processes would have 
to be considered to evaluate the chances of success once the solution 
is implemented. Finally, given the inherently stochastic nature of this 
problem it would make sense to use a diversity of approaches (even at 
the local scale) until more information can be gathered as to the most 
effective and efficient solutions.

                                 ______
                                 

[LIST OF DOCUMENTS SUBMITTED FOR THE RECORD RETAINED IN THE COMMITTEE'S 
                            OFFICIAL FILES]

Submission for the Record by Rep. Westerman

  -- Two graphs from Global Resources and the Environment, 
            published by Cambridge University Press.

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
